<html>
<title> - THE SECOND IN A SERIES OF TWO HEARINGS TO DISCUSS THE RESPONSE TO HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 109-1000]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1000
 
   THE SECOND IN A SERIES OF TWO HEARINGS TO DISCUSS THE RESPONSE TO 
                           HURRICANE KATRINA

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
37-441                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            NOVEMBER 2, 2005
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     6
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     5
Jeffords, Hon. James M., U.S. Senator from the State of Vermont, 
  prepared statement.............................................    16
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    14

                               WITNESSES

Baruah, Sandy K., Acting Assistant Secretary of Commerce for 
  Economic Development Administration............................     9
    Prepared statement...........................................    55
    Response to an additional question from Senator Jeffords.....    58
Chapital, Kim Dunn, environmental consultant, Deep South Center 
  for Environmental Justice......................................    37
    Prepared statement...........................................    83
Diaz, Hon. Nils J., Chairman, Nuclear Regulatory Commission......     8
    Prepared statement...........................................    45
    Responses to additional questions from Senator Jeffords......    52
Hall, Hon. H. Dale, Director, U.S. Fish and Wildlife Service, 
  U.S. Department of the Interior................................    10
    Prepared statement...........................................    58
    Response to an additional question from Senator Jeffords.....    76
    Slides....................................................... 62-75
Hines, William H., past chairman and board member, Greater New 
  Orleans, Inc.; cochairman, Economic Development Committee, 
  Mayor's Bring New Orleans Back Commission......................    39
    Prepared statement...........................................    85
Nagin, Hon. C. Ray, Mayor, City of New Orleans, LA...............    22
    Prepared statement...........................................    79
    Responses to additional questions from Senator Jeffords......    82
Winstead, Hon. David L., Commissioner, Public Buildings Service, 
  General Service Administration.................................    12
    Prepared statement...........................................    76
    Responses to additional questions from Senator Jeffords......    78

                          ADDITIONAL MATERIAL

NRC Preparations and Response to Hurricane Katrina............... 49-52
Reports:
    Center for Progressive Reform (CPR), Broken Levees: Why They 
      Failed.....................................................92-104
    GAO, Cost, Schedule, and Performance Problems of the Lake 
      Pontchartrain and Vicinity, Louisiana, Hurricane Protection 
      Project, August 31, 1976..................................105-135
Statement, Aschkenasy, Miriam MD., MPH, Oxfam America, 
  environmental public health specialist, Harvard Humanitarian 
  Institute......................................................    88


   THE SECOND IN A SERIES OF TWO HEARINGS TO DISCUSS THE RESPONSE TO 
                           HURRICANE KATRINA

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2005

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Warner, Bond, Isakson, Vitter, 
Jeffords, and Lautenberg.
    Senator Inhofe. Our meeting will come to order.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    I have been told that we will have quite a few members 
here, but they are not here. We have to stay on schedule. I 
will ask the first panel to go ahead and be seated, and we will 
do some opening statements. I want to welcome all of you here.
    I have to pay particular interest to my good friend, Dale 
Hall, who has assumed a new position and has really done a 
great job in the region. I appreciate very much your being 
here.
    We welcome you to this committee's oversight hearing on 
Activities in Response to Hurricane Katrina. The EPW Committee 
has been actually engaged since the hurricane struck land. We 
have had numerous briefings, we have had, I guess, about four 
briefings and committee hearings on this. In addition to that, 
several of us from the committee went down and met with Senator 
Vitter and others on site.
    There is a good reason for that, because we have the 
jurisdiction in this committee: we have the EPA, the Army Corps 
of Engineers, the Federal Highway Administration, the Nuclear 
Regulatory Commission, the Economic Development Administration, 
GSA, and the Fish and Wildlife Service. With that jurisdiction, 
we have more than any other committee has. So we are very 
interested in staying on top of this, knowing exactly where we 
are.
    Since I gave a lengthy statement at the start of the first 
hearing, I will be brief today. There is no doubt that we face 
many challenges when responding to disasters--in the days 
leading up to the disaster, the days following the long-term 
recovery. What happened with Katrina was unprecedented for this 
country. It is vital that we properly assess the role of the 
Federal Government to find out what has worked and what has not 
worked.
    While we can look back on the initial responses to make 
judgments, there is still much work to be done. For example, 
the EDA has not played a major role to date. They may quickly 
become a major player in both the rebuilding of the Gulf States 
as well as a possible partner in addressing the lack of 
refining capacity that was exploited as a result of recent 
hurricanes.
    I am glad to see Sandy Baruah here representing the EDA 
today. Sandy, it is also my hope that we can get you confirmed 
as soon as possible. In the meantime, you do a good job as 
``acting'' in that position.
    The NRC's role was completed once the hurricane passed and 
the facilities came back on line. They did a tremendous job of 
designing and carrying out their action plan. I hope that 
others can use their preparedness and execution as a model of 
how to do it right. If we are to have a future with a strong 
nuclear energy presence, which is something that I know we will 
have to have if we are going to become anywhere close to 
independent in the future, then we have to have confidence in 
the NRC. They have certainly come through in recent disasters 
with my vote of confidence. So I welcome you, Chairman Diaz, to 
this hearing.
    Fish and Wildlife, I have already talked about my good 
friend Dale Hall. He has done some things, we have done some 
things in Oklahoma that have shown good models for the rest of 
the country. We are looking forward to that.
    I also want to welcome David Winstead, who is here 
representing the Public Buildings Service of the GSA. Since the 
storm affected such a large geographic area, the PBS had 
numerous facilities impacted, more than 3 million square feet 
of space in 83 facilities.
    Of course, I want to welcome Mayor Nagin and the others. I 
met Mayor Nagin down in New Orleans right after the disaster 
took place. He has had his hands full down there.
    With that, we will get on with the hearing. I would like to 
have opening statements from first of all the Senator on this 
committee that was most directly affected.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Good morning and welcome to this committee's oversight hearing on 
activities in response to Hurricane Katrina. The EPW Committee has been 
actively engaged since the hurricane struck land. We have held numerous 
briefings and a day long stakeholder meeting on actions related to 
Katrina. In October, we held the first of a two-part hearing on the 
actions of agencies under the jurisdiction of this committee. EPA, the 
Army Corps and the Federal Highway Administration testified at that 
hearing. Today, we are holding part two and this one will include the 
Nuclear Regulatory Commission, the Economic Development Administration, 
GSA and the Fish and Wildlife Service. We will also hear from the Mayor 
of New Orleans as well as a business leader and environmental justice 
expert as they provide their assessment of how all of these agencies, 
from both the first hearing and this hearing, have responded.
    Since I gave a lengthy statement at the start of the first hearing, 
I will be brief today. There is no doubt that we face many challenges 
when responding to disasters--in the days leading up to the disaster, 
the days following and the long-term recovery. What happened with 
Katrina was unprecedented for this country. It is vital that we 
properly assess the role of the Federal Government to find out what has 
worked and what has not worked.
    While we can look back on the initial response to make judgments, 
there is still much work to be done. For example, while EDA has not 
played a major role to date, they may quickly become a major player in 
both the rebuilding of the Gulf States as well as a possible partner in 
addressing with the lack of refining capacity that was exploited as a 
result of the recent hurricanes. I am glad to see Sandy Baruah here 
representing EDA today. Sandy, it is also my hope that we can get you 
confirmed soon so that you will no longer have the title ``Acting''.
    NRC's role was completed once the hurricane passed and the 
facilities came back on line. They did a tremendous job of designing 
and carrying out their action plan. I hope that others can use their 
preparedness and execution as a model of how to do it right. If we are 
to have a future with a strong nuclear energy presence, then we have to 
have confidence in NRC, and they certainly came through the recent 
disasters with my vote of confidence. I want to welcome Chairman Diaz 
here this morning and look forward to hearing from him.
    The Fish and Wildlife Service went above and beyond the call of 
duty during Katrina. An agency that is known for taking care of 
wildlife, quickly became an agency that would rescue people. We should 
all be proud of their dedication and it is good to see Dale Hall here 
representing them today.
    I also want to welcome David Winstead, who is here representing the 
Public Building Service of the GSA. Since the storm affected such a 
large geographic area, the PBS had numerous facilities impacted--more 
than 3 million square feet of space in 83 facilities.
    And, of course, I want to welcome Mayor Nagin and the others who 
are on the subsequent panels, including Mr. Hines and Dr. Chapital. I 
want thank them for coming to Washington. Mayor Nagin is a very busy 
man right now and I do appreciate him making the effort to be here 
today. I look forward to discussing the issues with them.

    Senator Inhofe. Senator Vitter.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    I want to thank you and the Ranking Member for holding this 
important hearing today in response to the devastating 
hurricanes that hit Louisiana and neighboring States.
    Senator Inhofe. Let me interrupt you just a moment, Senator 
Vitter.
    Would you chair this hearing while I run, and then I will 
be back shortly? I would appreciate that very much.
    Senator Vitter [presiding]. I also want to thank all of the 
witnesses for being here today, particularly our Mayor, Mayor 
Nagin.
    Just over 2 months have passed since our Nation witnessed a 
destructive hurricane, Katrina, that left an entire 
metropolitan area evacuated, flooded, completely closed for 
weeks, and then of course just a few weeks later, Louisiana was 
struck by another major storm, Hurricane Rita. We have lost 
over 1,000 lives and hundreds of billions of dollars in 
economic activity. Now is a critical time for the rebuilding 
effort.
    Several major businesses have pledged to come back to 
rebuild in New Orleans, but there are many other businesses 
that are really deciding right now as we speak whether to come 
back or relocate.
    A key factor, and I can't emphasize this enough, a key, 
leading factor in terms of that decision on the part of so many 
individuals and businesses is strong hurricane protection that 
could withstand a Category 5 hurricane. People need absolute 
assurance that the level of hurricane and flood protection will 
be much greater than before Hurricane Katrina. They don't want 
to relive the catastrophic effects experienced over the last 
few months. Clearly, rebuilding the levees to withstand a 
Category 5 hurricane will help alleviate the fears people have 
about moving back and reinvesting their lives and businesses in 
New Orleans.
    Just as clearly, this is an absolute national priority, 
because nothing could be more foolish than our not getting that 
job done, and then again, within our lifetime facing another 
$100 billion, $150 billion price tag as another similar storm 
hits New Orleans.
    We are not only building stronger levees, buildings and 
infrastructure, but of course we are also trying to revive a 
shattered economy. We need to help our local job base remain 
strong and provide incentives that will bring even more jobs 
and businesses back to New Orleans to get our economy up and 
running again.
    As I have stressed many times, the response and recovery to 
Hurricane Katrina is not some parochial, narrow Louisiana 
issue. Our area fuels this Nation with 20 percent of the energy 
needed to power the United States. Virtually every American is 
paying higher gas and home heating oil prices. That is going to 
have a detrimental effect on our Nation's economy.
    In addition, the ports between the mouth of the river and 
Baton Rouge comprise the largest port system in the world. That 
system provides 36 States with maritime commerce and midwestern 
farmers depend on our ports and waterways to get their crops to 
market.
    Louisiana's offshore industry provides up to 36 percent of 
the domestic seafood consumed in this country: shrimp, 
crawfish, oysters, much more. Much of our ecosystem and fishing 
fleet has been destroyed. So there again is a third major 
national impact.
    Finally, our coastal estuary is one of the most productive 
in the Nation and supports the life of the majority of wildlife 
in the Gulf of Mexico.
    I recognize and support the important oversight role and 
authority of this committee. But with that authority comes 
extraordinary responsibility for acting quickly, decisively and 
boldly to immediately provide the confidence to our citizens 
that a more secure New Orleans will be open for business. We 
need to rebuild Louisiana so people are safe from future 
hurricanes. We need hurricane and flood protection levees that 
will sustain Category 5 protection. The only appropriate 
response to the protection of south Louisiana is programmatic 
authority to implement this strong hurricane and flood 
protection in a fast track manner, because that is absolutely 
critical to getting people back, jobs back, investment back.
    So with that, I look forward to hearing from all of our 
witnesses today. Thanks very much.
    [The prepared statement of Senator Vitter follows:]

    Statement of Hon. David Vitter, U.S. Senator from the State of 
                               Louisiana

    Chairman Inhofe and Ranking Member Jeffords, thank you for holding 
this very important hearing today in response to the devastating 
Hurricanes that my home State of Louisiana has unfortunately 
experienced first-hand. I would also like to thank each of the 
witnesses for being here today, especially those from Louisiana.
    Just over 2 months have passed since our Nation witnessed the 
destruction of Hurricane Katrina--an entire major metropolitan area 
evacuated, flooded and completely closed for weeks. A few weeks later, 
Louisiana was struck by another major storm, Hurricane Rita.
    We have lost over a thousand lives and hundreds of billions of 
dollars in economic activity. Now is a critical time for the rebuilding 
effort. Several major businesses have pledged to come back to rebuild 
in New Orleans. However, there are many other businesses that are 
deciding now about whether to relocate elsewhere or come back and 
rebuild in Louisiana.
    A key factor for bringing back businesses and citizens to New 
Orleans is strong hurricane protection that could sustain a Category 5 
storm. People need assurance that the level of hurricane and flood 
protection will be much greater than before Hurricane Katrina. They do 
not want to relive the catastrophic effects experienced over the past 
few months. Clearly, rebuilding the levees to withstand a Category 5 
storm will help alleviate the fears people have about moving back and 
reinvesting their lives and businesses in New Orleans.
    We are not only rebuilding stronger levees, buildings and 
infrastructure, but also reviving a shattered economy. We need to help 
our local job base remain strong and provide incentives that will bring 
even more jobs and businesses back to New Orleans to get our economy up 
and running again.
    As I have stressed many times, the response and recovery to 
Hurricane Katrina is not just a Louisiana issue. Louisiana literally 
fuels this Nation with 20 percent of the energy needed to power the 
United States. Virtually every American is paying higher gas and home 
heating oil prices and that is going to have a detrimental affect on 
our Nation's economy. The ports between Baton Rouge and New Orleans 
comprise the largest port system in the world. We provide 36 States 
with maritime commerce and mid-western farmers depend upon our ports 
and waterways to get their crops to market. Louisiana's offshore 
industry provides up to 30 percent of the domestic seafood consumed in 
this country shrimp, crawfish, oysters and many more. Much of our 
ecosystem and fishing fleet is destroyed. Finally, our coastal estuary 
is one of the most productive estuaries in the Nation and supports the 
life of the majority of wildlife in the Gulf of Mexico.
    I recognize and support the important oversight role and authority 
of this committee. With that authority comes the extraordinary 
responsibility of acting quickly, decisively, and boldly to immediately 
provide the confidence to our citizens that a bigger, better New 
Orleans is open for business. We need to rebuild Louisiana so people 
are safe from future hurricanes. We need hurricane protection and 
levees that will sustain a Category 5 hurricane. The only appropriate 
response to the protection of south Louisiana must include programmatic 
authority to implement strong hurricane protection and flood prevention 
that is critical to the rebuilding and economic recovery effort.
    I look forward to hearing from the witnesses. Thank you.

    Senator Vitter. Senator Isakson, do you have an opening 
statement?

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. I will be brief, Senator Vitter. I thank 
you for chairing the hearing. I thank the Chairman for calling 
the hearing. I think all of us associate ourselves with the 
remarks of Senator Vitter, because we kind of suffered together 
with the two Senators from Louisiana during the tragedy of 
Katrina. We also suffered together a little bit with the post-
Katrina aftermath, where the Government came under great 
criticism, particularly FEMA and others, for the response they 
did at the time.
    But that is behind us. The comment I would like to make in 
concert somewhat with what Senator Vitter said, is from a 
Senator from another State, a southern State but somewhat 
removed, although we have a lot of Louisiana's kids right now 
in our public schools, because they have come to Georgia to 
take care of that, as we respond and as we rebuild, and as a 
former real estate developer, this is a redevelopment project.
    I would encourage each of your agencies to recognize that 
we need an overall, coordinated plan, inter-governmentally, so 
that the agencies that are responding in different ways are 
coordinated and so that the vision for that plan is something 
that everyone understands.
    I don't know what New Orleans will look like 20 years from 
now. But I do know what it looks like, and how it looks will 
depend greatly on how the agencies coordinate and how the plans 
develop. Probably beginning and ending with what is done with 
the estuary, what is done with the lake, what is done with the 
river and what decisions we make.
    So my encouragement is to have an intergovernmental agency 
cooperation attitude and a central master plan. I do not know 
whose responsibility it would be to ultimately decide on what 
that plan is, and it certainly needs to be coordinated between 
the responsibility of the Federal Government under its Stafford 
Act responsibilities as well as our other responsibilities, in 
coordination with the State of Louisiana and with the city of 
New Orleans.
    The American taxpayers, I believe, are willing to do their 
share and their responsibility in helping the people of 
Louisiana recover. The enthusiasm of that will be directly 
proportionate to the appearance and the reality of governmental 
cooperation and fiscal responsibility. The only way you can do 
that is to have an executed plan where the agencies are 
coordinated together.
    With that, I appreciate the time, Mr. Chairman.
    Senator Vitter. Thank you, Senator.
    Senator Kit Bond of Missouri.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Senator Vitter. Thank 
you very much for chairing this hearing.
    Let me say that Senator Vitter is new on the Senate side, 
with a lot of experience on the House side. He has stepped up 
and been a very effective, responsible voice for the recovery 
efforts in his devastated State. There is nothing like being 
thrown into one of the biggest crises that this Nation has seen 
in recent history in your first year here. You have the 
admiration and support of all of us as you go forward.
    I am delighted to see some good friends here who can make 
things happen at the Federal level. I think our responsibility 
is to make sure things happen properly. Let's make them happen 
correctly. You have talked about the need for moving forward 
quickly on a fast track with the Corps of Engineers. Well, you 
well know and Senator Isakson well knows that as we are trying 
to move a Water Resources Development Act to authorize the 
Corps of Engineers to move forward, we have some on the other 
side of the aisle who want to put more impediments in the way, 
they want to slow it down, they want more red tape.
    Well, Senator, I am from a State that knows something about 
floods. In 1993, 1995, we had hundred year floods, we had 
devastation throughout. We had to fight an Administration then 
who didn't even want to rebuild the levees. At least now I 
think you have the Federal Government understanding that levees 
save lives, protect billions and billions of dollars of 
property loss that otherwise would occur. We want to work with 
you to make sure that you get those levees.
    I know that EDA is going to come through with help in 
grants and our good friend, the Commissioner of Public 
Buildings in GSA is probably going to be building some great 
new public monuments and replacing them, although I understand 
many of them came through unscathed. I served as a clerk on the 
Fifth Circuit Court of Appeals in 1963 and 1964, and admired 
that New Orleans courthouse for the Court of Appeals.
    I think there are some very tough decisions that have to be 
made and we are being asked to foot a very significant Federal 
bill. We want to make sure that the planning is done properly 
and there is a means of enforcing it. As one who has done a lot 
of work and had to move people out of flood plains in Missouri 
where they had been flooded, the city of Plattsburg, and I 
could go down the list, the city of Times Beach.
    We moved them out of the flood plain. Does it really make 
sense to put poor people 20 feet below sea level? No matter 
what kind of levee you build, what makes sense? OK. I think it 
makes sense, certainly there is an area of New Orleans that was 
not flooded that needs to be protected. Can we protect all of 
the outlying areas of New Orleans with a Category 5 levee?
    This is something that needs to be decided in cooperation 
between the local officials and representatives of the Federal 
Government that are going to have to pay for it. I had a very 
disturbing conversation with a friend I had known 40 years ago 
who grew up in New Orleans, a dedicated person who loves New 
Orleans. He said, our biggest problem is we can't have any 
effective land use planning. We try to develop a land use plan 
and somebody goes to the local city councilman with some means 
of persuasion, I will not get into what that is, and they get a 
variance.
    If we are going to be making these major investments in New 
Orleans, is there going to be a system which is thought out and 
takes into account all the interests of stakeholders, the 
protection of the people who are there and that can and will be 
enforced? With the kind of Federal investment we are making 
there, I think we have to be sure that we are not putting 
people needlessly at risk.
    There is a lot that we have learned from this disaster. 
Unfortunately, we have had the privilege of learning from other 
disasters, and I am one of those who can say I had the 
experience, experience being what you get when you expected to 
get something else, helping my State recover from the 
disastrous floods 12 and 10 years ago.
    I sympathize with you, I am going to work with you, but we, 
and I think you have been a very responsible voice, and we need 
to have a responsible plan that comes with the major input from 
the people who live there, live in New Orleans, but with a 
guarantee that there are going to be limits and restrictions 
placed on development so that we protect what we can and make 
other provisions in other areas.
    I'm sorry, I have another meeting to go to, but as one who 
chairs the subcommittee that handles WRDA, we hope we can work 
with you and pass a WRDA bill that doesn't have any more 
restrictions on it, that recognizes that building levees saves 
lives. Had we built one in New Orleans, we would have saved a 
heck of a lot of money. Building levees should not be a sport 
just for more legal red tape and lawsuits.
    Thank you, Senator, and best wishes.
    Senator Inhofe. Thank you, Senator. Now we will hear from 
our first panel, starting with Dr. Nils Diaz, Chairman of the 
U.S. Nuclear Regulatory Commission.
    Dr. Diaz.

 STATEMENT OF HON. NILS J. DIAZ, CHAIRMAN, NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Diaz. Thank you, Mr. Chairman. It is my privilege on 
behalf of the Nuclear Regulatory Commission to discuss our 
preparations and response to Hurricane Katrina and the results 
of the combined efforts of NRC licensees, our Federal and State 
partners, and the NRC in protecting public health and safety, 
the environment, and the common defense and security. My full 
testimony, Mr. Chairman, with an actual, factual NRC time line 
for the Hurricane Katrina activities, has been submitted for 
the record.
    I will start at the end, Mr. Chairman. The three nuclear 
powerplants affected by Hurricane Katrina along the Gulf Coast 
are safe and secure and were safe and secure throughout the 
period of concern. The radioactive sources under Agreement 
States' authority or directly under NRC authority are safe and 
secure. The well established and frequently tested capabilities 
of the NRC, our Federal and Agreement States partners, and our 
licensees were exercised and proved to be effective during 
Hurricane Katrina.
    Our emergency preparations are always focused on three 
distinct protective actions: prevention, monitoring, and 
mitigation. In the particular case of hurricanes, prevention 
through preparedness has been effective to date and we will 
continue to stress full preparedness.
    We continue to assess new lessons learned from Katrina and 
other hurricanes. These will be taken into consideration to 
make our capabilities and those of our licensees even better. 
Communications is one of those key areas that we are working on 
for further improvement. At the same time, we will be working 
in cooperation with Federal and State agencies to further 
improve preparedness capabilities in NRC's areas of 
jurisdiction.
    Mr. Chairman, of primary concern in NRC emergency 
preparedness activities are the nuclear powerplants. We take 
this very seriously, because of their importance and because of 
their complexity. On the other hand, we have the advantage of 
many years of practice. Practice makes better. At specific 
locations with well-known characteristics and capabilities, of 
the 64 power reactor sites in the country, about half need and 
have specific emergency procedures to deal with hurricanes 
because of their locations. Through the years, these 
capabilities have been exercised, and recently they have been 
exercised often.
    Radioactive sources, typically sealed and in devices, 
present us with a different challenge in variety and location, 
but they do have lesser risks. I must acknowledge at this point 
the tremendous support we have received from the State and 
Federal authorities in establishing the safety and security of 
radioactive sources.
    Mr. Chairman, I would like to recognize the effort's by NRC 
licensees, local, State and Federal law enforcement officers, 
and the National Guard to provide the vigilance and support to 
maintain the safety and security of nuclear powerplants and 
radioactive sources in the States affected by the hurricanes. I 
also want to recognize the efforts of many, but especially DHS/
FEMA, in promptly evaluating off-site emergency preparedness 
and response capabilities for the nuclear powerplants after the 
hurricanes passed, to allow those plant sites to return safely 
to service and provide electricity to affected areas.
    These joint NRC-FEMA and reactor licensees' efforts were 
used for Hurricanes Katrina, Rita and now Wilma. The affected 
powerplant sites in Florida and along the Gulf Coast have 
resumed supplying electricity to support recovery of the 
regional infrastructure.
    Last but not least, I want to recognize the discipline and 
consistent work of the NRC staff to prepare for and discharge 
emergency activities for every national disaster that has 
threatened our licensed facilities, including Hurricane 
Katrina. Our preparations and rigor have paid off.
    Again, I thank you. I will be pleased to answer your 
questions.
    Senator Vitter. Thank you, Dr. Diaz, very much.
    Next we will hear from Mr. Sandy Baruah, Acting Assistant 
Secretary of Commerce, for the Economic Development 
Administration.

  STATEMENT OF SANDY K. BARUAH, ACTING ASSISTANT SECRETARY OF 
        COMMERCE FOR ECONOMIC DEVELOPMENT ADMINISTRATION

    Mr. Baruah. Senator Vitter, thank you very much. Let me 
thank the Chairman and the Ranking Member and the members of 
this committee for having me here today.
    This is a timely matter for me to comment on, as I have 
just returned from Louisiana. Yesterday along with the Director 
of the Minority Business Development Agency, I saw first-hand 
the devastation to the great city of New Orleans. In addition, 
I visited at length with the Mayor of Baton Rouge and others 
from the region. It is exceptionally clear to me, Senator 
Vitter, that our Nation faces an unprecedented challenge but a 
unique opportunity to recover from this terrible natural 
disaster.
    The Administration, the Department of Commerce and the 
Economic Development Administration are committed to the 
economic revitalization of the Gulf Coast. As you are aware, 
President Bush has called for an unprecedented effort to 
promote the region's recovery and economic revitalization. The 
focus of these efforts is to implement a regional, 
collaborative, multi-pronged approach aimed at providing 
appropriate incentives and targeted Federal investments to 
create the conditions in which the private sector can 
confidently again invest in the region's economic recovery.
    While we are not here today asking for additional funding, 
we will be participating in the recovery efforts using our 
existing human and financial resources. EDA is proud to be a 
supporting player in the Federal effort to get people back to 
work and businesses, both large and small, back on their feet.
    EDA has a long history of supporting proven and effective 
long-term recovery. The Agency has played varying roles in most 
of the major natural disasters over the past 40 years. 
Additionally, under the National Response Plan, EDA represents 
the Department of Commerce as a primary agency in Emergency 
Support Function No. 14, which focuses on long-term community 
recovery.
    Of course, EDA over the years has accepted several mission 
assignments from FEMA, including for Hurricane Katrina, and we 
are pleased to support FEMA's lead role in these recovery 
efforts.
    One of the nice things about being part of the Commerce 
family is our sister agency, NOAA. Because of NOAA's good work 
in this year and years past, we were able to anticipate the 
active hurricane season that we have just witnessed. Under the 
direction of Secretary Gutierrez, EDA began to prepare to 
support economic recovery efforts prior to Katrina's landfall. 
In the days following the hurricane, Secretary Gutierrez 
announced grants to the States of Louisiana and Mississippi for 
$4 million for each State and two additional grants for 
$450,000, and $390,000 to Alabama for immediate economic 
planning purposes.
    In addition, we immediately established an internal 
hurricane recovery task force and began to make our regional 
staff available to the Governors of Louisiana, Mississippi and 
Alabama. As the recovery efforts progress, EDA will continue to 
leverage our available resources for the purposes of effective 
revitalization efforts that result in real, meaningful and 
long-term economic impacts.
    EDA designs its investments to ensure significant 
leveraging of private sector resources. Because even in 
situations like this where the Federal Government plays an 
important and major role, at the end of the day, it is the 
private sector's ability, ability and willingness to invest in 
a region that is the key factor for creating job opportunities 
and long-term economic growth.
    Additionally, the Bureau will work closely with the Office 
of Inspector General with regard to the award and 
administration of all Katrina-related disaster recovery funds. 
EDA views the Office of Inspector General as a valuable 
partner.
    While it is important that Federal, State and local 
governments move smartly to address immediate needs, economic 
revitalization efforts must be based on a sound economic 
development strategy. To this end, it is important to work not 
only with State and local officials, but also with the region's 
business leaders. Business leaders and private and public 
sector officials must share a common vision for the rebuilding 
of the Gulf region in order to ensure maximum effectiveness.
    EDA is proud to play a supporting role in the coordinated 
Federal response to this unprecedented natural disaster. Thank 
you for your time. I appreciate the opportunity to be here 
today.
    Senator Vitter. Thank you. Next we have the Hon. Dale Hall, 
Director of the U.S. Fish and Wildlife Service.

    STATEMENT OF HON. H. DALE HALL, DIRECTOR, U.S. FISH AND 
       WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Hall. Thank you, Mr. Chairman, Senator Isakson, members 
of the committee. It is a real pleasure for me to be here 
today.
    Along with my written testimony you have in front of you a 
handout with some slides in it that you might like to peruse as 
we go through.
    It truly is a pleasure to be here, because even though our 
hearts are broken over the tragedy and the devastation of the 
storm, our hearts are also uplifted by the story I have to tell 
you now about the response of the Fish and Wildlife Service 
employees to try and help their neighbors and friends.
    At the initial response after Katrina, within 24 hours, we 
had people on the ground helping to rescue and take people out 
of harm's way. Within 4 days, we had a full service command 
center set up at Big Branch March National Wildlife Refuge, 
just outside of Mandeville, LA and about 25 miles north of New 
Orleans.
    Our people provided assistance in rescuing over 4,500 
people during the aftermath, cleared 14\1/2\ miles of roads, 10 
miles of fire breaks, more than 300 driveways and 4 major 
parking lots so other command centers could be set up. We 
conducted reconnaissance on 65 miles of roadways covering more 
than 100 streets, so that the people could return to their 
homes.
    In all, more than 600 of our employees worked in the 
aftermath of Katrina and did shifts at Big Branch Marsh 
National Wildlife Refuge, where we provided food, shelter, 
water, fuel, showers, laundry and other facilities to the 
workers on the ground besides our own people, the American and 
International Red Cross, National Guard, U.S. Immigration 
Service, Customs Service and FEMA personnel.
    We served over 25,000 meals to Louisiana workers and to the 
people at the Louisiana Heart Hospital, 3,600 showers and 1,900 
loads of laundry. That may not sound like the earth-moving 
activities that one would expect, but to the workers those 
showers and those clean clothes meant an awful lot.
    The resources that were impacted were significant. I would 
like to add a little note here, that there was a personal note 
for me. My wife's family is from Louisiana. She is from Bunkie. 
I have relatives in Mandeville and my daughter was a nurse at 
Memorial Medical Center. She was stranded inside the hospital 
for 4 days until officers from the Louisiana State Police, the 
Texas Parks and Wildlife Department and U.S. Fish and Wildlife 
Service rescued her and the remaining members of the medical 
staff and several patients that were left in there. So this is 
close to me in many ways.
    When we look at our other family, the Fish and Wildlife 
Service family and our lands, Breton National Wildlife Refuge 
has lost over half of its land mass. We have had over 150,000 
acres of coastal marshes impacted, and that impacted sea turtle 
nesting and red-cockaded woodpecker. The timber has been blown 
over to a significant level. Sixteen National Wildlife Refuges 
were closed during the aftermath.
    As a response to this, the Administration has asked for $61 
million to help us repair and rebuild some of those structures. 
Prior to Katrina, coastal wetland loss in Louisiana was about 
24 square miles per year. Those marshes provided a lot of 
benefit to the people, to their protection, to their economy, 
to their culture.
    We believe that one of the strongest things that we can do 
is actually recognize the role that those coastal wetlands play 
in buffering storms and in slowing down the wind and the storm 
surge in particular. The coastal marsh restoration and 
rebuilding should be highly considered as part of the storm 
abatement project, right along with levees and other flood 
gates and structures, because those structures can help protect 
the protective measures as well as the people that sit behind 
those.
    In closing, Mr. Chairman, there is no way that I can tell 
you here today how proud I am of the response of our employees. 
Twenty-one of our people lost everything that they had, and yet 
the very next day, they were up at Big Branch Marsh saying, 
what can I do, and they continued to work throughout the 
aftermath to help everyone else. That is the kind of dedication 
that came from the people in the Fish and Wildlife Service and 
the other agencies to respond to this and do what we could to 
help our neighbors.
    Thank you, Mr. Chairman, Senator Isakson, and I look 
forward to answering any questions you may have.
    Senator Vitter. Thank you very much, Director Hall.
    To round out Panel I, we have Mr. David Winstead, 
Commissioner, Public Buildings Service, General Service 
Administration.

   STATEMENT OF HON. DAVID L. WINSTEAD, COMMISSIONER, PUBLIC 
       BUILDINGS SERVICE, GENERAL SERVICE ADMINISTRATION

    Mr. Winstead. Good morning, Mr. Chairman, Senator Isakson, 
members of the committee. My name is David Winstead, and I am 
Commissioner of the Public Buildings Service with GSA. I thank 
you for inviting me here today to respond to your questions on 
Hurricane Katrina and the follow-up recovery efforts. I would 
ask that my written statement be made part of the record.
    GSA, as you know, manages a diverse portfolio of real 
estate for the Federal Government, over 340 million square feet 
of space in office buildings, courthouses, border station 
warehouses and other facilities. We serve nearly 60 agencies 
over 400 bureaus, the U.S. courts, Congress and house over a 
million Federal employees. We really view ourselves at Public 
Buildings Service as sort of mission enablers, providing the 
work places solutions for the Federal agencies.
    This year has obviously been a challenge for all of us. Six 
hurricanes have struck the United States. We have seen all the 
news on Hurricane Katrina, Rita, and Wilma and I am sure, 
Senator, you have great first-hand experience. Actually, my 
family is from New Orleans, my mother's family, so I have been 
down there as well.
    While all these impact our customers and our real estate 
assets in the Gulf Coast region, Hurricane Katrina was 
obviously the worst. The impact zone was 200 miles wide, 
ranging as far as Louisiana and as far east as Florida, north 
to Kentucky and spanning two GSA regions. I am very pleased 
this morning to have two people that were instrumental in our 
response, both in Region 4, in Florida, Alabama and 
Mississippi, Tom Walker, behind me, who headed up that effort, 
and also in Region 7, which is Louisiana-Texas, Jim Weller, who 
was very active down there in Louisiana. Also Bill Matthews, 
who is the Assistant Commissioner for Office of Real Property 
Asset Management here as well.
    In the face of this unprecedented demand created by these 
three hurricanes, GSA's first priority was to support FEMA. We 
provided and continue to provide communications support, 
emergency relief supplies, facility space, office equipment and 
contracting services. The level of support required of GSA has 
been greater than we have ever experienced. The hurricanes 
posed two additional challenges to the PBS, and that was to 
provide space and continued service to our Federal customers' 
employees, and to safeguard our real estate assets.
    To meet these two challenges, GSA drew from an extensive 
experience of professionals in our property management field, 
leasing, architectural and engineering disciplines. The GSA 
hurricane response strategy was developed from lessons learned 
by our well-practiced regional associates in our regions who 
have been very active, both in Regions 4 and 7, and also have 
been aided from our central office here in Washington.
    The strategy has comprised both advance preparation, 
looking at storm patterns and buildings that were being 
threatened, customer communication and 24-hour hot lines, 
damage assessment, returning customers to operational 
facilities as soon as possible, and returning owned and leased 
property to operational status. This last step may be as simple 
as obviously waiting for the area power to come back on or as 
complex as both repairing or completely replacing facilities or 
find other lease options.
    We begin our advance preparation once the National Weather 
System projects a hurricane, buildings located within the path 
are identified and reviewed, preventive actions are taken, 
daily conference calls and readiness occur and regional 
personnel follow the direction of local officials regarding 
evacuation. Preventive actions include testing and obviously 
fueling generators, inspecting and securing building 
components, shutting down building systems where possible, 
placing sandbags where appropriate and boarding up lower levels 
of multi-story buildings.
    I would comment in the case of Hurricane Katrina, when the 
storm surge was predicted for Gulfport, MS, the first three 
floods of the Dan Russell Federal Building and Courthouse were 
boarded up at an expense, and this was predicted, and we did 
this in advance as a preventive measure, and the overall cost 
was $20,000. But the investment saved the Federal taxpayer an 
estimated $1 million in projected damage had that action not 
occurred.
    To maintain our communication with our Federal employees 
and customers about their buildings, we establish hot lines and 
Web sites. Our command structure and rapid response teams are 
described more fully in my written statement.
    In terms of our real property assets, GSA suffered no 
catastrophic losses due to Hurricane Katrina. Damages included 
power outages, water intrusion, power distribution equipment 
damage, limited structural damage, mold buildup, broken windows 
and related activities. Of the 42 Government-owned locations 
the most substantial damage occurred in New Orleans where 
buildings withstood obviously wind and severe water floods.
    This is a testament to the design and construction of our 
building inventory, both in terms of our older and more 
historic buildings, such as the New Orleans Federal Custom 
House as well as the new Federal Building, which I mentioned, 
which is the Dan Russell Federal Building and Courthouse in 
Gulfport.
    In contrast, the leasing inventory fared less well with 
damages ranging from total loss to minor repairs. About 12 to 
15 leases may require us to terminate the lease. Within the 
GSA-provided space, there are approximately 2,600 Federal 
employees and 28 Federal agencies that have been impacted. To 
date, all customer agencies are operational and as of October 
27, 3 Government-owned and 33 leased facilities, for a total of 
36, remain closed as a result of the storm. But these are now 
being addressed on follow-up action.
    I know I am out of time here, Senator. I would be happy to 
answer any questions.
    Senator Vitter. Thank you very much, Mr. Winstead.
    We are also joined by Senator John Warner of Virginia. I 
want to welcome the Senator and invite any opening comments.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. First I would like 
to commend you for your industrious efforts on behalf of not 
only Louisiana but the whole belt that suffered, the whole belt 
of States there. Mr. Chairman, I think it is also important 
that your work to persuade the President to, as we announced 
this morning, to have this new individual who becomes, through 
Mike Chertoff, the focal point.
    I also want to thank the Mayor, who will soon be before 
this panel. I was privileged to come down with a group very 
early on, and I remember sitting in that room and listening to 
you and your colleagues. I think history will have to record 
who did what when, why and so forth. But we have to go forward.
    I was much impressed. I watched carefully the television, 
as others, about individuals. One fellow got up this morning 
and he said, ``you know, if we could just get the Government 
out of my business, I could have this trailer park up and these 
people would be in here over the weekend.'' I think we need to 
look at those options.
    I commend you, Mr. Chairman, for your work.
    Senator Vitter. Thank you, Senator.
    I will kick off the questioning. I wanted to first ask all 
of you a follow-up to Senator Warner's comment. As you know, 
yesterday the Administration announced the appointment of a 
single Federal point person, a Federal coordinator for 
reconstruction and recovery in the entire devastated region. 
That is going to be Don Powell, who has been serving as the 
chair of FDIC.
    I want to ask you three things. No. 1, have you received, 
in your agency, specific information about the creation of that 
position? No. 2, have you made plans to brief Mr. Powell about 
how you fit into the puzzle on the Federal side? No. 3, how do 
you think your response in terms of this recovery effort needs 
to change in light of this single Federal point person? How 
will that change the way you do business day to day as part of 
the ongoing recovery effort?
    We will just go from my left to right.
    Dr. Diaz.
    Mr. Diaz. Thank you, Mr. Chairman. We have just received 
the normal amount of information, both by the press and by our 
normal internal communications. But nothing really 
significantly specific that we can move on. But we of course 
will be ready to brief and have been always ready to brief our 
Federal counterparts.
    We do not believe that our response will change 
significantly. The reason is that we really have a very 
distinct advantage, because we have been doing this for so many 
years. We already know who we need to be in contact with, when 
we need to be in contact with them, how we need to be in 
contact with them. So we have very, very localized assets that 
are able to be quickly deployed to areas for which we know 
where they are, we know what the problems are, we know what the 
characteristics are.
    We actually have been for many, many years exercising with 
FEMA, and with the States, to be able to provide not only the 
preparation that is needed but the support. There would be one 
area that I think we would emphasize when the integration takes 
place, and that is the area of communications. We do believe 
that we can enhance and should enhance our communications, and 
that our partners, both the Federal, State and local agencies 
will probably benefit from enhanced communications.
    Senator Vitter. Mr. Baruah.
    Mr. Baruah. Mr. Chairman and Senator Warner, we certainly 
welcome the appointment by the President of Don Powell. We did 
receive notification from the White House of his appointment 
and what his role will be.
    Regarding briefings for Mr. Powell, Senator, we will do 
that as part of the whole Department of Commerce. That will 
probably be led by our Deputy Secretary. We will brief as 
requested as a Commerce unit, and so we are briefing in the 
total package of what the Department of Commerce has to offer 
and what our capabilities are.
    Regarding how EDA specifically will change our activities, 
my answer is hopefully not a great deal. What I mean by that is 
hopefully that we would always be working in a coordinated 
Federal fashion anyway. But with the appointment of Mr. Powell, 
I think we will wait and see and certainly take direction from 
him in his new role as to how we should best respond.
    I think it is very important, the way we look at disaster 
recovery at EDA is not that EDA has to be all things to all 
people. We look at it very much as we are a piece of the 
puzzle, a piece of the Federal puzzle. Just because we don't do 
everything, there are others that are doing things, and we can 
support that and we play a very specific role. So we certainly 
welcome an overall coordinating aspect to the Federal effort.
    Senator Warner. Mr. Chairman, if I could interject.
    Senator Vitter. Sure.
    Senator Warner. I think it would be wise if the committee, 
and I am sure the Executive Branch would provide the committee 
with exactly how this communication came, because we should 
then learn from that more about the description and the powers.
    Senator Vitter. Absolutely. I think it took the form of two 
Executive orders, so we need to get those.
    Senator Warner. I think that would be good. I must say, Mr. 
Baruah, your metaphor, Federal puzzle, is an interesting one. I 
will have to think about that a little bit. I like that.
    [Laughter.]
    Senator Warner. Thank you very much.
    Senator Vitter. Mr. Hall.
    Mr. Hall. The whole activity of post-storm is being 
actually worked out of the Secretary of the Interior's office. 
We provide input and information to them. I have not, at the 
Fish and Wildlife Service, received specific instructions, 
because I don't know exactly if I will be or our Agency will be 
directly working with Mr. Powell. But we assume the Secretary's 
office will.
    The briefings that we will be doing are feeding the U.S. 
Geological Survey, and we are the two primary agencies in the 
Department of Interior that have been working down there, USGS 
from their coastal information and we from the refuges and our 
work down there.
    How it would change our approach, it probably won't. As I 
stated in my testimony, we tried to lead, follow or get out of 
the way, depending on what the circumstance called for. If they 
needed us to get into airboats and go rescue people, then 
that's what we did. If they needed us to take chainsaws and 
clear driveways to help the community rebuild, then that's what 
we did. If they needed us to feed people, that's what we did.
    We think that we work with the communities and the other 
agencies in a very effective manner already. But if there are 
ways that we can improve, we will certainly try and find those.
    Senator Vitter. Mr. Winstead.
    Mr. Winstead. Mr. Chairman, likewise, the Public Buildings 
Service in GSA, David Bibb, our Acting Administrator, myself 
and other commissioners are aware of this appointment. We will 
continue to work, obviously in coordinating in this uniform 
effort. I don't think it will change a lot in terms of our 
support both at PBS and GSA and FEMA. But we are going to, our 
established communications will continue with Mr. Powell. We 
look forward to meeting with him very soon to offer up both our 
procurement support as well as our expertise in Region 7 and 
Region 4.
    Senator Vitter. All right. I want to recognize Senator 
Jeffords, the Ranking Member of the committee, from Vermont. 
Senator, thank you for being here, and please, if you have any 
opening statement or questions for the panel or both.
    Senator Jeffords. Thank you very much.
    I have followed with interest your efforts to assist. I 
think you deserve a great deal of credit for what happened.
    I ask unanimous consent that my full statement be made a 
part of the record.
    Senator Vitter. Without objection.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Good morning. Mr. Chairman, I want to thank you for holding today's 
hearing, which is part two of the oversight hearing we held on October 
6 with the EPA, Army Corps, and Department of Transportation as 
witnesses.
    Hurricanes Katrina and Rita have had a devastating impact on the 
Gulf Coast of this Nation. It is critical that we do everything that we 
can to improve the lives of our fellow Americans whose lives have been 
uprooted.
    The Agencies within this committee's jurisdiction have a major role 
in both the response and the recovery operations for Hurricane Katrina.
    I want to extend a welcome to New Orleans Mayor Ray Nagin. It is 
imperative that we hear your views on the actions of these agencies in 
response to Katrina, and I am pleased that we will get your 
perspective.
    Mr. Chairman, I am going to take a few minutes to address how we 
got here and give some context to today's hearing.
    Over the last 200 years, we have moved from an ad hoc approach to 
disaster response to a coordinated, orderly approach.
    On September 11th, the Nation was struck by a terrorist attack. The 
effectiveness of FEMA helped reduce the impact of those events. After 
September 11th, the Department of Homeland Security was formed.
    In what I believe is an example of extremely poor judgment that 
failed to take into account FEMA's role in responding to natural 
disasters, FEMA was moved into the Department.
    With Katrina, I believe that we witnessed the degradation of our 
national response system as a result of that change.
    As Congress determines what the next steps are, we must ask 
ourselves are we witnessing a performance failure by the Federal 
agencies to execute their authorities, or, are we missing needed 
authority? I believe we have witnessed a performance failure.
    In the wake of this performance failure, Congress is stepping in. 
There have been about 50 Katrina-related bills introduced.
    I am concerned that we are returning to the ``ad hoc'' response to 
disaster that the Stafford Act was designed to prevent.
    We need to return some order to our disaster response capabilities. 
In the short term, we need to be sure that Katrina recovery proceeds in 
a sensible manner, given what has occurred to date.
    On October 6, I joined my colleagues on the minority side of this 
committee in introducing S. 1836, the Gulf Coast Infrastructure 
Redevelopment and Recovery Act, to respond to Hurricane Katrina.
    Our legislation will provide direction to those agencies in our 
jurisdiction to ensure that Katrina recovery happens quickly, protects 
public health and the environment, and uses federal funds wisely.
    In the long-term, we need to move FEMA out of DHS. I am an original 
cosponsor of Senator Clinton's bill to do just that. I hope the 
Congress moves quickly to adopt both proposals.
    My questions in today's hearing will focus on three issues. First, 
in the apparent chaos of the response to Hurricane Katrina, what needs 
to change in the federal response?
    Second, as we move into the recovery phase, what are the needs, 
what are the priorities, what plans are in place, what is lacking?
    Third, do these plans make sense for the people of the Gulf Coast?
    I look forward to hearing from each of you today. Thank you, Mr. 
Chairman.

    Senator Jeffords. Mr. Chairman, I understand that the NRC 
had very good information from communications with the 
powerplant licensees during Hurricane Katrina. I know 
accounting for and securing the most diffuse licensees, such as 
universities, medical facilities and industrial sources is a 
significant challenge.
    How long did it take NRC to be able to determine that 
nuclear materials held by non-powerplant licensees were secure?
    Mr. Diaz. Thank you, Senator Jeffords. We actually relied 
on our Agreement States licensees and our Federal partners on 
the issue of securing the sources. What happened during 
Hurricane Katrina, like it happens with many other industrial 
concerns, was that some of them were very well prepared; others 
actually had to leave the sources in place and abandon their 
facilities. That happens in different places.
    However, we, before the hurricane struck, actually were 
dealing not only with FEMA, and with the State, in making sure 
that we would establish communications with the licensees. It 
took us several days to establish where all the sources, the 
major sources were. We did put into place a combination of 
Federal and State efforts, led by the State, to make sure we 
identified where the sources were, we identified that their 
sources were appropriately not only accounted for but secure.
    We eventually used Federal assets to fly over the area with 
the cooperation of the Department of Energy to locate and make 
sure that the major sources, what we call Category 1, Category 
2 sources, were in these places. We then provided assistance to 
the State, actually went physically there, and provided 
assistance to States to make sure that all the sources were 
accounted for. I can tell you that all the sources that are the 
major radioactive sources have been accounted for. We have 
received absolutely no reports of any problems with any 
sources.
    Having said that, Mr. Senator, we did learn from it. By the 
time that Hurricane Rita was coming over, instead of acting 
just before and after, we acted significantly ahead of the 
hurricane. We did the same with Hurricane Wilma. I would like 
to say, in the State of Florida, 48 hours before Wilma was to 
hit the State of Florida, every licensee has been contacted and 
the State of Florida, with our support behind the lines, 
established ways of ascertaining, after the hurricane, where 
the sources were, and how the sources were.
    So we could have done a little better, but we did what we 
knew how to do at the time. We did learn from Katrina, and the 
States learned from Katrina. I can tell you that right now, we 
are much better prepared to take care of and account for all 
the radioactive sources in the States of the United States.
    Senator Jeffords. Thank you.
    Mr. Hall, I understand the Fish and Wildlife Service has 
damage estimates for the structures at the refuge in the areas 
impacted by Katrina and Rita. But how will you assess the 
damage to the habitat and the wildlife and when will that be 
completed?
    Mr. Hall. We are actually underway right now to try and get 
a handle on what happened, what actually happened to the 
habitat. Spartana Marsh was blown over and just inundated with 
heavy saltwater and a lot of that is dying. Some of this will 
be easy to see right away. When windblows come through and 
whole forests are blown over, then you immediately know what 
happened.
    Some of the salt blow-ins from the storm may take a little 
bit before we can actually see the death of the marsh. We can 
already see significant areas that were marsh that are now open 
water, that were forests and are blown over. We are underway 
right now trying to make that assessment. We know that on our 
National Wildlife Refuges alone that over 150,000 acres were 
impacted. We want to try and get a little better grip and 
certainty on the numbers before we come back and try and answer 
exactly how much.
    Senator Jeffords. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Vitter. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Diaz, thank you for the great report. You don't hear 
all the good news that comes out of tragedies, but to know that 
our nuclear facilities were all safe and unharmed is a great 
credit to you and your agency. The same to Mr. Hall, the 
success story and the response attitude, lead, follow or get 
out of the way, your agency did a great job in that. I wish 
everybody had done the same, but you did a great job with that.
    Mr. Baruah used a term in his written statement, and I 
think I heard it a couple of times in his public statement 
about, talking about the near-term, responding in the near-term 
to the aftermath of Katrina. I would like to focus a little bit 
on the long-term. I will start with you, Mr. Hall.
    It seems to me the decisions that are ultimately made by 
the Corps of Engineers are going to have a huge impact on the 
overall plan for everybody else, am I correct?
    Mr. Hall. Yes, sir.
    Senator Isakson. In fact, I remember talking to Senator 
Vitter when we first arrived here together. I have a little bit 
of an investment in New Orleans, I sent most of my money and my 
children to Tulane and went on my honeymoon there. So I have a 
special place for the Maison d'Ville and for Tulane University.
    But my concern as a former real estate developer in looking 
at the absolute tragedy is that this is not a chicken or egg 
thing. The thing that comes first is what the Corps decides to 
do, both with regard to the estuary as well as the port 
facility, which is the huge facility that is the economic 
engine of the city, and to a large measure, to the 
redevelopment of the city of New Orleans itself.
    Do you have any comments on that?
    Mr. Hall. Well, we will be, I think you are on target. As I 
said in my opening statement, I believe very strongly that in 
order to reach a Category 5 protection level, we have to have 
coastal marshes out there helping to slow the storms down 
before they ever reach the structures.
    In my view, and I am not an expert on the engineering and 
hydrology, but in my view, it is the coastal marshes that 
protect the levees and it is the levees that protect the 
people. If we want a long-term look at how to make sure that we 
are prepared for the structures and the investments that we 
make, we need to look at all of the potential protective 
mechanisms. Those marshes that have been going away at the rate 
of 24 square miles a year before Katrina I think probably had 
an impact on how well the storm was abated.
    Senator Isakson. Please correct me if this is not a correct 
statement or semi-accurate statement, but failure for us, let 
me take that back. To redevelop in the absence of knowing what 
the decisions are on the Corps and on the infrastructure would 
be a serious mistake, wouldn't it? To redevelop?
    Mr. Hall. Well, I would certainly hope that we have all the 
facts before we make any decisions.
    Senator Isakson. I guess the other point I would make, and 
I know the distinguished Mayor of New Orleans is here and we 
are going to hear from him, but one of the things also, 
sometimes great things come out of abject tragedies. Certainly 
the tragedy in New Orleans is huge.
    Redeveloping can be a renaissance. But it also might need 
that the redevelopment doesn't necessarily totally take the 
form, the location, the place of what it is replacing. That is 
one thing that I hope all of you will do in coordinating with 
Mr. Powell. We want to make sound investments for the future, 
so when the taxpayers' money is invested, it is invested in 
improvements, capital improvements that are built in 
coordination with an infrastructure plan and a Corps analysis 
that this type of tragedy couldn't happen again to those same 
redeveloped investments, if I am making myself reasonably clear 
on that.
    Last comment, I want to commend the Economic Development 
Administration. The key statement that you made, sir, was that 
the key is the investment of the private sector. If we do smart 
work on the infrastructure and Government is a catalyst for 
private sector investment, then the long-term future of New 
Orleans will be better off than if Government considers itself 
the key to long-term investment.
    Thank you, Mr. Chairman.
    Senator Vitter. Thank you, Senator, and I certainly want to 
echo a lot of your comments. The Corps does need to lead the 
way in terms of that protection plan and for that very reason. 
If we go back to the old time table and the regular order in 
terms if big Corps projects where this wouldn't be done for 20 
years, the whole redevelopment is dead in the water for that 
very reason. So this committee has to play a crucial part in 
streamlining that process so we can figure it out and have a 
model and move forward on it in a fairly timely way.
    I just want to have one more round of questions. First of 
all, I know that Chairman Diaz has a flight to catch for a 
meeting. So I want to thank him now for attending and 
participating in the hearing. Thank you very much, Chairman.
    Mr. Diaz. Thank you, Senator.
    Senator Vitter. I wanted to follow up with Mr. Winstead in 
particular. In your testimony, you state that as of October 27, 
3 Government-owned buildings and 33 leased locations remained 
closed as a result of Katrina. What is the total universe of 
which that is a subset, No. 1, and No. 2, what are the plans to 
get those buildings, 3 owned, 33 leased, back up and running 
and open? What is the time table for that?
    Mr. Winstead. Chairman, within Region 4 and Region 7, we 
now have the 36 closed buildings remaining as a result of 
Hurricane Katrina. We are now in the process, through our 
offices in the regions to get them open over the next number of 
months. I think they are moving as quickly as they can to make 
sure that any mold issues and other damage issues are cleaned 
up as effectively as possible.
    Senator Vitter. Is that just the owned side or is that the 
owned and leased side?
    Mr. Winstead. Both owned and leased, there are about, as I 
mentioned in my testimony, about 12-15 leases that were so 
severely impacted that termination may be necessary. Some of 
them are still being negotiated because the leased space is 
still not suitable. So we are working quickly to find optional 
available space. But we are trying to get them back into those 
buildings after the landlords clean them up.
    Senator Vitter. So based on that, is it fair to say within 
2 to 3 months most of that will be resolved and reopened?
    Mr. Winstead. Senator, I think that is accurate. Jim Weller 
is here, but we will get for the record actually when those 
remaining spaces will be completed. But I think it is within 
that period of time. That is correct.
    Senator Vitter. OK. Also, I think you have said that your 
initial GSA damage estimates were $60 million for total capital 
repair and replacement costs and $15 million for additional 
operating costs.
    Mr. Winstead. That is correct.
    Senator Vitter. Is that your current estimate?
    Mr. Winstead. That is correct.
    Senator Vitter. The $15 million for operating costs, what 
does that mean, additional operating costs?
    Mr. Winstead. In terms of restoring the space to full 
operations in terms of equipment that has been damaged, and in 
terms of obviously the repair work needed on the buildings 
themselves.
    Senator Vitter. I guess I would consider that on the 
capital repair and replacement side. So I am not sort of 
understanding the distinction. Wouldn't that go to the $60 
million capital repair and replacement?
    Mr. Winstead. It is $60 million in terms of repair as well 
as operating support for getting the tenants back into the 
space. That is $15 million more on top of the $60 million.
    Senator Vitter. OK. What is operating support as opposed to 
repair, replacement, infrastructure replacement?
    Mr. Winstead. It basically includes all the--Jim, do you 
want to comment?
    Mr. Weller. The extra $15 million is focused on 24-hour 
operations to super-cool the buildings, to the additional staff 
we have had to bring in to maintain that and operate those 
buildings during the initial recovery effort.
    Senator Vitter. OK. That's all the follow-up I had. Senator 
Jeffords, do you have any additional questions?
    Senator Jeffords. Yes, I do. Mr. Baruah, in your testimony 
you state that the Administration is not seeking additional 
funding for EDA to help rebuild the Gulf Coast. Given the scale 
of the economic development needs in the affected areas, I find 
this difficult to understand. Don't you think EDA could add 
more jobs and generate more economic activity if greater 
resources were brought to the table?
    Mr. Baruah. Senator Jeffords, EDA has played various roles 
in disasters over the last generation. Since 1969 we have spent 
roughly a half a billion dollars in disaster recovery 
situations. But they have ranged from very large engagements 
such as in 1992, Hurricane Andrew, when EDA had $70 million in 
supplemental appropriations for the purposes of helping to 
rebuild Florida after Andrew, to just last year, when Florida 
was hit by a series of four hurricanes in a row, EDA did not 
receive special supplemental funds for disaster recovery. But 
we did use existing regularly appropriated funds, and we worked 
very closely with Governor Bush's office and the folks from 
Florida and were quite effective using our normally 
appropriated funds.
    So again, we view ourselves as part of a larger puzzle. We 
will play the role that we are asked to play by, obviously, the 
White House and the Congress.
    Senator Jeffords. Mr. Winstead, can you comment on how the 
GSA's ability to respond in a disaster would be altered if you 
had the authority to enter into emergency leases up to 5 years 
rather than 180 days under the current authority?
    Mr. Winstead. Senator, I think our ability to respond with 
the current leasing authority has been good in terms of the 
operations and backing up FEMA. Obviously the new bill that the 
Chairman has introduced would modify that authority and allow 
entering into emergency leases for major disasters. It would 
help facilitate responding quicker. I think that our agency is 
now looking at that as this bill has been introduced. So I 
think it would aid our efforts in responding quicker.
    Senator Jeffords. Thank you. Any other comments?
    Thank you, Mr. Chairman.
    Senator Vitter. Thank you. I know Director Hall has a 
meeting with the Secretary and needs to be excused, so I will 
do that now, and thank you, Director, for being here.
    Senator Isakson, do you have any follow-up?
    Senator Isakson. Just one quick question of Mr. Winstead. 
Do you have, does GSA have any responsibility over Stafford Act 
requirements of the Federal Government in terms of 
infrastructure replacement that is nonfederal in nature?
    Mr. Winstead. Senator, I am not absolutely sure of that, 
but I can get you information on the record on it.
    Senator Isakson. I know we have some responsibility up to 
90 percent of replacement in terms of some infrastructure that 
is either State or local and not Federal. I was just wondering 
if you did. That's the only question I have, Mr. Chairman.
    Senator Vitter. OK. Thank you. With that, we will dismiss 
the first panel. Thank you very much for participating.
    Our second panel is both very focused and very 
distinguished. It is the Hon. Ray Nagin, Mayor of New Orleans. 
The Mayor has been to hell and back several times since the 
storm. I am not sure where Capitol Hill sits on that spectrum, 
but in any case, welcome. We are eager to hear your testimony, 
Mayor.

        STATEMENT OF HON. C. RAY NAGIN, MAYOR, CITY OF 
                        NEW ORLEANS, LA

    Mayor Nagin. Mr. Chairman, members of the committee, I want 
to thank you for inviting me here to speak to you today about 
the City of New Orleans, a wonderful, unique city that has had 
some devastation. To all the Members of Congress and especially 
our Louisiana delegation, I want to thank everyone for their 
hard work and their patience, and most importantly, for their 
attention to this very important issue.
    I would also like to thank the American people for their 
compassion and generosity that they have shown our citizens who 
are now spread over at least 44 different States throughout 
this great country. You have treated our people very well, and 
we are eternally grateful.
    New Orleans is surrounded by the greater waters of the 
United States. But while they provide our life blood, they also 
threaten our very existence. Our levees and pumps protect our 
city, and although these systems ordinarily meet the water 
challenges facing us, Hurricanes Katrina and Rita changed lives 
forever in New Orleans.
    As you know, on August 29, 2005, Hurricane Katrina 
devastated the city of New Orleans, forcing many people to 
flee, flooding thousands of homes and decimating many lives. 
Our storm protection systems just did not work well enough. The 
levees were overtopped and/or destroyed. All business was 
halted. Hospitals were closed, electricity was stopped, 
communication systems were nonexistent, and fresh water 
services were pretty much totally disabled.
    Now we have a great challenge before us, ladies and 
gentlemen. We need to rebuild this great city. In order to do 
this, we need this committee's help in the combination of 
structural and nonstructural flood control measures.
    Our first challenge is to ensure the safety and security of 
our citizens. The Chief of the Army Corps of Engineers has 
assured me that flood defenses for New Orleans will be restored 
by June 2006, which I might add is the beginning of the next 
hurricane season, to pre-Katrina levels. The Corps commander 
also acknowledged that this will provide little comfort in a 
city devastated by a storm and whose flood protection is not as 
strong as it should be.
    Now is the time for this country to make a commitment to 
upgrade our levee systems and the associated protection with 
that. I am humbly asking for you to immediately provide the 
assistance necessary to protect us against a Category 3 plus 
storm. Immediately thereafter, follow with an upgrade to a 
Category 5 protection system that is world-class.
    I am also asking for our drainage to be a top priority. The 
Southeast Louisiana Flood Control, or SELA Project, has to be 
finished as soon as possible. We must renovate and replace our 
water and sanitation infrastructures which were badly damaged.
    We also need a comprehensive plan to rebuild the marshlands 
of southeast Louisiana, which you heard from the first panel is 
incredibly important.
    Also with the rebuilding of our levee systems to help 
protect the city from a dangerous storm, we are also asking you 
to help us to re-establish our businesses. We must revitalize 
our business climate with tax breaks to help stimulate re-
investment and economic development.
    I am asking for the establishment of the New Orleans 
Katrina Tax Recovery and Jobs Incentives Zone that would 
include some unique incentives. First off, a 50 percent credit 
on taxable wages capped at $50,000 for single taxpayers and 
$100,000 for joint returns. In addition, a 50 percent credit 
based upon employer's total payroll for employees who live and 
work in the zone; and an income tax-free zone for manufacturing 
companies and a full relocation tax credit for uncompensated 
expenses.
    These incentives would last for 5 to 7 years or until the 
population in New Orleans reached pre-Katrina levels, whichever 
comes first. They would have a specific sunset. All we are 
asking you is to help us to get back on our feet and then we 
will take it from there.
    The city understands the problems businesses face. We were 
forced to lay off almost half our work force in the city of New 
Orleans because of the total loss of all revenue streams for 
the city of New Orleans. We must fix the Stafford Act so 
governments facing crises like these have more flexibility to 
pay its workers and to keep critical Government services going.
    I know that some progress has been made. The cap, the 25 
percent cap has been raised on the CDL funds. But I must point 
out that the same percentage, the 25 percent, is allowed for a 
whole city, as someone who is hosting evacuees, there is the 
same percentage that a city that has lost all of its revenues. 
I would humbly ask you to take a look at that. Finally, our 
transportation systems have suffered heavy losses that will 
require Federal assistance to repair and replace. I would hope 
that we would look closely at a light rail system that would 
provide a very much-needed, another tool for rapid evacuation 
out of the city.
    We are already moving to bring New Orleans back. I have a 
17-member commission that we have established that has a charge 
of putting together a master plan to rebuild our city. Their 
work will be substantially complete, if not finally complete, 
by the end of this year, which will provide us with the guide 
that we need to move forward.
    Each member of this commission is very diverse, and they 
are individuals in New Orleans who are of the highest ethics 
and integrity. We feel as though this is necessary.
    In conclusion, we are right now facing a critical point: 
when businesses and residents are deciding whether to stay 
where they are or to come back to New Orleans. Eighty percent 
of our electrical services have been restored in our targeted 
areas, 60 percent of our gas services have been restored. Water 
and sewer has been restored in these targeted areas. Schools 
are reopening. The private sector is ready to invest in New 
Orleans. They need some comfort and some confidence that the 
Federal Government is going to provide us the assistance 
necessary to fix our levee systems, No. 1, so that we can move 
forward and be confident.
    I am encouraged by President Bush's promise of Federal 
assistance to help us. Because we have the best people in New 
Orleans and in our area to rebuild our city with the 
partnership with the Federal Government, we can get the job 
done.
    My administration's track record shows we understand the 
responsibility that accompanies significant Federal aid. We are 
committed to spending every penny wisely, whether it is direct 
funding or whether we are doing it in partnership with the 
Federal Government.
    I want to thank you again for inviting me. New Orleans must 
be rebuilt. The President basically said he cannot imagine this 
country without a New Orleans, without its uniqueness and 
without its commerce. As you talk to the Commerce Department, 
you are going to find out just how important our port is and 
the infrastructure as it deals with oil and gas.
    I did have the opportunity to meet with Mr. Powell this 
morning. I had a chance to sit down with him. I am extremely 
encouraged. He is a man of accomplishments. He is a man of 
significant integrity. We look forward to working with him and 
we both pledge to do whatever it takes for us to try and 
rebuild this great city.
    I stand ready to provide whatever information, whatever 
support that this committee needs as we continue to move 
forward in dealing with this national crisis. Thank you.
    Senator Vitter. Thank you very much, Mr. Mayor. We will 
kick off questions now.
    My first question goes to the fact that I am very concerned 
that over time, the perception of the Katrina event sort of 
drifts back to, well, it was another hurricane event, it was a 
bad hurricane event, maybe it was on the really bad end of the 
spectrum, but it was just another big hurricane event. Whereas, 
as you and I know from being on the ground, it is really a 
whole other category, the evacuation of a major American city, 
the first time that has happened since the Civil War, first 
time in modern history.
    Can you put some flesh on the bones of that and explain 
what a major evacuation this is in terms of a major 
metropolitan area?
    Mayor Nagin. Well, you know, since I don't get the Guiliani 
pass, I will try and explain it in those terms. When 9/11 
happened, which was a traumatic event for the country, it only 
affected a small portion of New York. This event, this storm, 
devastated an entire city.
    In addition to that, all communication networks were out. 
Everything was down. Eighty percent of our city was underwater. 
So for a number of weeks we could not communicate, for a number 
of days I should say, and we could not move around the city.
    In addition to that, according to Admiral Allen, right 
before the storm hit, we evacuated 1.5 million people out of 
the metropolitan area of New Orleans. It was the largest, 
according to Admiral Allen, the largest single evacuation in 
this country's history. So this is just not an event where a 
storm comes through and blows hard and knocks down some trees 
and then everybody is back to normal. This is a storm that 
totally devastated an area.
    The lingering effects of that are still being felt 9 weeks 
after the event. The devastation, the lost lives, we still have 
361 people that are sitting in a morgue in St. Gabriel, LA, 
where we still have not been able to identify who they are. As 
of last week, we were still recovering bodies in some sections 
of the city.
    Senator Vitter. Again, going back to the breadth and the 
scope of the devastation, how many of your citizens are still 
evacuated, dislocated, and what portion of the electricity is 
back, not in the targeted areas, which you mentioned, but in 
the entire city as we speak today?
    Mayor Nagin. Well, as far as the number of people that are 
back, that is still something that we are trying to get our 
arms around. But the last report that I saw basically said 
there were 150,000 people in the city on a daily basis, living 
and working. At night there were probably 60,000 to 75,000 
people that were sleeping in the city overnight. Compare that 
to 480,000 people that lived in the city prior to the event.
    Senator Vitter. Right. What about electricity city-wide?
    Mayor Nagin. Electricity city-wide is about 60 percent. In 
the targeted areas that we have, it would be everything west of 
the Industrial Canal to include the west bank of Algiers. In 
the areas where we haven't been able to get any significant 
power is in New Orleans East, and in the Lower Ninth Ward.
    Senator Vitter. Right. One thing I hear all the time up 
here is real searching for a common plan and vision coming out 
of Louisiana. How would you see moving forward with your 
commission, with the Governor's separate commission and with 
this new Federal coordinator to sort of present a single common 
plan that people can embrace up here?
    Mayor Nagin. Well, you know, that is happening naturally as 
I can see it. Well, maybe naturally or not naturally, it 
depends upon your perspective. But we put together our 
commission, it got out front, the President came down and met 
with our commission and was very impressed. The Governor came 
out with her commission, which has some very impressive people 
on it also.
    We have a committee structure that is set up, seven key 
committees. It is my understanding the Governor's commission 
has pretty much adopted that structure also, with the addition 
of two more committees.
    We have also cross-pollinated each other, so I have one of 
my commission members who sits on her commission and vice 
versa. We are in regular communication.
    As I mentioned earlier in my testimony, I met with Chairman 
Powell. I am really encouraged by his knowledge of what is 
going on and his sense of how he could fit in and how he could 
help to drive what is going on in our region as far as the 
rebuild. More importantly, how we can do it at the highest 
level of integrity to make sure that this country is 
comfortable that the money and the investment that they make 
they will get a good return on that.
    Senator Vitter. All right. Thank you, Mayor.
    Ranking Member Jeffords.
    Senator Jeffords. Mr. Mayor, I know you are working hard to 
balance the need for people to return and the need to ensure 
that the environmental hazards, such as toxic mold, to not put 
those people at risk. How often are you speaking with or 
hearing from the EPA and how useful have those communications 
been?
    Mayor Nagin. Well, we just had another briefing from the 
EPA this past Monday. The EPA has been working with us pretty 
diligently to make sure that we are assessing the threats to 
the public safety.
    Initially, the EPA was a little reluctant to issue written 
reports as far as what was actually going on in the city of New 
Orleans. Then we finally got some reports and they have been 
working with us on an ongoing basis to make sure that there are 
no further threats to our citizens.
    If I could, we monitor the hospital activity on a daily 
basis. We are not at this time seeing any health trends that 
cause us any concerns, whether they be respiratory issues, the 
respiratory illnesses that we are seeing in the city of New 
Orleans is pretty flat-lined, and it is not showing any 
significant increase. So we are going to continue to monitor 
that with EPA support.
    Senator Jeffords. What process do you have set up to ensure 
that consideration of environmental risk is a part of the 
decision making process when considering whether people should 
return to New Orleans, and how are you informing those who 
return of the protections that they should take?
    Mayor Nagin. Everything we do basically centers around 
public safety, whether it be police support with the National 
Guard, or whether it be the EPA's concern about any toxins. We 
are constantly communicating to the public any potential risks 
that they have. As they come into the city, we have a fact 
sheet that we are giving everyone, as well as putting on our 
Web site, which advises them on how to enter the city, what 
type of masks they should be using if they are in the heavily 
flooded areas. We are advising them to wear boots and gloves 
and to make sure that they are taking breaks and they are 
working in teams and not going in there individually.
    Senator Jeffords. Can you describe how average citizens of 
New Orleans, many of whom are spread all over the Nation, are 
being offered a chance to participate in the planning underway 
at the Bring New Orleans Back Commission?
    Mayor Nagin. Well, we are basically starting the process, 
sir, where all of our commission meetings are taped, both for 
radio and television. In addition to that, I have been going 
around to the different cities where a significant number of 
our population is being housed. We are talking to them about 
the current level of services in the city, the plans, and are 
in the process of doing charettes to make sure that they have a 
voice in exactly how the city will be rebuilt.
    Senator Jeffords. Based on your experiences in Katrina, can 
you comment on the basic structure of our Federal emergency 
response system to depend on the State and local governments as 
first responders and to provide Federal assistance when asked 
by the State and local governments once their resources are 
overwhelmed?
    Mayor Nagin. That's a loaded question, right?
    [Laughter.]
    Senator Jeffords. Yes.
    Mayor Nagin. You know, as I reflect upon what happened, I 
must tell you that we as a country can do much better. I could 
have done a better job as Mayor, the State could have done a 
better job, as well as the Federal Government.
    My experience with this event basically pointed out a 
couple of things. There needs to be some final authority that 
can make the calls within the first 5 days of an event. I kind 
of witnessed a dance, if you will, as it relates to who had the 
final authority between the State and the Federal Government. I 
think that caused a delay in response.
    In addition to that, the FEMA support that we received, we 
had some individuals that were onsite immediately and that were 
feeding back information. But the support system that FEMA had 
was just not adequate enough to respond quickly to the needs of 
this type of crisis.
    Senator Jeffords. Earlier you mentioned some concerns you 
had with the Stafford Act. I wondered if you could enlighten me 
as to what those concerns were and what might we do.
    Mayor Nagin. My concerns are primarily two-fold. I am 
running a government that basically is out of cash. We had 
emergency responders that were working 20 to 22 hours a day. We 
really couldn't pay them. We were able to put through a work 
plan, which is a whole other discussion on how that process 
works, on how you get funding, to basically pay our responders.
    Once we got it approved and got the money in the bank, we 
learned that the rules associated with paying first responders 
would only allow us to pay overtime. So we got $102 million 
through a work plan to pay first responders and do some other 
critical things. All I can use it for is overtime. So I have 
spent maybe $15 million to $20 million of that money. So that 
money is sitting in the bank.
    The second issue is what happens as we try to continue to 
run city government. We have the Stafford Act that has been 
modified, I can now pull down 25 percent of my total annual 
revenues to keep city government going after we have laid off 
half our work force. The process of getting that money seems to 
be very slow, No. 1, and it only allows me to operate city 
government until March of next year. After that, it is kind of 
anybody's guess on what we are going to do going forward.
    Senator Jeffords. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Vitter. Thank you. Senator Isakson.
    Senator Isakson. First of all, I want to thank you, Mayor, 
for your response to the FEMA question. You didn't take the 
bait, and you accepted, as all of us should, part of the 
responsibility. I think that's what all of us have to do 
looking forward to the future, so I appreciate that.
    Back to my questions I had asked in the previous panel. I 
may not have this right, but the way I see it, the Corps has a 
number of decisions to be made, both with regard to the estuary 
and the environment, as well as the Mississippi River, as well 
as Lake Pontchartrain and as well as the city of New Orleans. 
It seems to me, you said, I believe, that you had been told by 
the Corps that they would have the city restored to pre-Katrina 
levels of protection by June 2006. We all know that means a 
level Category 3 storm, right?
    Mayor Nagin. Right.
    Senator Isakson. The long-term prognosis, and what the 
ultimate protection is going to be, none of us know yet.
    Mayor Nagin. That is true.
    Senator Isakson. I had asked the question of the previous 
panel members, or inferred a question which I will ask you 
directly. It seems to me that the land use of the New Orleans 
of the future is going to have a lot to do with what decisions 
the Corps makes or the decisions the Corps makes is going to 
have a lot to do with the land use, Ninth Ward, for example, 
other areas within the city of New Orleans.
    Is your 17-member commission dealing with the 
considerations for the new land use of the new New Orleans 
understanding that some of the things that were destroyed might 
not be rebuilt the way they were built originally?
    Mayor Nagin. Well, you know, our commission is definitely 
dealing with land issues and land use issues. We have ULI, 
which is the Urban Land Institute, that is working with us, 
which is an internationally known institute that helps cities 
and countries to design themselves efficiently. As it relates 
to the Corps of Engineers, we are making a fundamental 
assumption right now, as it relates to our planning. That 
assumption is that the Corps of Engineers, with some help from 
the best minds in the world, will figure out a way to provide 
us pretty quickly with adequate protection, storm protection as 
it relates to Category 3 or Category 3 plus.
    I might add that pre-Katrina, the levee systems were at a 
height of 12 to 13 feet, whereas normally they are 15 feet. But 
it is pretty much dirt, so it has subsided. The Corps tells me 
that they are planning to raise those levees at least up to a 
17-foot standard with some reinforcements that we never had 
before.
    So with that information, we are looking at how to rebuild 
the city. It is not just the Ninth Ward that we are considering 
as far as being somewhat of a challenge, but we have New 
Orleans East and we have the area around the 17th Street Canal, 
which is primarily the Lakeview areas. All of those areas are 
probably going to build to a different standard, one that 
probably raises their foundations. In addition to that, it may 
require them to build homes that have on the first levels 
pretty much garages and then they would live on the second and 
third levels.
    Senator Isakson. For me personally, that is very 
encouraging, that you are taking that comprehensive a look. 
Because when you do redevelop, you don't ever want to have a 
do-over again, after what you have been through. There are a 
lot of things, had we known what we know about Katrina in 
advance, we would have never done the way we did them.
    So now that we have learned that lesson, and I say that 
because I feel some responsibility to repeat to you some of 
what I hear, being a member of the Senate from another State 
that wasn't hit, that is equally compassionate. We have 10,000 
Louisiana kids in our public schools and about 23,000 folks in 
the State of Georgia, if my numbers are about correct.
    But folks want to make sure these massive amounts of 
Federal monies, whether they be Stafford monies or monies in 
the redevelopment or the improvement of the levee, are done 
right and are done in coordination with a plan that we don't 
ever have to do this again, God willing, or we do the best we 
can to correct the mistakes of the past, which were not 
mistakes of the head but probably of the heart. We don't want 
to ``throw good money after bad.'' I think that's what the 
taxpayers of the United States are looking for.
    Mayor Nagin. We wouldn't want to see that, either, Senator. 
If I could, I would like to send you an e-mail that I got which 
basically showed levee systems in Britain, the levee systems 
that the Dutch have built, as well as the Italians. Then it 
compared it to what we built. We can do much better. We 
definitely can build to a world-class standard that we don't 
have today.
    Senator Isakson. I will give you my e-mail after your 
testimony. Thanks.
    Mayor Nagin. Thank you.
    Senator Vitter. Thank you. I want to welcome Senator 
Lautenberg of New Jersey who has joined us.
    Senator Lautenberg. Thank you, Senator Vitter. I have a 
statement that I would like included in the record as if 
presented.
    Senator Vitter. Without objection.
    [The referenced statement was not received at time of 
print.]
    Senator Lautenberg. Mayor, welcome here.
    Mayor Nagin. Thank you.
    Senator Lautenberg. You come with substantial burdens, but 
the pleas that you make to the Federal Government are 
appropriate. New Orleans is one of our great cities in this 
country and we neglect to see its role in commerce and industry 
as clearly as we should.
    Mayor Nagin. Yes.
    Senator Lautenberg. So the shock of this whole thing will 
never be felt in other places like it was felt in New Orleans, 
but all of us, I would say, grieved with you. The picture of 
the people in the water up to their shoulders, in some cases, 
bundles on their heads, was painful to watch. I think all of us 
in our way tried to help. I did, and so did many others.
    When do you think it was realized that you would have a 
serious flooding problem? The hurricane hit its force on 
Monday, right?
    Mayor Nagin. Yes.
    Senator Lautenberg. When did people in New Orleans 
recognize that this was going to be----
    There was a FEMA gentleman who was on the ground, his name 
is Marty--I forget his last name--Bahamadi.
    Mayor Nagin. He came to see me right after the storm hit, 
which was probably some time Monday afternoon.
    Senator Lautenberg. He was there, I think, Saturday evening 
or at the latest Sunday. He was the sole FEMA person there.
    Mayor Nagin. Yes. We were waiting for the winds to die down 
to go out and assess the damage. He came and met with me and he 
basically told me that he had a chance to get up and fly around 
the city. He had seen the devastation.
    Senator Lautenberg. That was after it struck.
    Mayor Nagin. Yes, that was after it struck.
    Senator Lautenberg. What I am interested in is before. 
Because I was at another committee that we have, General 
Accountability Committee, and we had as a witness Dr. Ivor Van 
Heerden, who is the director of the Center for Studies of 
Public Health Impacts of Hurricanes at LSU. He handed out 
several photos and graphs of what might have been taking place. 
This is Advisory 18, submitted on Saturday at 2200 hours. It 
says that New Orleans will flood, Saturday.
    Did you or the people you were relying on expect that the 
city would flood anywhere near like it did?
    Mayor Nagin. We knew that this was a pretty serious storm. 
But if I could step back a minute and just kind of give you 
some sense of what we were dealing with. Katrina was a very 
deceptive storm. On Thursday, I think it started to become a 
major storm. Friday it was pointed toward Florida and maybe 
parts of Mississippi. On Saturday, it was sunny skies in New 
Orleans and it was pointed toward us. At that time we started 
to escalate the evacuation calls, while people were out at 
soccer stadiums with their kids.
    Saturday afternoon I got a call to contact Max Mayfield, 
the head of the Hurricane Center in Miami. After talking with 
Max, I had thought we had done a great job, because we had 
estimated that we had evacuated at least 80 percent of our 
residents, which was unprecedented. Max told me at that point 
in time that this storm was the real deal, the conditions were 
like none he had seen in his 33 year history, and that if he 
were me, he would order an evacuation, and get everybody out of 
that city.
    I hung up the phone with him and immediately called my city 
attorney and said, I don't care what we have to do, we are 
issuing a mandatory evacuation. Because there was also this 
legal problem with issuing a mandatory evacuation that you knew 
you couldn't very well carry out because you had so many 
residents that depended on public transportation. So the next 
morning, we issued the mandatory evacuation, expecting that the 
city would be hit very hard.
    Senator Lautenberg. When do you think it was apparent that 
there were problems with the structure of the levees, with 
their capacity to withstand kind of the more serious strains? 
Was that talked about in New Orleans over any length of time, 
or is that a new discovery?
    Mayor Nagin. Well, we always knew that the levee system was 
built to a Category 3 standard that really hadn't been tested 
in a while. So we really weren't certain exactly what would 
happen if we got hit with the big one. We knew from some slosh 
models that we had that there would be a significant amount of 
flooding. I sought to advise the citizens, as this threat 
started to become more of a reality, to make sure that they 
evacuated first, but if they didn't evacuate, to make sure that 
they had access to a second floor or third floor.
    Senator Lautenberg. Because on Thursday, September 1, the 
President was on the program Good Morning America. He said he 
didn't think that anybody anticipated the breach of the levees, 
and we had Marty Bahamadi here. He said there had been several 
years of discussion about the weakness of the levee system and 
that problems could occur. I didn't know whether that was a 
common topic in New Orleans or Louisiana.
    Mayor Nagin. Well, levees are always discussed, Senator. 
But they are discussed in a couple of different contexts. They 
are discussed in the context of the city of New Orleans, as it 
relates to our protection. There are other levee systems in St. 
Bernard and Plaquemines Parish that we are always talking 
about, because there are multiple lines of defense as it 
relates to hurricane protection, the marsh lands, the levees 
down in St. Bernard and Plaquemines, and then ultimately the 
levees in New Orleans.
    So they are always discussed, but they haven't really been 
tested since 1965 in a major way, when Hurricane Betsy hit the 
city.
    Senator Lautenberg. Do you think the city can be rebuilt to 
its former self?
    Mayor Nagin. I think it can be rebuilt better. But the 
issue is, how quickly can we get the levee systems back up to 
standard and make them even better than they were before.
    Senator Lautenberg. Mr. Chairman, I am sorry to take, if I 
can, just 1 minute more. Because as part of the hearing that we 
had earlier and the graphs that were shown, there seem to have 
been many instances, and I think one of them was 17th Street, I 
have marked a page 17th Street----
    Mayor Nagin. Yes.
    Senator Lautenberg [continuing]. Where the water actually 
came in under the levees. I don't know how deep you have to put 
a footing to ever accommodate that kind of a condition. Is that 
one of the things that is----
    Mayor Nagin. Yes, well, we talked about it after the event, 
from the standpoint of, we knew we had this breach at the 17th 
Street Canal, and we were trying to get helicopters up with 
these 5,000 pound sand bags to basically fill in the gap or the 
breach area, to stop the flooding. Once we started to drop sand 
bags, it was revealed at that point in time that there was a 
25-foot crater that was in the breach area, if that is what you 
are talking about.
    Senator Lautenberg. I have several more questions, Mr. 
Chairman, but I know that my time is used. So thanks, Mayor. 
Lots of good luck, and keep up the fight.
    Mayor Nagin. Thank you, sir.
    Senator Vitter. Thank you, Senator. Now we have our 
Chairman returned, Senator Inhofe.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Mayor Nagin. Hello, Mr. Chairman.
    Senator Inhofe. Mayor Nagin, my heart bleeds for you. I had 
a hard job once, I was the mayor of a major city.
    Mayor Nagin. Do you want to swap?
    Senator Inhofe. No, sir, I don't.
    [Laughter.]
    Senator Inhofe. In fact, I have told my friends here, if 
you want a hard job, you become a mayor.
    Mayor Nagin. Yes, sir.
    Senator Inhofe. When I was mayor, you had Mayor Morial, was 
there.
    Mayor Nagin. Yes.
    Senator Inhofe. I was down and met you just a couple of 
days afterwards, we had the majority leader put together the 
chairmen of all the committees that were affected and the 
Ranking Members to go down and visit and assess. This committee 
has more jurisdiction, as you heard in my opening statement, 
than any other committees do.
    A few weeks ago, there seemed to be a great deal of 
confusion on opening up parts of the city. You were inviting 
people back in at the same time we were getting reports from 
the EPA and from the Centers for Disease Control and some other 
things--maybe you have already covered this. If you have----
    Mayor Nagin. No, no, go ahead.
    Senator Inhofe. On the third panel, a witness charges that 
people are not being properly informed about the risks upon 
returning to their homes. I would ask you, how are you handling 
this? Do you think that is a fair charge to make?
    Mayor Nagin. Well, you know, I think if people are looking 
at the total repopulation of the city, then I think it was 
somewhat risky. But our strategy has always been to work from 
the dry areas first. Those dry areas were up against the 
Mississippi, pretty much up against the Mississippi River in 
the areas that had the least flooding or no flooding at all. 
From that standpoint, there were never any concerns about any 
environmental issues. That was always a green light. The only 
issue we had was, could we get good, safe drinking water 
through the pipes in the city of New Orleans. We were able to 
work through that also.
    Now, as it relates to other areas of the city, we waited 
until we got a written report from the EPA before we opened up 
those areas.
    Senator Inhofe. Was there ever any communication problem 
between you and the EPA or you and the Centers for Disease 
Control?
    Mayor Nagin. You would have to ask them that. I kept asking 
for----
    Senator Inhofe. Well, I did, and they said to ask you.
    [Laughter.]
    Mayor Nagin. Well, I kept asking for written reports, and 
there seemed to have been a reluctance to grant those. 
Eventually, we got them.
    Senator Inhofe. As you know, this committee has a huge 
jurisdiction, and it also has jurisdiction over Superfund 
sites. Senator Vitter and I had written a letter to both the 
EPA and the Corps of Engineers to caution against opening up 
old landfills, before they used up the existing capacity. We 
don't want to be cleaning up New Orleans as the creation of new 
Superfund sites, especially when Federal dollars are being 
spent for the intent of cleaning up.
    One of the sites that was reopened by the State after we 
wrote the letter is at least partially owned by the city, it 
was the old Gentille landfill.
    Mayor Nagin. Yes, sir.
    Senator Inhofe. Could you tell us a little bit about that, 
about the decision to open that up and what problems there 
might be there, and why we didn't use up the existing capacity 
of existing landfills that were in a position to do a better 
job?
    Mayor Nagin. Well, you know, sir, it is my understanding 
that we were working with the State on that issue, and we got 
clearance to open it. As far as any other existing landfills, 
every landfill that is in the area, it is my understanding, is 
being fully utilized.
    Senator Inhofe. We need to explore that, because that's not 
the information I have. I am not saying that you're wrong and 
they are right, but somebody is wrong, because we are hearing 
that there are newer, more modern existing landfill sites that 
are just partially being used at this time.
    Mayor Nagin. Well, we would like to know where they are. 
Because we are in the process right now of stacking debris up 
in three major sites in the city of New Orleans. We have 17 
million cubic yards of debris to move. To this date, we have 
moved about 2 million cubic yards. The issue is going to 
become, how do we deal with all that debris, do we burn it, do 
we move it, do we put it in some other landfill.
    Senator Inhofe. I was there, and I understand that problem.
    But I would, I think it would be worthwhile, Mr. Chairman, 
for the record, to find out, because we are getting two 
different stories on existing capacity. Thank you very much.
    Senator Vitter. OK. Thank you.
    Mayor, I just have a couple of follow-up questions. You 
talk to business folks all the time.
    Mayor Nagin. Yes.
    Senator Vitter. Some are back, many are not. Many are in 
Houston, Atlanta, elsewhere. What do they want to see and what 
do they want to hear so that they can come back with the jobs 
and investment that they represent?
    Mayor Nagin. The thing they would like to see from the 
Federal Government is a firm commitment on the levee systems. 
Before they come back and invest, they want to make sure that 
as they put their employees back in the city of New Orleans, 
that they can put them back in a safe environment. So the 
quicker we can confirm that the Corps will be building to a 
higher Category 3 standard, and we tell the world that, I think 
you are going to see an unleashing of an incredible amount of 
business investment.
    The second thing they are asking for is an environment that 
encourages them, a tax environment, a business environment that 
encourages them and welcomes them back to the city of New 
Orleans. We are currently working on some State legislation 
that is going to complement whatever legislation comes out of 
the Federal Government. I am in the process of looking at, even 
though we are a broke city, at some incentives on the local 
level.
    So it is my hope and the business community's hope that 
they will have incentives at all levels of government to 
encourage them and hopefully somewhat make them whole as they 
come back to the city of New Orleans.
    Third, they are looking for a good public school system. 
There is some legislation that I think the State is working on 
as we speak to deal with our public education system, which was 
in crisis prior to Katrina. So we have a wonderful opportunity 
to address those three issues.
    But the main thing they want to know is, what are we going 
to do with the levees?
    Senator Vitter. Of course, this committee has jurisdiction 
over the Corps, and exactly that. I guess the challenge is to 
communicate that commitment early, now.
    Mayor Nagin. Yes.
    Senator Vitter. But at the same time, folks up here want to 
know what that looks like. Of course, it's not designed yet. So 
we don't really know in any level of detail what at least a 
Category 5 system looks like exactly. What are your thoughts 
about how we accomplish communicating that commitment, while 
still obviously telling folks up here, we're going to work out 
the details in a responsible way and everything's on the table?
    Mayor Nagin. If I could advise the committee on anything, I 
think we ought to make a statement and commit to Katrina 
standards protection, whatever that is.
    I would further suggest that the committee form a 
partnership with the Corps of Engineers and the best minds 
around the world, put together an advisory group of the Dutch 
and the Germans with Americans and whomever else that know this 
and can do it very well to advise the Corps. I think we give 
them the support necessary to go get the job done with a time 
line.
    Senator Vitter. Right. Well, the only area where I might 
disagree is Katrina level standard. Because my understanding of 
it is that by the time Katrina hit the city, not necessarily 
Plaquemines Parish, but the city, it was almost certainly 
Category 3 or less. I think we need at least in the core areas 
of the city, we need to have an even significantly higher 
standard than that.
    Mayor Nagin. I would agree with that, Senator. I will tell 
you this, that if that storm had gone a few miles west of New 
Orleans, where we would have gotten the brunt of the strongest 
winds, it could have been worse. It really could have been 
worse.
    Senator Vitter. Thank you.
    Mr. Chairman, do you have any follow-up questions?
    Senator Inhofe. Mayor Nagin, there is some controversy over 
what happened in 1977. In 1977, the Corps of Engineers was 
embarking on a program to enhance the levees. They were 
enjoined by an environmentalist group called Save the Wetlands 
from doing that. Do you have any thoughts on that? What are 
your thoughts on that?
    Mayor Nagin. Well, I think that what happened in 1977, you 
probably will see a different attitude from the 
environmentalists. I think you are going to see more openness.
    The Corps of Engineers came forth with several ideas since 
1977. I also saw a butterfly concept that they proposed to put 
some protection in the city of New Orleans that was rejected.
    I think now that we have had this catastrophic event, there 
will be more openness to the techniques that the Corps will 
bring forward.
    Senator Inhofe. Yes, but my question really was 
specifically in 1977, because I have some quotes from some 
professors at LSU and some people with the Corps of Engineers 
that were actually there at the time and in charge that had 
that not happened, that they were going to be in a position to 
enhance that levee that would have taken care of--they didn't 
call them Categories 1, 2, 3, 4, 5 back then, but something far 
better than it was when Katrina hit.
    So they specifically said if that, if I recall the quote 
right, if they had not been enjoined to stop what they were 
doing that it would have saved the city, one of the LSU 
professors used that term.
    Mayor Nagin. Well, not to disrespect any professors that 
are out there, I am sure they have wonderful thoughts and 
wonderful theses. Most of the modeling that I saw come out of 
LSU had said if a Category 3 storm with a levee breach had 
happened, we would lose 10,000 lives. There were other factors 
in play where we didn't lose nearly that amount.
    So I think the theories are nice. But I think we ought to 
engage the best minds in the world to come up with a system 
that works in today's environment.
    Senator Inhofe. Well, of course, the Corps was claiming at 
that time that that is what they were doing, they were 
anticipating that this is not if it was going to happen, but 
when it happens. I wasn't just referring to professors who are 
maybe on some philosophical plane that doesn't communicate too 
well, these were actually the directors of the Corps of 
Engineers who were there at the time and were frustrated 
because they knew that we had to do this, and they were stopped 
by some environmentalist groups. You weren't there at the time.
    Mayor Nagin. Yes, that predates me. I was in a different 
world enjoying life.
    [Laughter.]
    Mayor Nagin. Mr. Chairman, all I can tell you is that it is 
a different time and space now. You are going to find people 
much more open and willing to do what it takes to provide the 
protection. I don't think there is anyone in America that wants 
to see this type of devastation ever, ever again. So we are 
looking at everything at the city and the State level. We have 
multiple levee boards that are set up by parish or by 
municipality.
    To me, that makes no sense. We should have one levee board 
that deals with the Corps of Engineers and provides 
comprehensive protection for the entire region.
    Senator Vitter. Just to follow up on that thought, I think 
the other opportunity that exists, looking forward, is to marry 
this work with the work we are setting out to do but need to do 
more aggressively, in my opinion, against coastal erosion, 
which can get the environmental community excited and hopefully 
a full partner in terms of doing both together, because they 
both go to protecting populated areas against this sort of 
devastation.
    Mayor Nagin. Yes, the coast and marshlands are absolutely 
critical. I think the formula is for every mile of marshland 
that we have, it subsides the storm surge by 1 foot, which 
could be critical when you have a major storm approaching any 
area along the Gulf.
    But if I could make one other point. I just happened to 
stumble upon this article in the Dallas newspaper. It talked 
about a new phenomena called the loop current. The reason why I 
bring this up is these superstorms are most likely not going to 
go away. The loop current is basically some warm waters that 
are flowing from the Caribbean around Cuba into the Gulf of 
Mexico. Normally when a storm hits, there are warm waters in 
the Gulf, if a storm hasn't hit recently, but it stirs up the 
cool water.
    This loop current has really deep warm water, to the tune 
of 200 to 300 feet deep. It stays in the Gulf for a long time. 
It is something that the oil industry was watching and knew 
about, because of the oil rigs. But the weather scientists are 
just getting in tune to it.
    I bring it up because if these superstorms are going to 
constantly go in the Gulf, then it is going to impact not only 
New Orleans, but it is going to impact the entire Gulf Coast. 
As we are thinking about protection, we might want to think 
about protecting some other communities as well.
    Senator Vitter. Thank you.
    Ranking Member Jeffords?
    Senator Jeffords. No further questions.
    Senator Vitter. Thank you very much, Mr. Mayor, for being 
here. We deeply appreciate it.
    Mayor Nagin. Thank you. I really appreciate your support.
    Senator Vitter. If I can have everyone's attention, we will 
move on to our third and final panel today, Panel III, which is 
Mrs. Kim Dunn Chapital, environmental consultant with the Deep 
South Center for Environmental Justice; and Mr. Bill Hines, 
director of Greater New Orleans, Inc.
    Mrs. Chapital, welcome, and please start your testimony.

STATEMENT OF KIM DUNN CHAPITAL, ENVIRONMENTAL CONSULTANT, DEEP 
             SOUTH CENTER FOR ENVIRONMENTAL JUSTICE

    Mrs. Chapital. Thank you, Mr. Chairman, for the opportunity 
to testify before this committee. Let me begin by introducing 
myself. My name is Kim Dunn Chapital, and I am here 
representing the Deep South Center for Environmental Justice at 
Dillard University in New Orleans, formerly Xavier University 
of Louisiana. For the past 5\1/2\ to 6 years, I have worked for 
the Deep South Center of Environmental Justice as an 
environmental trainer. With the Deep South Center, we typically 
train individuals who are from low-income communities of color 
in how to properly perform and conduct hazardous materials 
removal and remediation and emergency response activities, 
asbestos and lead abatement, as well as mold remediation.
    In addition to working for Deep South Center, for the past 
21 years, I have been employed by Tulane University's Office of 
Environmental Health and Safety. Initially, I held the position 
as a hazardous waste technician there, where I worked for about 
a year and a half, was promoted to an industrial hygienist, and 
since 1991, I have worked as the occupational health manager 
for Tulane University's Office of Environmental Health and 
Safety.
    My activities include coordination of all of the 
university's asbestos, lead and mold remediation projects. I 
work with in- house crews as well as abatement contractors.
    So I am here today as a voice amongst the thousands of 
displaced individuals. I am an individual that lives in 
Gentille in New Orleans. I am totally displaced. My family is 
spread throughout the United States. So I speak not only for 
myself, but also for many other primarily low-income people of 
color.
    I also come to you as an individual who is considered to be 
more or less an expert in the field of environmental health and 
safety. So I will begin by giving you a little bit of a story 
that will help you to understand my issues that I think need to 
be addressed.
    Approximately 2\1/2\ to 3 weeks after Hurricane Katrina, I 
returned back to the city for a number of reasons. This was 
after having lived in shelters and a hotel with family and 
friends. My family and I were very transient for about the 
first 8 to 9 days.
    But I returned after 2\1/2\ to 3 weeks to the city for a 
number of reasons. No. 1, I had to go to training in order to 
keep my accreditations and my credentials with the State. No. 
2, I needed to address some of my own issues at my own home. 
Then No. 3, I had been called upon to do quite a bit of 
environmental consulting. As a result of Katrina, myself and 
many other individuals have been quite in demand.
    However, upon entering my home, where I had to be fully 
dressed in gear in order to address the issues at my home, I 
decided I needed to forego the actual consulting opportunities 
that were before me. Those opportunities were there and they 
will be there. I had numbers of people, family, friends, 
friends of friends who knew people who were calling me, they 
were asking me questions, Kim, how do I enter my home, what 
items can I retrieve versus which items do I trash? What do I 
need to know as far as what protection I need to put on and 
what I need to wear and how do I decontaminate myself?
    So what I opted to do is forego the environmental 
consulting. I came in, I went to Red Cross locations once or 
twice a day. I saw to it that individuals had the proper 
respirators, even though many of them look like masks, and in 
some instances where these respirators could not be found at 
Red Cross locations, I went out and I actually purchased them.
    I saw to it that people had the proper decontamination 
buckets and brushes and items that they needed to enter into 
their homes safely and I educated these people on things that 
they could and could not do. But most of all, I tried to lend 
emotional support. Because you see, when your home is here but 
your new home is there, and your family is spread in so many 
different locations, it is a logistical nightmare. You are 
trying to address your insurance issues and you could never 
understand, unless you have walked 1,000 miles in our shoes.
    With all of this in mind, I would like to say that, with 
information that I have seen, I believe, and information I have 
read, I believe that EPA and other health agencies should have 
immediately brought the environmental testing that is done to 
i.d. toxic and hazardous sites for remediation and cleanup. 
This will prevent any further or future releases or harms that 
could be posed to individuals. I also ask that you reject all 
efforts to weaken public health and environmental laws. Do not 
waive and weaken laws which guarantee us, the citizens of New 
Orleans, U.S. citizens, and just human beings, the right to a 
very clean environment. Finally, one of the things that I 
noticed that I found very disturbing is that there are not 
enough public health advisories and information that has been 
provided, especially to individuals of low economic status, 
that will help them to properly and safely enter their homes. 
You see, Katrina blew in on August 29, but Katrina is very much 
still there. When people enter their homes, there is still 
water that is in cups, dishes, inside china cabinets, inside 
homes where it pockets. Many of these individuals are not aware 
that they should not bring in their children.
    I see on a daily basis people coming in with kids. I see 
people entering residences and workplaces without personal 
protective equipment on. Whereas they may be given hand 
sanitizer from, let's say the Red Cross, they may clean their 
hands, but then they immediately take off their boots and their 
shoes with those same clean hands and throw them in the trunks 
of their cars and carry that contamination off-site and 
possibly to other people.
    So I urge you, it is very important that we address these 
issues if we are to revitalize New Orleans. I was there, I am 
there currently working, and I intend to go back to New 
Orleans. If others are to come back, we have to have the trust 
of the Government that you all will address these issues in 
order for individuals to return.
    Thank you.
    Senator Vitter. Thank you, Mrs. Chapital.
    Bill Hines.

STATEMENT OF WILLIAM H. HINES, PAST CHAIRMAN AND BOARD MEMBER, 
  GREATER NEW ORLEANS, INC.; COCHAIRMAN, ECONOMIC DEVELOPMENT 
      COMMITTEE, MAYOR'S BRING NEW ORLEANS BACK COMMISSION

    Mr. Hines. Thanks, Senator. Good morning, Senator Vitter 
and Senator Jeffords, and particularly Senator Vitter, thank 
you for all the work you have been doing to help rebuild our 
State after the storm.
    My name is William Hines. I am the chairman of the 
executive committee of the law firm of Jones, Walker, Waechter, 
Poitevent, Carreere and Denegre, which is headquartered in New 
Orleans. In my role today, I am the immediate past chair and a 
continuing board member of Greater New Orleans, Inc., which is 
the public-private partnership that spearheads economic 
development initiatives for the 10-parish Greater New Orleans 
region.
    I will also mention, although it is not part of the 
official testimony, I am the current chair of the United Way 
Board for the New Orleans area. So we are working a lot on 
social service needs for our community.
    Additionally, at the request of Mayor Nagin, I have just 
been appointed to serve as cochairman of the Economic 
Development Committee for his Bring Back New Orleans 
Commission.
    I am grateful for the opportunity to appear before you 
today to discuss the response and recovery efforts affecting 
the future of New Orleans. On a personal note, I will add this 
as well, my home also flooded and I probably did not exercise 
good judgment and stayed during the storm. It was evacuated by 
boat 5 days after the storm, so I can speak from a personal 
standpoint of how difficult this was. My family was spread to 
three different cities. At least two-thirds of us are back 
together now, my son is now in Michigan, having moved from 
Tulane.
    It cannot be stated often enough: Hurricane Katrina was 
like no other hurricane before it. The cataclysmic storm caused 
unprecedented destruction and long-term interruption to 
governmental services and economic activity. Again, Mayor Nagin 
and I are the same age, and I was there in 1965 for Hurricane 
Betsy, which I thought was a horrendous storm, but nothing in 
comparison to this.
    Never in the history of this Nation has a three-State area 
been hit so hard, nor has an entire U.S. major metropolitan 
city been evacuated for weeks on end. While Katrina occurred 
over 2 months ago and seems to be largely fading from the front 
pages of our Nation's newspapers, the lives of citizens of the 
Greater New Orleans area have not returned to normal. Many 
businesses in the region are generating little or no revenue 
and are struggling to meet payroll, rent and vendor payment 
obligations.
    SBA loan approvals are moving at a snail's pace. 
Unemployment claims, as of early October, were 16 times the 
normal rate. This is a new point that the business community in 
the last 2 days, when they heard I was testifying, asked that I 
really stress to this committee, because this is clearly a 
Federal issue. One additional illustrative example of how life 
in the New Orleans region has not returned to normal concerns 
the U.S. Postal Service. Most regional businesses, including 
our law firm, banks, Tulane and others are missing over a month 
of mail. We basically received no mail from the month of 
September, and the Postal Service is telling us they are not 
sure when they can get that to us.
    Without receipt of payment checks, vouchers, bills and 
other important and time sensitive business documents, commerce 
within the region is significantly hampered. This backlog must 
be eliminated, and it represents the one area where Federal 
assistance can help the regional business community.
    On behalf of the citizens of New Orleans and the regional 
business community, I wish to highlight the regional economic 
activity that must be restored in the wake of Katrina. No. 1, 
and you have talked about it a lot this morning, restoration 
and enhancement of the levee and barrier system. At the outset, 
I can assure you that the No. 1 priority for the New Orleans 
business community is to obtain the firm assurance of the 
Federal Government and this Congress that adequate levee and 
barrier protection will be provided for the New Orleans region.
    We are extremely pleased with the assurances and actions to 
date provided by the Corps of Engineers and the Federal 
Government that the levee system will be rebuilt no later than 
June 2006 to withstand Category 3 storms. However, the business 
community also needs assurance that the Federal Government will 
work as quickly as possible with near-term time limits to 
strengthen the critical levee and barrier system to withstand 
Category 5 storms. That is a must. Many of our firm's largest 
clients are public companies that are now in Houston that are 
based in New Orleans, said they need Category 5 assurance, at 
least to stay, a funding mechanism and a time line.
    With this assurance, businesses both large and small will 
be provided with the comfort they need to invest and otherwise 
engage in the business restoration efforts. Mr. Chairman, I 
respectfully request that your committee and this Congress 
immediately provide the required statutory authorization and 
Federal funding for Category 5 levee protection. The Greater 
New Orleans business community looks forward to working closely 
with you in that vitally important effort.
    As to the port and maritime industries, the very founding 
of the city of New Orleans was based upon the distinct and 
inherent advantages it provided and continues to provide as a 
port city for the Nation's maritime and trade industries. 
Because of vessel, barge, highway and unsurpassed rail access, 
the Port of New Orleans serves as one of the Nation's key 
intermodal gateways for domestic and international trade.
    Hurricane Katrina completely shut down the Port of New 
Orleans, affecting more than 380,000 jobs nationwide that are 
dependent on the cargo activity of the port. The port is 
continuing to restore terminal and other services and is now 
operating at approximately 40 percent of its pre-Katrina 
capacity. Full restoration of port services must be a given. 
With Federal funding and other assistance, especially from the 
Army Corps of Engineers and the U.S. Department of 
Transportation quickly restoring the port and other vital areas 
and vital ports in southeast Louisiana to full operation will 
help return economic vibrancy to the area.
    Other important business sectors for economic development, 
tourism, you know Mardi Gras, New Orleans Jazz Fest, Sugar 
Bowl, annual Business Trade Association and other conventions. 
These internationally renowned events and activities and the 
culinary, artistic, musical and many, many other attributes of 
New Orleans created a tourism industry within the region that 
supported more than 2,500 companies with direct employment of 
approximately 81,000 people. Restoration of that industry is 
vitally important, not only to the New Orleans region but also 
to the fabric of our Nation as a whole.
    But the next three industries I will briefly highlight, 
then I will close, are industries that I think most of America 
is not aware of that are core to New Orleans's business beyond 
tourism and the port: biomedical and medical research and other 
related activities. In New Orleans, prior to Katrina, 22 
biotechnology firms had established businesses within the 
region and more than 24,000 employees worked in the high-paying 
jobs within the New Orleans medical sector.
    Through Louisiana State investments in cancer research and 
gene therapy consortiums among Tulane University, Louisiana 
State University and Xavier University, and the state-of-the-
art BioInnovation Center Wet Lab Incubator and other biomedical 
facilities, the New Orleans region was rapidly becoming a true 
biomedical research center on the Gulf Coast.
    Oil and gas, chemical manufacturing and other related 
industries. A third of the country's daily domestic oil and gas 
and the natural gas supply originates in the south Louisiana 
region. New Orleans is fortunate to have major defense 
contractor manufacturing facilities within the region, 
including Northrup Grumman Ship Systems, Lockheed Martin, 
Textron and Bollinger Shipyards, which employ collectively over 
13,000 workers.
    Last, information technology. Because of a number of 
Federal programs in the greater New Orleans region which employ 
several thousand people, the region has become a center of 
excellence for back-office technologies, as evidenced by the 
information technology work at the National Finance Center, the 
largest payroll center in the Nation, and the SPAWAR Systems 
Center, home to the Defense Integrated Military Human Resource 
System.
    As my written statement further highlights, the region has 
made great strides in business and manufacturing 
diversification, and government and business leaders alike want 
to continue the pre-Katrina efforts to preserve and enhance 
these and other business and manufacturing sectors. Bold 
recovery and other incentives are required to preserve business 
and economic opportunity in New Orleans and other affected Gulf 
Coast areas. Simply put, businesses will not return to the 
region unless the Administration and the Congress initiate 
strong, clear, definitive actions for regional recovery. It is 
clear that no recovery will happen without the support of 
Congress to No. 1, repair and enhance the New Orleans levee and 
barrier system and other public facilities and structures; No. 
2, provide appropriate Federal funding assistance for relief 
and recovery efforts; and No. 3, enact significant and 
effective business tax relief incentives to restore New Orleans 
to its place as one of the primary business, cultural and 
historical centers of our Nation.
    Mr. Chairman, I thank you for the opportunity to address 
the committee today. I look forward to working with you and 
your fellow committee members on the economic and business 
recovery of our New Orleans region. Thank you.
    Senator Vitter. Thank you very much, Mr. Hines.
    Now we will get into questions. Mrs. Chapital, you have 
been critical of the effort to get proper and adequate 
environmental information to citizens. I am sure you are 
familiar with the Mayor's Web site and other Web sites which 
have some guidelines and have information. Also the early days 
of the repopulation effort where that was handed out, I 
believe, in a flyer, as people entered the city.
    Is the main problem with those types of efforts, in your 
opinion, that the information is inadequate or that the means 
of getting it out there is inadequate?
    Mrs. Chapital. It is a little bit of both. In some 
instances, we will see cases, for example, Red Cross will have 
masks, but they are not the appropriate, there is like an N95 
respirator, to just give you a specific example, is what is 
needed specifically. So many of these people will have this 
false sense of, well, this actually winds up being a false 
sense, they think they will have what they need when in many 
instances they don't.
    Senator Vitter. Just to take that example, is that specific 
respirator identified in the Mayor's information and other 
information?
    Mrs. Chapital. I haven't seen the Mayor's information. I 
myself have not had the internet access, and many people don't 
have that access to be able to retrieve that information. There 
are community groups and individuals that are going out and 
trying to provide information to people. But it has been quite 
difficult for us to get information.
    Senator Vitter. Mr. Hines, following up on the No. 1 
priority you identified, which is also the No. 1 priority I 
would identify, the levee system protection, I guess the trick 
is, as I was saying to the Mayor, the trick is communicating a 
clear commitment, but at the same time, we don't have a plan, 
we don't have a design. So we don't have that in front of us, 
we are not going to authorize or appropriate money for it right 
now, between now and the end of the year.
    So given that, given it is going to take some amount of 
time to get that, what can we as a Congress say right now that 
will largely fulfill the needs?
    Mr. Hines. It is two-fold. One is I know you can't control 
the President, but they would like to hear the President and 
the Congress state, and I think it has been stated pretty 
clearly, that the Category 3 levee system will be built back to 
the 17-foot level, which is a new level, by June. We are 
hearing that and reading that in the paper, but have that 
stated clearly.
    No. 2, just a commitment, and frankly this is probably more 
from the President than from the Congress, but both, that we 
will build a Category 5, and we say levee and barrier system, 
because I know if Senator Inhofe was still here, as I said, the 
Mayor and I are the same age, I am very familiar with that 
barrier plan from the late 1970's and early 1980's, and met 
with the Corps of Engineers for the last several years as we 
chaired our economic development group. They said to us in 
private for 3 years that if that barrier system had been built 
in the early 1980's, we would have none of the flooding I had 
in my home or her home or anywhere from Slidell to New Orleans. 
The cost back then was $1.5 billion to $2 billion. I hear now 
it is $3 billion to $5 billion.
    So the answer is, I think the business community wants to 
be rational, and they understand you can't promise them 
something with technology that has not been developed or 
something. But they want to hear a firm commitment and a time 
line, and they don't want to hear 8 to 15 years, either. To be 
honest with you, if your home has been flooded or your business 
has been flooded, you have a fiduciary duty to your 
shareholders as CEO of a public company that is going to move 
back, you have to know that in sort of a 5-year plan, 5 to 8 
years, that this can incrementally be accomplished.
    I will also add, the Dutch, we have mentioned the Germans 
and the English, the Dutch have been to New Orleans several 
times and have offered this technology that they have had for 
years. There has not been a significant interest, really, 
primarily at the Federal level, in looking at it.
    Senator Vitter. I know you heard some of the other 
Senators' comments, particularly Senator Isakson, about folks 
up here wanting to hear from Louisiana an openness to doing 
things differently, and to rebuilding differently, particularly 
in highly vulnerable areas. Do you think there is that openness 
on the ground in the greater New Orleans area, which I think 
quite frankly is important to communicate to up here to get the 
help we need?
    Mr. Hines. I think it is a quick three-part answer. I think 
in the business community they clearly is that openness. In 
fact, frankly, they say if it is business as usual they are not 
coming back. So there is a clear commitment.
    Second, to sympathize with those that are homeowners or 
property owners in those low-lying areas, it is easy for me to 
say there has to be that change. But I think that the Mayor's 
commission or other groups, maybe the Federal Government can 
assist, needs to provide them with a vision of, well, if we're 
going to tell you we are not going to rebuild your home here, 
but then where are you going to go? You have to show them a 
vision.
    As you know, there are parts of older New Orleans and some 
urban environment, I compare it to a Chicago, you could move 
people in, if they wanted to, from the Ninth Ward of New 
Orleans East to Central City and other areas that have been a 
part of urban blight for the last 20 or 30 years, we could redo 
that. But you need community input to do that. Then last, as I 
said, I think this is one, I am just going to have to say it, 
but it is not our Federal officials, I am worried that our 
local elected officials need to embrace this change.
    You are elected officials, I think that when you look at 
not rebuilding some of these areas, it is going to change 
districts at council levels and State legislative levels and 
all that. That concerns me, the business community, that that 
cannot be a factor in making good public policy.
    Senator Vitter. Thank you. Ranking Member Jeffords.
    Senator Jeffords. Mrs. Chapital, one of the issues that has 
come up as we look at the redevelopment of the Gulf Coast is 
the degree to which displaced citizens are afforded an 
opportunity to participate in the decisionmaking process. What 
is your perspective on how important that is, and the problems, 
and what is the best way to make it happen?
    Mrs. Chapital. Repeat the question.
    Senator Jeffords. What is your perspective of how important 
it is for the displaced citizens to be afforded an opportunity 
to participate in the decisionmaking process, and what is the 
best way to make it happen?
    Mrs. Chapital. If we expect individuals to return, they do 
need to be a part of that redevelopment process. I wish I could 
better--I am not quite sure how that would take place, though. 
I am really not.
    Senator Jeffords. You just believe it is essential that it 
does take place?
    Mrs. Chapital. It is essential that it does take place.
    Senator Jeffords. Mr.Hines, from your perspective, has an 
inclusive, comprehensive process been set up at the local or 
State level that would create a redevelopment plan that would 
drive Federal investment decisions and clean up flood control 
in other areas?
    Mr. Hines. Two words. Inclusive, I think this get back to 
the question you asked my copanelist. I think there are some 
community organizations that do have networks that can 
facilitate communication. Because I agree, unless you are a 
professional with access to the internet, my children are much 
more on the internet giving me real-time information than even 
I have. But to the larger New Orleans population, frankly, 
primarily the poor, they don't have access to the internet. I 
think there needs to be outreach from these community groups. 
The community groups are returning to New Orleans, and they 
have their networks where they can get input.
    As to a comprehensive plan, I would like to say there is a 
comprehensive plan, but no, I don't believe there is one yet. 
We have talked about the levee barrier system, which is one 
type of plan. On economic redevelopment, I think there are 
plans that New Orleans, with citizen input, the New Orleans 
region adopted, as long as 5 years ago, frankly, when we were 
soliciting an NBA team, there was a vision and wish list for 5 
and 10 years out. I think we need to revisit that. I think that 
would be the basis for economic redevelopment.
    Then on social services, I think the United Way is working 
with U.N. groups now and the Red Cross and others on really 
taking a new look at how you deliver social services in this 
kind of an environment.
    Senator Jeffords. Thank you. What steps should the Federal 
Government take to make sure that happens, what you want to 
see?
    Mr. Hines. Well, I will express a personal opinion here, I 
think most businesses I talked to agree with this, and some 
others didn't, which is this appointment the President made 
yesterday, not who it was, but should we have that position. 
The term czar had been used for a while. I know we don't have a 
czar. But I think having a Federal coordinator, and I know that 
was the word that was used for this, I think will be critical. 
First, I understand you need assurances that the money is being 
wisely spent. But I think having somebody, and it appears from 
his background he has primarily a financial background, I think 
the other thing we will need is maybe some engineering 
background and that sort of thing.
    But to oversee how this coordinates with Mississippi and 
Alabama, and particularly with Mississippi as to this levee 
system and economic development, if you look at NASA alone, you 
have Stennis, you have Micheau, there are a lot of similarities 
between those two States. I think if those two States could 
cooperate, the poverty issues are the same, the racial 
demographics are the same. I think there is an opportunity to 
do a sort of Gulf Coast recovery plan that could be very 
visionary if we just bring the best minds to it.
    Senator Jeffords. Thank you.
    Senator Vitter. Thank you, very much, to both of you for 
participating. We appreciate it.
    With that, the meeting is adjourned.
    [Whereupon, at 11:54 a.m., the committee was adjourned.
    [Additional statements submitted for the record follow:]

Statement of Hon. Nils J. Diaz, Chairman, Nuclear Regulatory Commission

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, it is a privilege to 
appear before you today to discuss the U.S. Nuclear Regulatory 
Commission's preparations and response to Hurricane Katrina. To 
summarize NRC's actions, I have attached a factual NRC timeline for the 
Hurricane Katrina activities.

        OVERVIEW OF NUCLEAR EMERGENCY PREPAREDNESS AND RESPONSE

    The NRC's mission is to ensure adequate protection of public health 
and safety, promote the common defense and security, and protect the 
environment at nuclear powerplants and materials facilities during 
routine operations and during abnormal or emergency conditions, 
including natural emergencies, such as Hurricane Katrina. The NRC takes 
an integrated approach to safety, security, and emergency preparedness 
in carrying out this mission. This approach, combined with the defense-
in-depth strategy we use for licensing the design, construction, and 
operation of nuclear powerplants, provides substantial protection 
against severe natural phenomena, such as hurricanes and tornados.
    The well-established capabilities and procedures of the NRC, our 
Federal and Agreement States partners, and our licensees proved to be 
effective during Hurricane Katrina for NRC areas of responsibility. The 
nuclear powerplants affected by this hurricane were essentially 
undamaged. Concurrently with the disciplined approach to preparation by 
our nuclear reactor licensees, the NRC initiated pertinent command and 
control of emergency response activities early and activated the NRC 
Region IV Operations Center in Arlington, Texas, and the NRC 
Headquarters Operations Center in Rockville, Maryland, as the hurricane 
approached the Gulf Coast, with substantial participation from all 
regions and senior management, including the Chairman. My fellow 
commissioners were kept fully and currently informed. In addition, the 
NRC and State regulatory agencies initiated and implemented emergency 
preparedness and response activities to account for, and ensure the 
safety and security of radioactive materials located in the States of 
Louisiana, Alabama, and Mississippi. These States are Agreement States, 
through formal agreements with the NRC, have regulatory authority over 
certain sources of radioactive materials within their States. This 
authority does not include reactors, large quantities of special 
nuclear material, or materials licensed to Federal government agencies. 
The NRC coordinated extensively with the Agreement States and our 
Federal licensees to ensure that the safety and security of radioactive 
sources were maintained.
    For nuclear powerplants, emergency planning begins with robust 
facility designs. NRC regulations require each nuclear powerplant to be 
designed and constructed to withstand the effects of severe natural 
phenomena pertinent to the surrounding area, along with added margins 
of safety for even more extreme postulated events. The design of these 
facilities considers the combination of the effects of natural 
phenomena with the effects of normal and accident conditions at the 
plant. For example, nuclear powerplants in Florida and along the Gulf 
Coast are designed with capabilities to mitigate plant accidents even 
with the effects of hurricanes, flooding, and loss of offsite power 
from the electrical grid, while nuclear powerplants in California 
include capabilities to mitigate plant accidents even with the effects 
of a severe earthquake and loss of off-site power from the electrical 
grid. Waterford 3, the nuclear powerplant closest to New Orleans, is 
equipped with protective features against flooding, including a 30-foot 
levee and water-tight compartment doors for safety-related equipment.
    Over the years, U.S. nuclear powerplants have experienced direct 
impacts of severe natural phenomena, and their robust design and 
construction have enabled them to successfully withstand such events. 
Some of the events experienced within the past 15 years include: 
Hurricane Andrew, a Category 4 hurricane, which passed directly over 
the Turkey Point nuclear powerplant with sustained wind speeds of 145 
miles per hour and gusts up to 175 miles per hour (August 1992); the 
Cooper Nuclear Station, which experienced flooding onsite from the 
Missouri River (July 1993); a Fujita Tornado Damage Scale F2 tornado, 
which directly hit the Davis Besse Nuclear Power Station, with winds of 
113 to 157 miles per hour (June 1998); and, the Diablo Canyon Power 
Plant, which felt the shock from a Magnitude 6.5 San Simeon earthquake 
in Paso Robles, California (December 2003). In all these cases, the 
nuclear powerplant functioned as they were designed, and adequate 
protection was maintained during and after the event.
    NRC regulations also require all nuclear powerplant licensees to 
have in place comprehensive emergency preparedness programs (e.g., 
dedicated emergency response facilities, systems, equipment, and 
staffing). Detailed site-specific emergency plans and implementing 
procedures provide instructions and guidelines for dealing with or 
responding to a variety of emergency situations, including natural 
phenomena such as hurricanes. These integrated emergency plans are 
developed in a coordinated manner between the facility licensee and 
State and local authorities, with oversight of the NRC and the 
Department of Homeland Security (DHS)/Federal Emergency Management 
Agency (FEMA). Emergency response for the sites is periodically 
evaluated by the NRC, and additional training and drills are conducted 
between these evaluated exercises to help further prepare for a wide 
spectrum of emergencies, including hurricanes. During these exercises, 
the NRC works closely with DHS/FEMA in evaluating the acceptability of 
the emergency plans. The NRC evaluates onsite response capabilities and 
integration of onsite and offsite preparedness, and then reviews the 
findings that DHS/FEMA makes regarding offsite emergency planning.
    The NRC has exercised its key responsibilities in coordination with 
DHS and other Federal agencies under the National Response Plan (NRP). 
In accordance with the NRP, the NRC is the coordinating agency for 
incidents involving facilities and/or materials licensed by the NRC or 
an Agreement State. Accordingly, the NRC leads the Federal-level 
response functions identified in the Nuclear/Radiological Incident 
Annex with support provided by the cooperating agencies, such as the 
U.S. Department of Energy (DOE) and the U.S. Environmental Protection 
Agency (EPA). In cooperation with its Federal partners, the NRC 
implemented the NRP for Hurricane Katrina.

                     NRC INCIDENT RESPONSE PROGRAM

    The NRC Operations Center, located at its Headquarters Office in 
Rockville, Maryland, is continually staffed with qualified personnel, 
who have the expertise and ability to evaluate events and alert NRC 
management, other Federal partners, and licensees, as necessary, to 
properly respond to unfolding events. Over the years, the NRC has taken 
several steps to enhance its emergency preparedness and response 
capabilities. These include increased staffing and modernization of 
facilities and equipment, more frequent exercises with other Federal 
agencies, and increased interaction with our international partners to 
gain knowledge of incident response activities in other countries. The 
NRC is also playing an active role in enhancing incident response 
capabilities for radiological emergencies and incidents by conducting 
tabletop exercises with Federal and State emergency response 
organizations and outreach activities with local stakeholders. During 
preparation and response to emergencies, the Agency also discharges its 
responsibility to communicate developments to Congressional delegations 
and State executives, as appropriate.
    The NRC is capable of responding to multiple events, affecting 
multiple plants at the same time. This was demonstrated when the NRC 
was responding effectively to Hurricane Katrina while simultaneously 
participating in a biennial emergency exercise at the Monticello 
Nuclear Plant in Minnesota on August 30, 2005. The NRC also responded 
successfully to multiple events during the August 2003 electrical grid 
collapse in the northeast and Midwest, which resulted in automatic 
reactor shutdowns at nine U.S. nuclear powerplants and the loss of 
offsite power at eight plants.

                   PREPAREDNESS FOR HURRICANE SEASON

    The NRC and its licensees routinely monitor, prepare for, and 
respond to hurricanes using well-established procedures. The NRC 
requires that each nuclear powerplant shut down under weather 
conditions specific to each site. For example, the Waterford 3 plant 
began to shut down the day before Hurricane Katrina made landfall in 
Louisiana, based on projected sustained wind speeds exceeding 74 miles 
per hour.
    The NRC has an established hurricane response program that is 
implemented each year during hurricane season, from June 1 through 
November 30. The NRC has responded to hurricanes with nuclear 
powerplants in their direct paths. Throughout the hurricane season, the 
NRC monitors potentially hazardous weather conditions in the Atlantic 
and Pacific Oceans, the Caribbean Sea, and the Gulf of Mexico. For the 
Atlantic basin, the NRC monitors tropical storm formations developing 
as far away as the African coast. The NRC relies on hurricane tracking 
computer programs and data provided by the National Oceanic and 
Atmospheric Administration that provides current and projected 
information about developing storms and their proximity to the U.S. 
coastline.
    At the beginning of each hurricane season, nuclear powerplant 
licensees prepare well in advance by updating procedures and assessing 
their sites for readiness. For an approaching hurricane, a licensee's 
response would typically include identification of emergency staffing, 
plans for activation of emergency support facilities, testing of 
routine and emergency communications, equipment readiness checks, and 
updating of contact information with Federal, State, and local 
agencies.

                     RESPONSE TO HURRICANE KATRINA

    For Hurricane Katrina, the NRC and its licensees took aggressive 
and prudent steps to prepare for its impact. The NRC and nuclear 
powerplant licensees began preparations before Katrina first made 
landfall in Florida on August 25, 2005. The NRC tracked the hurricane's 
status carefully from its inception as Tropical Depression 12 on August 
24, 2005, when it was located well off the coast of Florida. The NRC's 
Region II office in Atlanta, Georgia, initially tracked the storm and 
issued daily weather updates to alert the Commission, NRC Headquarters, 
and regional personnel of this storm. The NRC Region II office 
coordinated with DHS/FEMA's Atlanta regional office, the State of 
Florida, and NRC licensees prior to the storm becoming a hurricane, and 
maintained communications throughout the passage of the hurricane over 
Florida.
    Two nuclear powerplants in Florida had the potential to be affected 
by the hurricane, but were never in its direct path. The Turkey Point 
plant in Florida City and the Saint Lucie plant on Hutchinson Island 
implemented emergency preparations to ensure the facilities were fully 
prepared. The NRC issued status reports for these plants to keep 
stakeholders informed and NRC's site resident inspectors monitored site 
conditions and implementation of the licensee's established procedures 
for hurricane preparations.
    When the storm passed west of longitude W87 on August 27, 2005, 
NRC's Region IV office in Arlington, Texas, monitored Hurricane Katrina 
as it moved into the Gulf of Mexico. The NRC Region IV Operations 
Center coordinated with Louisiana and Mississippi State officials and, 
on August 28, 2005, an NRC State/Federal Liaison Officer was dispatched 
to FEMA's regional office in Denton, Texas. In accordance with the 
NRC's incident response program, the Chairman of the NRC and NRC senior 
staff led the agency's response to Hurricane Katrina in both 
Headquarters and Region IV. Before Hurricane Katrina's arrival along 
the Gulf Coast States, the NRC staffed its Headquarters and Region IV 
Operations Centers with experts to prepare for any unforeseen 
circumstances, and NRC Region IV dispatched additional inspection staff 
to augment the permanently assigned resident inspectors at nuclear 
powerplants in Louisiana and Mississippi.
    The Grand Gulf plant in Port Gibson, Mississippi, the River Bend 
plant in Saint Francisville, Louisiana, and the Waterford 3 plant were 
more impacted by Hurricane Katrina than the plants located in Florida. 
Before, during, and after the storm's passage, the NRC closely 
monitored onsite and offsite activities at each of these sites by 
maintaining staff in NRC's Headquarters and Region IV Operations 
Centers and at the sites. The NRC held routine conference calls with 
the State of Louisiana and the parishes surrounding the Waterford 3 
site and supported the State of Louisiana's Emergency Operations Center 
in Baton Rouge. The NRC provided status information on the conditions 
and the operational status of nuclear powerplants and materials 
facilities in the States of Louisiana and Mississippi for the Federal 
Joint Field Office, which was established following DHS' declaration of 
an incident of national significance for Hurricane Katrina on August 
30, 2005.
    All three nuclear powerplants were essentially undamaged by the 
hurricane. However, land-line communications with the Waterford 3 site 
were lost because of flooding in the New Orleans area. In addition, 
offsite power was lost because of instability in the regional 
electrical grid. Following the loss of offsite power, electrical power 
for key safety systems for the Waterford 3 plant was supplied 
automatically by the plant's standby diesel generators. To address the 
loss of land-line communication, extra land lines were installed and 
satellite communications equipment was employed for communication 
following the hurricane's passage at this site. Backup satellite 
communications equipment was employed by NRC staff at the site, NRC 
Region IV, and NRC Headquarters to ensure continuous communications 
with the Waterford 3 site.
    Prior to restart of the Waterford 3 plant, the NRC staff 
independently verified that key plant systems and structures were able 
to support safe operations at the plant, and in cooperation with DHS/
FEMA, the NRC confirmed that the offsite infrastructure was adequate to 
support plant operations. An NRC regional team evaluated onsite 
emergency preparedness and the readiness of the plant for restart. 
Also, the NRC participated in the DHS/FEMA Disaster Initiated Review 
Team for the offsite assessment of the Waterford 3 site by reviewing 
and evaluating offsite emergency preparedness and response 
capabilities. After successful completion of these evaluations, the 
Waterford 3 powerplant resumed operation, supplying electricity to 
support recovery of the regional infrastructure.

             NRC RESPONSE FOR RADIOACTIVE MATERIAL CONTROL

    NRC and the Agreement States of Alabama, Louisiana, and Mississippi 
share the regulatory oversight responsibilities for ensuring the safety 
and security of radioactive materials in the region affected by 
Katrina. These Agreement States have regulatory authority over 
approximately 98 percent of the total number of radioactive materials 
licensees located within their borders. The NRC has jurisdiction for 
the remainder, which includes Federal facilities such as Veterans 
Hospitals and the U.S. military.
    The majority of the NRC and Agreement State licensed material is in 
the form of sealed sources. Devices containing sources of the greatest 
concern from a radiological standpoint are designated as Category 1 or 
2 in the International Atomic Energy Agency (IAEA) Code of Conduct on 
the Safety and Security of Radioactive Sources and are designed and 
manufactured in accordance with strict NRC regulatory requirements. To 
ensure that the source is designed to meet or exceed standards as 
specified in the regulatory requirements, the NRC or its equivalent 
Agreement States must review the manufacturers' application to produce 
a sealed source. Typically, these sources are doubly encapsulated in 
stainless steel and are manufactured to withstand accidental conditions 
such as immersion, fire, and drop/crushing. When not in use, the 
sources are stored in a shielded configuration to ensure the safety of 
the general public, as well as workers.
    The NRC worked closely with its Agreement State partners and its 
own materials licensees (Federal facilities) in those States to monitor 
the safety and security of radioactive sources of concern during the 
recovery from Hurricane Katrina. The NRC contacted its IAEA Category 1 
and Category 2 licensees (Federal facilities) in the affected States to 
obtain additional information on the status and security of facilities 
and materials listed in an existing database. This database list 
included information on facilities regulated by the NRC, Louisiana, 
Alabama, and Mississippi, which was updated daily. Coordination with 
the Agreement States proved successful in obtaining current information 
regarding the control and status of radioactive materials. The NRC, 
through its Agreement State liaisons, was able to verify the control 
and status of all IAEA Category 1 and Category 2 sources located in 
Alabama and Mississippi within days of Katrina's landfall. The NRC 
continues to coordinate with Louisiana to confirm the continued control 
of radioactive sources and licensed facilities in locations with 
limited access.
    The NRC also discussed the availability of resources for assisting 
in recovery efforts with its Federal partners, including the Center for 
Disease Control, DOE, EPA, FEMA, and the U.S. Army Corp. of Engineers. 
The NRC also assisted Louisiana with its request for use of the DOE's 
Aerial Monitoring System to detect any misplaced or missing radiation 
sources. On September 13, 2005, the NRC sent staff to the Louisiana 
Department of Environmental Quality (LDEQ) for an extended period to 
enhance communications and provide assistance at facilities that 
contained IAEA Category 1 and 2 sources in Louisiana. On September 26, 
2005, the NRC sent additional staff to Baton Rouge and Lafayette, 
Louisiana, to provide support that includes participation in LDEQ field 
teams.
    In addition, the NRC provided current information regarding the 
status of radioactive sources for situation reports (SITREPs) required 
by DHS, and developed the DHS/NRC Joint Bulletin, ``Assessment of 
Security of Radioactive Sources in the Hurricane Affected Area.'' The 
NRC remains ready to provide staff with technical expertise concerning 
radioactive materials safety and control to DOE, EPA, FEMA, and State 
radiological emergency response teams.

                               CONCLUSION

    For more than 25 years, the NRC has implemented improvements in its 
emergency preparedness and incident response programs, and continues 
today to be vigilant in ensuring the adequate protection of public 
health and safety, common defense and security, and the environment 
before, during, and after natural or man-made emergencies. During this 
time, the combination of robust nuclear powerplant design and 
construction, comprehensive emergency preparedness programs and 
implementing procedures which improved significantly after September 
11, 2001, and well-trained staff has proven effective against severe 
natural phenomena. As the response to Hurricane Katrina demonstrates, 
NRC and its licensees' emergency preparedness capabilities and 
established procedures have proven to be effective in responding to 
events at licensee facilities, including natural phenomena. We are 
committed to continuous assessment and enhancement of these 
capabilities. As it has done routinely following previous hurricanes, 
the NRC is conducting a lessons learned from Hurricane Katrina. The NRC 
has already applied insights from the experience with Hurricane Katrina 
in preparing for and responding to Hurricanes Rita and Wilma and will 
further enhance coordination with DHS/FEMA to ensure effective 
emergency preparedness and timely return to service of nuclear 
powerplants. The NRC will continue to exercise strong oversight of each 
facility it licenses and work closely with Federal, State, and local 
agencies to protect the public.
    I appreciate the opportunity to appear before you today, and I 
welcome your comments and questions.
                                 ______
                                 
           NRC Preparations and Response to Hurricane Katrina

       AUGUST 24, 2005.--(FIVE DAYS BEFORE LANDFALL IN LOUISIANA)

    <bullet> NRC's Headquarters Operation Center (HOC) in Rockville, 
Maryland and Region II office in Atlanta, Georgia, begin to track 
Tropical Depression 12 as it formed 270 miles ESE of the SE coast of 
Florida.
    <bullet> NRC Region II began implementation of NRC Procedure #2651 
for Hurricane Response.
    <bullet> NRC Region II issued a Tropical Weather Update to NRC 
Headquarters and NRC Regions.
    <bullet> NRC Region II coordinated with the Department of Homeland 
Security (DHS)/Federal Emergency Management Agency's (FEMA) Region IV 
office in Atlanta, Georgia, the State of Florida, and applicable NRC 
licensees.
    <bullet> NRC issued status reports for the two powerplants in 
Florida, the Turkey Point plant in Florida City and the Saint Lucie 
plant on Hutchinson Island, that had the potential to be affected by 
the hurricane. These status reports kept stakeholders informed about 
the preparations that the powerplant licensees were taking in response 
to the approaching storm.
    <bullet> NRC's site resident inspectors at the Turkey Point and 
Saint Lucie plants examined site conditions and monitored the 
licensees' implementation of their established procedures for hurricane 
preparations.
    <bullet> NRC Headquarters received a ``Notification of an Unusual 
Event'' declaration from the Turkey Point and Saint Lucie powerplant 
licensees. This is the lowest level of emergency classification for 
events at nuclear powerplants. The licensees made the declarations in 
response to the issuance of the hurricane warning for Tropical 
Depression 12. NRC notified other Federal agencies of the declaration, 
consistent with established procedures.

       AUGUST 25, 2005--(FOUR DAYS BEFORE LANDFALL IN LOUISIANA)

    <bullet> NRC Region II issued a Tropical Weather Update on Tropical 
Storm Katrina.
    <bullet> As it approached the east coast of Florida, the storm 
strengthened to a Category 1 hurricane and, as predicted by the 
hurricane tracking software utilized by the NRC, it passed between the 
Turkey Point and Saint Lucie powerplants. There were no impacts to 
either powerplant except heavy rain.
    <bullet> NRC Region II was in communication with the Turkey Point 
and Saint Lucie powerplants prior to the storm becoming a hurricane and 
during the hurricane's passage.

       AUGUST 26, 2005--(THREE DAYS BEFORE LANDFALL IN LOUISIANA)

    <bullet> NRC Region II issued a Tropical Weather Update on 
Hurricane Katrina.
    <bullet> NRC resident inspectors at the Grand Gulf powerplant in 
Port Gibson, Mississippi, the River Bend powerplant in Saint 
Francisville, Louisiana, and the Waterford 3 powerplant in Killona, 
Louisiana, began to closely monitor licensee preparations for the 
approaching hurricane.
    <bullet> NRC Region IV in Arlington, Texas, prepared staffing plans 
for onsite resident inspector coverage at the Grand Gulf, River Bend, 
and Waterford 3 powerplants during the weekend.

        AUGUST 27, 2005--(TWO DAYS BEFORE LANDFALL IN LOUISIANA)

    <bullet> As Hurricane Katrina passed west of longitude W87, NRC 
Region II transferred the tracking of the hurricane to NRC Region IV, 
in accordance with established hurricane tracking procedures. NRC 
Region IV implemented NRC Procedure #2651 for Hurricane Tracking.
    <bullet> NRC Region IV dispatched a region-based inspector to 
augment the resident inspector staff at the Waterford 3 powerplant. 
Resident inspectors at the Grand Gulf, River Bend, and Waterford 3 
powerplants were prepared to provide 24-hour coverage beginning August 
28, 2005, in accordance with NRC procedures.
    <bullet> NRC Headquarters received a ``Notification Of an Unusual 
Event'' declaration from the Waterford 3 powerplant due to the issuance 
of a hurricane warning. NRC then notified the Department of 
Agriculture, Department of Energy, Department of Health and Human 
Services, DHS/FEMA, and the Environmental Protection Agency, consistent 
with established procedures.

          AUGUST 28, 2005--(DAY BEFORE LANDFALL IN LOUISIANA)

    <bullet> NRC Headquarters made numerous phone calls in the morning 
to update NRC Regions on the hurricane preparations being performed at 
the Grand Gulf, River Bend, and Waterford 3 powerplants.
    <bullet> The NRC Chairman participated in multiple Executive Team 
briefings with senior Headquarters and NRC Region IV management on 
Hurricane Katrina preparations.
    <bullet> In accordance with plant procedures, the Waterford 3 
powerplant shut down as a precautionary measure, based on projected 
wind speeds exceeding 74 miles per hour.
    <bullet> At 1600 EST, the NRC entered Monitoring Mode. NRC RIV 
activated and fully staffed its Incident Response Center. The NRC HOC 
and NRC Region IV continued to closely monitor the onsite and offsite 
activities at powerplants located along the Gulf Coast.
    <bullet> NRC Region IV dispatched a NRC State/Federal Liaison 
Officer to FEMA's Region VI Office in Denton, Texas.
    <bullet> NRC initiated routine conference calls with the State of 
Louisiana and the parishes surrounding the Waterford 3 site, and 
offered support to the State of Louisiana's Emergency Operations center 
in Baton Rouge.
    <bullet> NRC Region IV contacted and offered assistance to the 
Louisiana Department of Environmental Quality (LDEQ) and made 
arrangements for further contacts with them after the hurricane passed. 
NRC management was briefed on NRC and Agreement State materials 
licenses in Louisiana.
    <bullet> NRC issued a press release on Hurricane Katrina 
preparations.

            AUGUST 29, 2005--(LANDFALL OF HURRICANE KATRINA)

    <bullet> Before Hurricane Katrina made landfall, NRC staffed the 
Homeland Security Operations Center (HSOC), and NRC HOC and NRC RIV 
began receiving information from the Grand Gulf, River Bend, and 
Waterford 3 powerplants' Emergency Response Data System, which provides 
plant status and weather information directly to NRC.
    <bullet> The NRC Chairman participated in multiple Executive Team 
briefings on the status of Hurricane Katrina and NRC licensee 
activities.
    <bullet> NRC HOC and NRC Region IV continued routine communications 
with the Waterford 3, River Bend, and Grand Gulf powerplants throughout 
the hurricane's passage. NRC HOC was fully staffed with four teams of 
specialists. Members became familiar with the Waterford 3 plant's 
flooding and wind design bases.
    <bullet> NRC Region IV began daily contacts with the States of 
Mississippi and Louisiana to receive status reports and to offer 
assistance with regard to materials licensees.

           AUGUST 30, 2005--(DAY AFTER LANDFALL IN LOUISIANA)

    <bullet> NRC HOC staff exercised responding to multiple events. NRC 
HQ management held periodic briefings on the status of Hurricane 
Katrina during the emergency preparedness exercise with the Monticello 
Nuclear Station.
    <bullet> NRC Headquarters and NRC Region IV worked closely with the 
licensee that operates the Grand Gulf, River Bend, and Waterford 3 
nuclear plants to identify potential supplemental communications 
resources. Satellite communications were used to continue 
communications with the Waterford 3 plant following loss of phone 
capability due to local flooding.
    <bullet> NRC issued a press release on Hurricane Katrina monitoring 
activities.

        AUGUST 31, 2005--(TWO DAYS AFTER LANDFALL IN LOUISIANA)

    <bullet> As part of NRC Headquarters and NRC Region IV coordination 
efforts with Agreement States and the Federal Government on the 
security and status of radioactive materials in the Gulf Coast area, 
NRC Headquarters coordinated with DHS on a request by the LDEQ for 
assistance in obtaining security guards for a radioactive source 
manufacturing facility located near New Orleans.
    <bullet> NRC used an existing database to develop a report 
summarizing the status of Category 1 and Category 2 sources licensed by 
NRC, Alabama, Louisiana, and Mississippi and shared this information 
with DHS through the HSOC. Routine updates of the report were 
transmitted to HSOC from August 31, 2005, through September 20, 2005.

       SEPTEMBER 2, 2005--(FOUR DAYS AFTER LANDFALL IN LOUISIANA)

    <bullet> NRC Headquarters and NRC Region IV assisted LDEQ with a 
request to obtain surveys of New Orleans by using DOE's Aerial 
Monitoring System to detect any misplaced or stolen radiation sources.
    <bullet> NRC Headquarters and NRC Region IV coordinated with a DOE 
liaison at HSOC to assist the Mississippi Department of Health in 
evaluating the use of DOE's Aerial Monitoring System to detect 
misplaced or stolen radiation sources in Mississippi.

        SEPTEMBER 5-8, 2005--(WEEK AFTER LANDFALL IN LOUISIANA)

    <bullet> At the request of DHS/FEMA Region VI, NRC provided two 
Regional State/Federal Liaison Officers to serve as members of the 
Disaster Initiated Review Team for the offsite assessment of the 
Waterford 3 site to confirm that the offsite infrastructure was 
adequate to support plant operations.
    <bullet> On September 6, 2005, NRC returned to Normal Mode and NRC 
Region IV shut down its Incident Response Center.
    <bullet> NRC participated in DHS/FEMA's assessment of offsite 
emergency preparedness and response capabilities for the Waterford 3 
plant. Prior to restart of the Waterford 3 plant, the NRC staff 
independently verified that key plant systems and structures were able 
to support safe operations at the plant.
    <bullet> On September 8, 2005, NRC issued a press release on NRC's 
oversight of the Waterford 3 restart activities.

    SEPTEMBER 9-13, 2005--(SECOND WEEK AFTER LANDFALL IN LOUISIANA)

    <bullet> On September 9, 2005, NRC Headquarters notified the 
licensee of the Waterford 3 powerplant (by phone and followed up by 
letter) that the NRC concurred with the assessment that the emergency 
preparedness infrastructure, both onsite and offsite, was adequate for 
the restart of the plant.
    <bullet> On September 9, 2005, NRC issued a press release on the 
restart of Waterford 3.
    <bullet> The NRC assisted Centers for Disease Control and 
Environmental Protection Agency representatives on the status of 
Category 1 and 2 sources licensed by Louisiana and Mississippi. Devices 
containing sources designated as Category 1 or 2 in the International 
Atomic Energy Agency Code of Conduct on the Safety and Security of 
Radioactive Sources are designed and manufactured in accordance with 
strict regulatory requirements.
    <bullet> NRC assisted the LDEQ with preparation of written 
precautions and information for emergency workers entering the New 
Orleans area.
    <bullet> On September 13, 2005, NRC dispatched a materials 
inspector to the LDEQ. The NRC inspector worked closely with the 
Louisiana Radiation Control Program Director and served as the primary 
communicator between LDEQ and the NRC Region IV.

      SEPTEMBER 26-OCTOBER 5, 2005--(FOURTH AND FIFTH WEEKS AFTER 
                         LANDFALL IN LOUISIANA)

    <bullet> NRC sent additional staff to Baton Rouge and Lafayette, 
Louisiana, to provide support that included participation in LDEQ field 
teams. NRC assisted with inspections and communications through October 
5, 2005.
                                 ______
                                 
Responses by Nils J. Diaz to Additional Questions from Senator Jeffords

    Question 1. Mr. Chairman, as I understand it, the NRC had very good 
information from and communication with powerplant licensees during 
Hurricane Katrina. I know accounting for and securing the more diffuse 
licensees, such as universities, medical facilities, and industrial 
sources is a significant challenge. How long did it take NRC to be able 
to determine that nuclear materials held by non-powerplant licensees 
were secure? What lessons have you learned from that experience?
    Response. The U.S. Nuclear Regulatory Commission (NRC) and the 
Agreement States of Alabama, Louisiana, and Mississippi share the 
regulatory oversight responsibilities for ensuring the safety and 
security of radioactive materials in the region affected by Katrina. 
These Agreement States have regulatory authority over approximately 98 
percent of the total number of radioactive material licensees located 
within their borders. The NRC has jurisdiction over the remainder, 
which includes Federal facilities such as U.S. military installations 
and medical facilities operated by the Veterans Administration.
    Before Hurricane Katrina made landfall in Louisiana, NRC 
coordinated with Louisiana on the State's preparations for the 
hurricane, including activities involving Louisiana licensees. NRC 
Region IV contacted and offered assistance to the Louisiana Department 
of Environmental Quality (LDEQ) and made arrangements for further 
contacts with LDEQ after the hurricane passed. NRC management was 
briefed on NRC and Agreement State material licensees in Louisiana and 
NRC provided staff to the Homeland Security Operations Center. NRC 
Region IV also coordinated with FEMA Region VI and provided staff to 
the Regional Response Coordination Center.
    The NRC worked closely with its Agreement State partners and its 
own material licensees (Federal facilities) in those States to monitor 
the safety and security of radioactive sources of concern during the 
recovery from Hurricane Katrina. The NRC contacted its licensees 
(Federal facilities) possessing International Atomic Energy Agency 
Category 1 and Category 2 sources located in the affected States to 
obtain additional information on the status and security of facilities 
and materials listed in an existing database.
    NRC confirmed that sources of concern at Federal facilities were 
secure by September 8, 2005. For sources regulated by the Agreement 
States, on September 1, 2005, Alabama confirmed its Category 1 and 2 
sources were secure and, on September 7, 2005, Mississippi confirmed 
all Category 1 and 2 sources had been accounted for, except for one at 
the Stennis Space Center; this source was confirmed as secure on 
September 12, 2005. By October 4, 2005, the LDEQ had visited each 
Category 1 and 2 facility in Louisiana that was affected by the 
hurricane and had reasonable assurance that sources were secure because 
the buildings were structurally sound and locked, and it appeared that 
vandalism had not occurred. Local law enforcement and the National 
Guard were used throughout the recovery period to provide security 
across the New Orleans area. NRC is continuing to work closely with the 
LDEQ to assess further the status of radioactive sources within its 
regulatory purview.
    The NRC discussed the availability of resources for assisting in 
recovery efforts with its Federal partners, including the Centers for 
Disease Control, DOE, EPA, FEMA, and the U.S. Army Corps of Engineers. 
The NRC also assisted Louisiana with its request for use of the DOE's 
Aerial Monitoring System to detect any misplaced or missing radiation 
sources. On September 13, 2005, the NRC dispatched staff to the LDEQ 
for an extended period to enhance communications and provide 
assistance. On September 26, 2005, the NRC dispatched additional staff 
to Baton Rouge and Lafayette, Louisiana, to provide support that 
included participation in LDEQ field teams.
    NRC applied insights from the experience with Hurricane Katrina in 
preparing for and responding to Hurricanes Rita and Wilma. For example, 
because the communication infrastructure was still challenged after 
Hurricane Rita made landfall, response teams dispatched on September 
26, 2005, to Louisiana were equipped with additional communications 
equipment, including cell phones that can be used when public telephone 
networks are not available or are overloaded. NRC also reached out to 
Texas and Louisiana in advance of Hurricane Rita making landfall to 
discuss actions proposed by the States to assure that their licensees 
were taking action to secure large sources in advance of the storm 
making landfall.
    Currently, NRC is evaluating lessons learned from Hurricane Katrina 
and has established an agency-wide task force that will review NRC, 
State, and licensee preparations for and response to natural phenomena, 
such as hurricanes, to identify and recommend areas for improvement. 
The task force is expected to deliver a report with recommendations to 
the NRC Executive Director for Operations in February 2006. Depending 
on the conclusions of the task force and direction from the Commission, 
regulatory changes or other actions could be proposed. The final report 
will be made public.

    Question 2. Mr. Chairman, communications are critical to NRC's 
successful monitoring of powerplant licensees in the event of a 
hurricane. Would you comment on NRC's use of various modes of 
communications, such as standard phone lines, satellite or other 
devices, Internet during Hurricane Katrina, have you assessed the 
merits and limitations of each, and do you deploy all of them during a 
hurricane event?
    Response. NRC's experience in responding to Hurricanes Katrina and 
Rita has confirmed the importance of deploying and using diverse 
communication systems. Even without significant damage to the 
telecommunication infrastructure, commercial systems may become 
overwhelmed with the high volume of communication traffic in the wake 
of an emergency. Our deployment of a variety of communication systems 
contributed to our success in maintaining contact with our licensees 
and response teams. NRC is currently evaluating communication 
challenges as part of our ongoing lessons learned efforts and will 
evaluate opportunities for additional enhancements to our response 
program in the area of communications.
    The NRC relies on several methods for communicating with powerplant 
licensees and NRC's resident inspector staff. Licensees may communicate 
with NRC through the use of commercial public telephone network 
systems, the Federal Telecommunications System (FTS), or cellular 
communications. In addition to the commercial telecommunication lines 
maintained by licensees, the NRC provides a limited number of Emergency 
Telecommunications System (ETS) lines using direct access lines to the 
Federal Government's long distance network, or FTS provider, to nuclear 
powerplants. NRC resident inspector offices are also connected to the 
FTS network. These many systems for communication provide NRC the 
capability of maintaining contact with the licensees in the event of a 
hurricane.
    At nuclear powerplants, these lines are routed to the plant control 
room and the licensees' emergency operations facilities, where key 
response personnel are located during an event. These dedicated lines 
provide access to long distance networks independent of the local 
telephone switch.\1\ In addition, if a problem occurs with the 
dedicated direct access FTS lines, the NRC has provided for telephone 
service priority with the government contractor to prioritize 
restoration or repair of the lines. FTS communication lines located in 
the control room that link the NRC and its licensees are tested daily. 
Licensees can also communicate with NRC through the use of cellular 
service, although this would typically be used as a backup if 
commercial or FTS lines were not available. NRC resident offices are 
also equipped with cell phones and satellite phones which are tested 
regularly.
---------------------------------------------------------------------------
    \1\ Some licensees have elected to use preexisting licensee 
communication networks to provide access to long distance networks 
independent of the local telephone switch. This option was approved by 
the Commission in 2000.
---------------------------------------------------------------------------
    NRC regional offices are equipped with diverse modes of 
communication to support their response functions and teams, including 
response teams dispatched in the field. Communication devices include a 
mix of cell phones, secure cell phones, portable satellite phones, and 
hand-held walkie-talkies for the NRC response teams. These 
communication devices and systems are tested regularly. NRC regional 
response teams also have access to the Government Emergency Telephone 
System (GETS) which provides priority service to GETS card holders 
during emergencies when commercial phone systems and the FTS system may 
experience a high volume of communication traffic.
    The NRC Region IV incident response center in Arlington, Texas, 
which dispatched several staff members to Louisiana and Mississippi for 
responses to Hurricanes Katrina and Rita, supplemented its 
communication devices in advance of the 2005 hurricane season to 
provide additional diversity in the available means of communication. 
All regional communication devices and services noted above, except for 
walkie-talkies, were deployed with the NRC Region IV responders during 
the response to Hurricanes Katrina and Rita. In addition to the 
communication devices deployed from Region IV, NRC deployed additional 
satellite phones from other NRC regional offices to supplement 
communication devices available to NRC staff and the licensees in 
Louisiana following the passage of Hurricane Katrina.
    As you are aware, there was significant damage to the communication 
infrastructure in the New Orleans area as a result of Hurricane 
Katrina. Surrounding areas in Louisiana and in Mississippi also 
experienced some telecommunication disruption. The disruption of 
telecommunication service affected both the River Bend and Waterford-3 
powerplants in Louisiana. In addition, the Grand Gulf powerplant in 
Mississippi also experienced some disruption of telecommunication 
service following passage of the storm.
    For the River Bend and Grand Gulf powerplants, the licensee and NRC 
staff relied upon a combination of commercial land lines, FTS service, 
cell, and satellite phones, and use of the GETS service for 
communications. Commercial and FTS systems experienced frequent 
temporary disruption because of the high volume of calls being placed 
on these lines. The NRC ETS lines installed in the River Bend and Grand 
Gulf control rooms experienced temporary disruptions due to problems 
that the service provider experienced with equipment in the New Orleans 
area. The infrastructure for these direct access lines was routed 
through New Orleans. However, NRC and the licensees were able to 
maintain contact through the plant control rooms and emergency 
operations facilities via commercial lines. Satellite and cell phones 
were used intermittently during periods when communication traffic 
volume was high and calls could not be placed successfully via 
commercial and FTS lines.
    For the Waterford-3 plant, communication systems experienced more 
substantial damage, and normal communication systems were unavailable 
for a longer period of time. Prior to Hurricane Katrina making 
landfall, the licensee had two satellite phones available for 
communicating with the NRC, State, and local response organizations. 
Immediately following passage of Hurricane Katrina, NRC relied upon use 
of cell and satellite phones for communication with the plant and 
resident inspector staff. In addition to these phones, the licensee had 
an ``internal'' phone system available that connected the licensee's 
corporate center in Jackson, Mississippi, with the River Bend, Grand 
Gulf, and Waterford-3 plants. NRC was able to communicate with licensee 
management through this commercial communication network throughout the 
recovery period. Within days of the passage of Hurricane Katrina, the 
licensee contracted with a commercial vendor to obtain a mobile 
satellite phone unit which contained six satellite phone lines and 
additional portable satellite phones for use in communicating with NRC, 
State, and local response organizations. This improved communications 
between NRC and the Waterford-3 site, but was only considered 
supplemental since reception through the satellite service may be 
disrupted during inclement weather. The licensee had additional land 
communication lines installed within days that were routed outside the 
New Orleans area, specifically through Little Rock, Arkansas, to 
provide more stable communication systems. These land lines were used 
for routine communications between NRC and staff at Waterford-3 until 
the pre-Katrina land lines routed through New Orleans were restored 
weeks later.
    Even with the installation of the additional land lines, commercial 
phone service was occasionally unavailable due to the high volume of 
communication traffic over the public telephone network system. NRC 
relied upon use of cell phones and the GETS service to communicate with 
its response staff and resident inspectors as a supplemental backup 
during these periods. Because the volume of communication traffic 
remained high and the commercial telecommunication infrastructure 
capacity was limited until land lines and switch networks could be 
restored or circuits rerouted, the licensee deployed cell phones to 
State and local response organizations and NRC Region IV. During 
periods when other commercial systems were overwhelmed with call 
traffic, these cell phones could be operated as a long-range, digital 
walkie-talkie allowing users to communicate even when the network is 
down. The NRC Region IV office had procured cell phones to supplement 
its communications kits in advance of Hurricane Katrina, but these were 
not received until just before Hurricane Rita developed. NRC Region IV 
deployed cell phones with response teams that were sent to Louisiana 
following Hurricane Rita, and these cell phones provided reliable 
communications when other cell and satellite phones experienced 
reception disruptions.
    NRC did use the internet to communicate with its resident 
inspectors and licensees during the response to Hurricane Katrina using 
land lines. Internet and e-mail connections were reliable with the 
licensee's corporate offices in Jackson, Mississippi, where 
communication systems were not significantly disrupted. NRC resident 
offices at the Grand Gulf, River Bend, and Waterford-3 plants were 
unable to connect to the NRC Wide Area Network or the internet for some 
period because they are serviced by communication lines that were 
routed through New Orleans. The switch network for these land lines was 
unavailable for a period of time until circuits could be rerouted.

    Question 3. Do you find an Operations Center capability at 
headquarters to be a critical component of the NRC's ability to track 
and respond to hurricanes?
    Response. Yes, the NRC Headquarters Operations Center is a critical 
component of NRC's ability to track and respond to hurricanes. The NRC 
maintains a designated incident response organization at its 
Headquarters office in Rockville, Maryland as well as its four Regional 
offices (Region I: King of Prussia, Pennsylvania; Region II: Atlanta, 
Georgia; Region III: Lisle, Illinois; Region IV: Arlington, Texas).
    NRC routinely prepares for, monitors, and responds to every 
hurricane using established response procedures. Pursuant to its 
assigned role under the National Response Plan and a Memorandum of 
Understanding between the Department of Homeland Security (DHS)/Federal 
Emergency Management Agency (FEMA) and NRC, NRC routinely coordinates 
with DHS/FEMA in advance of any hurricane making landfall and 
potentially affecting NRC-licensed facilities, such as nuclear 
powerplants or materials facilities.
    The NRC Headquarters Operations Center is continually staffed (24 
hours a day, 365 days a year) for receiving emergency and nonemergency 
notifications from NRC licensees, government agencies, State Agencies, 
and/or private entities. NRC Headquarters maintains the leadership in 
integrating the agency's response to hurricanes through internal 
notifications and notifications to other Federal departments/agencies 
and, if appropriate, licensees, Members of Congress, and State 
agencies. The Chairman has ultimate authority for all NRC functions 
pertaining to an emergency involving an NRC licensee. The Chairman may 
delegate, in whole or in part, his authority to another Commissioner or 
other NRC official. NRC Regions I, II, III, and IV maintain an incident 
response program under the leadership of the respective Regional 
Administrator with oversight by the NRC Headquarter's Executive Team.
                               __________
 Statement of Sandy K. Baruah, Acting Assistant Secretary of Commerce 
                        for Economic Development

    Chairman Inhofe, Ranking Member Jeffords, members of the committee, 
thank you for the opportunity to testify on the Economic Development 
Administration's (EDA) response to Hurricane Katrina and the Agency's 
current actions in helping the Gulf Coast rebuild.
    This is a timely matter for me to comment on as I have just 
returned from the affected region. Yesterday, I saw firsthand the 
devastation wrought on the great City of New Orleans, and met with 
Mayor Kip Holden of Baton Rouge. I can tell you that as crushing as was 
the blow that Katrina dealt to that region, the people of Louisiana, 
Mississippi and Alabama are more determined to recover and rebuild 
their lives, their homes and their businesses. Our Nation faces an 
unprecedented challenge--and an opportunity--to recover from this 
tragedy.
    As a first priority, I am thankful to be able to report that no EDA 
personnel or their families suffered fatality or injury as result of 
Hurricanes Katrina, Rita or Wilma. Our Economic Development 
Representative in Louisiana safely evacuated with her family prior to 
Katrina, however, her family home in New Orleans was irreparably 
damaged.
    Moving forward, the Administration, the Department of Commerce, and 
EDA are committed to the economic revitalization of the Gulf Coast. As 
you are aware, the President has called for considerable funding for 
efforts that are already underway to promote the region's recovery and 
economic revitalization. The focus of these efforts is to implement a 
regional, collaborative, multi-pronged approach aimed at providing 
appropriate incentives and targeted federal assistance to create the 
conditions in which the private sector will be willing to invest in the 
region's economic recovery. Additional funding is not being sought for 
EDA; rather, the agency will be participating in recovery efforts using 
existing resources. EDA views this at the most efficient and effective 
way to get people back to work and businesses, both large and small, 
back on their feet and an appropriate approach given the other 
resources being devoted to Gulf Coast recovery.

                  BACKGROUND: EDA DISASTER ASSISTANCE

    EDA promotes innovation and competitiveness, preparing American 
regions for growth and success in the worldwide economy.
    EDA has a long and successful history of supporting long-term 
recovery following natural disasters. EDA's participation in major 
disaster recovery efforts has traditionally supplemented the lead roles 
assigned to the Federal Emergency Management Agency (FEMA).
    Under existing statutory authority, EDA administers disaster 
program funds through targeted grants to disaster-impacted communities 
designed to achieve long-term economic recovery. EDA disaster recovery 
efforts assist communities in shifting their focus when appropriate 
from the short-term emergency response to the long-term economic 
impacts of the disaster, and enabling the development of an economic 
recovery program that reflects local priorities.
    While early EDA investments focus on the important first post-
disaster steps of planning, assessment and technical assistance, the 
most critical need after rescue and recovery efforts are completed is 
to get people back to work and ensure continued and strategic economic 
recovery. This is accomplished through implementation of investments in 
support of job creation, retention and private investment. EDA's 
regional office staff deploys and works closely with impacted State and 
local governments, special districts, nonprofit organizations, and 
businesses in providing technical assistance in support of EDA program 
investments.
    Immediately following a disaster EDA regional staff use local and 
State contacts to identify critical implementation investments, namely 
infrastructure improvements, impacted by or relevant to the disaster 
event. Because of the competitive nature of our grant awarding process, 
EDA has the flexibility to target our existing resources to those areas 
affected by disasters quickly.
    Additionally, under the National Response Plan, EDA represents the 
Department of Commerce as a Primary Agency in Emergency Support 
Function (ESF) No. 14, for Long-Term Community Recovery and Mitigation. 
ESF No. 14 provides a framework for federal government support to 
State, regional, local and tribal governments, nongovernmental 
organizations and the private sector designed to enable community 
recovery from the long-term consequences of an Incident of National 
Significance.
    Finally, FEMA may ask EDA to perform economic impact evaluations or 
carry out other specific tasks through special ``mission assignments.'' 
Past FEMA mission assignments have tasked EDA to perform economic 
impact assessments in North Carolina, Virginia and New Jersey resulting 
from Hurricane Floyd.

                   EDA RESPONSE TO HURRICANE KATRINA

    EDA anticipated, prepared and responded quickly to Hurricane 
Katrina.
    Under the direction of Commerce Secretary Carlos Gutierrez, prior 
to Hurricane Katrina's landfall, EDA began preparing for its potential 
role in economic recovery efforts in the affected region, including 
identifying $4 million in funding to assist economic recovery 
priorities. Once the scope of Hurricane Katrina's damage became 
evident, EDA successfully reprogrammed $8.3 million in de-obligated 
funds (including the $4 million initially identified) to dedicate to 
the redevelopment effort. Secretary Gutierrez later announced this 
grant during a tour of the affected region. Consistent with EDA statute 
and regulation, the agency worked with State and local leadership to 
develop economic planning and technical assistance recovery projects in 
Alabama, Louisiana and Mississippi, and has obligated $8.8 million 
(including the $8.3 million reprogramming) for investments of $4 
million each for Louisiana and Mississippi and two separate investments 
of $450,000 for economic planning and $390,000 for Economic Adjustment 
in Alabama.
    In making these investments, EDA headquarters and regional staff 
devised and approved necessary measures to facilitate streamlined 
investment strategies and rapid deployment of funds to impacted states. 
This included making expedited processing of applications an immediate 
mission priority. EDA regional staff also worked directly with the 
three governors' offices to identify appropriate State agencies as 
recipients and, consistent with EDA's mission, to develop the 
appropriate scopes of work for the States.
    Also, in the immediate aftermath of Hurricane Katrina, I 
established an internal taskforce of headquarters and regional staff to 
monitor and coordinate the bureau's actions and response. I assigned 
EDA's Austin Regional Office Director, an experienced, SES-level career 
executive to lead this internal task force. EDA personnel continue to 
engage local and State leadership throughout the Gulf Coast, working to 
leverage existing resources in the broader economic development 
community to assist with near-term recovery priorities.
    For example, working in cooperation with the Arkansas State 
University's Delta Center for Economic Development and other EDA 
grantees, EDA was able to secure the deployment of four EDA-funded 
``Netmobiles,'' minivans equipped with high-technology computer 
equipment and satellite Internet access, to Katrina-affected areas. 
Business counselors are currently using the Netmobiles to assist 
affected business owners in finding and acquiring the resources 
necessary to resume operations.

             FUTURE EDA ASSISTANCE FOR GULF COAST RECOVERY

    EDA will continue to work through its established economic 
development networks, including regional development organizations, 
universities, nonprofit and community- and faith-based organizations to 
leverage all available resources for the recovery effort.
    In our supporting role, EDA can bring a variety of existing program 
resources to this task. EDA's principal program for addressing sudden 
and severe economic dislocation, including natural disasters, is its 
Economic Adjustment Program. This program utilizes a flexible and 
comprehensive set of tools to help impacted areas achieve long-term 
economic recovery, including:
    <bullet> Augmenting the institutional capacity of State and local 
governments with EDA recovery planning or technical assistance 
investments focusing on job retention and job creation to offset the 
negative impacts of the disaster on the local economy;
    <bullet> Supporting locally-directed mitigation efforts flowing 
from a strategic recovery planning process (and ultimately as part of a 
mitigation planning component of a long-term comprehensive economic 
development planning process) to safeguard jobs from the impact of 
future disasters; and
    <bullet> Addressing State and local needs for new construction and 
post-disaster improvements to publicly-owned commercial or industrial 
facilities or infrastructure with EDA construction investments.
    While our program tools are flexible, EDA must initially rely on 
its statute to identify those eligible to receive EDA investment 
dollars. Eligible recipients include State and local governments, 
public and private nonprofit organizations, and regional economic 
development districts. Businesses are not eligible for direct 
assistance under EDA's major programs. EDA does not have the 
capability, personnel or authority to administer direct loans to 
businesses. Additionally, the bureau would be challenged to adequately 
oversee new revolving loan funds (RLF), which have been an ongoing 
concern of the Department of Commerce's Office of Inspector General and 
once established, must be administered in perpetuity by EDA.
    EDA-supported recovery efforts aim to produce quantifiable results 
for the areas impacted by the disaster. EDA designs its investments to 
ensure significant leveraging of private and nonprofit resources to 
guarantee accountability for the taxpayer dollars invested. 
Additionally, the bureau will consult and work closely with the Office 
of the Inspector General with regards to the award and administration 
of all Katrina related disaster recovery funds. EDA views the Office of 
Inspector General as a valuable partner in helping to ensure that 
federal resources are as effective as possible for the intended 
beneficiaries.
    EDA investments in the Katrina affected region are administered by 
EDA's Atlanta and Austin regional offices. Just as the bureau has done 
in the past, EDA is able to respond to disasters of this magnitude by 
building upon our existing internal taskforce structure, with 
assistance from additional EDA personnel from headquarters and other 
regional offices that have disaster recovery experience.

                         REDEVELOPMENT STRATEGY

    While it is important that federal, State, and local governments 
move as quickly as possible to address the economic impacts in the Gulf 
Coast region, economic revitalization efforts must also be based on a 
sound understanding of the economic landscape before and after the 
Hurricanes to ensure that federal efforts are market-based, enhance 
regional competitiveness, support long-term development of the regional 
economy, and achieve the intended results. To this end, it is vitally 
important to work not only with State and local officials, but also 
with the region's business leaders.
    The Administration is focused on ensuring that economic recovery 
funding is effective and truly focused on rebuilding the Gulf Coast's 
economic infrastructure in order to get people back to work and 
businesses up and running again. Working together with the private 
sector, we are determined to succeed in aiding those who need the 
assistance of an effective, coordinated federal, State and local 
response to rebuild the Gulf Coast's economic infrastructure. EDA is 
proud to play a supporting role in the coordinated federal response to 
this unprecedented natural disaster.
    Thank you for allowing me to testify before you today. I am pleased 
to answer any questions you may have.
                                 ______
                                 
      Response by Sandy K. Baruah to an Additional Question from 
                            Senator Jeffords

    Question. Mr. Baruah, EDA excels in leveraging private sector 
resources to facilitate economic development. How do you propose to 
facilitate economic development in areas where the private sector has 
been almost wiped out and has limited resources?
    Response. The key to the redevelopment and revitalization of the 
devastated areas of the Gulf Coast will be to create an environment in 
which the private sector is prepared to invest its capital in the 
region, which in turn retains and creates jobs. In a situation where 
vast geographic areas are devastated by a natural or man-made disaster, 
it is imperative that the redevelopment planning of such an area be led 
by the private sector. Private sector leadership is critical because 
the redevelopment strategy may include completely new industry sectors 
and development approaches than those that were previously part of the 
regional economy. Ultimately, solutions in scenarios like the one you 
have posed have less to do with EDA's current capabilities than they do 
with EDA's capacity to facilitate a private sector driven process.
    Government, of course, can play an important role. EDA can assist 
with the development of locally determined long-term regional strategic 
plans in support of the economic recovery of the region. Additionally, 
EDA can invest in upgrading the region's critical core business 
infrastructure which in many cases is necessary to support business 
development and expansion. Nonetheless, any success in these efforts is 
based on a robust and close public-private partnership.
    EDA has found this approach to be effective in other instances of 
sudden and severe economic dislocation where there previously had been 
little or no private sector involvement, such as the redevelopment of 
military installations under Base Realignment and Closure (BRAC). EDA 
has had success in transforming BRAC sites into successful private 
sector-led business and technology parks with substantial levels of 
private sector capital investment.
                               __________
 Statement of H. Dale Hall, Director, U.S. Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the committee, my name is H. Dale Hall, 
Director of the U.S. Fish and Wildlife Service. Thank you for the 
opportunity to discuss the devastating impact Hurricane Katrina had on 
the Southeast region and the tremendous difference Service employees 
continue to make in those communities that lost so much.
    We have gained a great deal of experience in responding to these 
types of situations over the years. In 2004, the Service's Southeast 
Region was impacted by four major hurricanes--Ivan, Charley, Jeanne and 
Frances. This year, Hurricane Katrina, which devastated dozens of 
communities across three states and wreaked havoc in the lives of 
thousands of citizens, was followed by Hurricanes Rita, Ophelia and 
Wilma. This testimony will focus on the Service's response to Hurricane 
Katrina and the impact Katrina had on Service resources. Throughout my 
statement I will be referencing some accompanying slides.

                            INITIAL RESPONSE

    In the days immediately preceding Hurricane Katrina's landfall, 
Service offices and refuges in Florida, Mississippi, Louisiana, and 
Alabama implemented their Hurricane Emergency Action Plans. These plans 
outline steps to secure Service facilities and ensure the safety of 
employees.
    On August 30, the day following Hurricane Katrina's landfall, the 
Service Special Operations Response Team (SORT) arrived in the incident 
area to begin rescue efforts and assess initial damages. The SORT Team 
is made up of Service Refuge Law Enforcement Officers. Immediately 
following the SORT Team, the Incident Command Team (ICT) began arriving 
on scene. This team is made up of Service personnel from various 
programs trained in emergency response and recovery efforts. Service 
personnel quickly focused on assisting the people and communities in 
Alabama, Louisiana, and Mississippi. They immediately engaged in search 
and rescue activities, saving lives from the outset. (See slides 2-6.)
    Within 4 days of Hurricane Katrina's landfall, the Service had 
established a full service Incident Command Post at Big Branch National 
Wildlife Refuge in Lacombe, Louisiana, 20 miles north of New Orleans. 
Working cooperatively with other agencies, including the Louisiana 
Department of Wildlife and Fisheries, we participated in rescuing more 
than 4,500 people, including two occupants from a helicopter crash on a 
rooftop. The heroic efforts of Service employees make me proud to be a 
part of the Fish and Wildlife Service.
    Charles Flynn, the Fire Chief of St. Tammany Parish Fire District 
3, said:

          ``The support that the U.S. Fish and Wildlife Service 
        provided to Lacombe has been outstanding. I want to thank all 
        of you for the great help from feeding us to clearing our 
        roads. It has been a blessing to have you here.''

    As the need for emergency rescue operations decreased, the Service 
began assisting agencies with recovery operations. On September 5, we 
began working with the U.S. Coast Guard on spill response operations in 
Alabama and Mississippi. We began assisting with spill response 
operations in Louisiana on September 12. A week later, Service 
personnel began efforts to minimize water quality impacts from the de-
watering of New Orleans and, on September 28, the Service deployed 24 
Refuge Law Enforcement Officers to Lafayette, Louisiana, to assist the 
Red Cross.
    In addition, the Service's Southeast Region sent out clarifying 
guidance to remind Federal and State agencies that the Endangered 
Species Act allows a waiver of the regulatory requirements required by 
the law in the case of Presidentially declared disasters. This guidance 
ensured that the Endangered Species Act would not stand in the way of 
recovery and clean-up efforts.

                      COMMUNITY SERVICE ACTIVITIES

    More than 150 Service employees live and work in the areas affected 
by the hurricane. Thankfully, all of our employees are safe and 
accounted for, but 21 of our employees lost their homes and personal 
belongings. In spite of this, some of these employees were quick to 
volunteer to help others less fortunate. More than 600 Service 
employees worked shifts at the full-service base of operations 
established at Big Branch National Wildlife Refuge. This facility 
provided food, water, shelter, fuel, showers and laundry facilities to 
our displaced employees and their families, as well as local police and 
fire departments, 100 American Red Cross and International Red Cross 
volunteers, National Guard servicemen, Immigration and Customs 
personnel, 40 Federal Emergency Management Agency (FEMA) personnel, and 
other law enforcement officers engaged in the search and rescue efforts 
throughout the affected area. The operations base at Big Branch 
provided more than 25,000 meals (including 200 each day that were sent 
to support staff and patients at the Louisiana Heart Hospital), more 
than 3,600 showers, and more than 1,900 loads of laundry. Dr. James E. 
Smith, an Interventional Cardiologist with the Louisiana Heart 
Hospital, said:

          ``Our location was difficult to re-supply after Katrina 
        passed. It became important to have a little down time, get out 
        of the facility and go get a meal in 15 or 20 minutes and be 
        back on the job. Also, many of the patients and their families 
        were able to get the sack lunches from the Fish and Wildlife 
        facility. It was just a wonderful service and we really, really 
        needed that support.''

    Service crews cleared more than 300 driveways, over 14 miles of 
roads, ten miles of fire breaks, and four major parking lots, including 
the Louisiana Heart Hospital, Lake Castle School and the local Post 
Office. Our employees conducted reconnaissance on 65 miles of roadways 
on more than 100 streets. Service personnel assisted numerous citizens, 
including clearing a driveway so that an ambulance could transport a 
patient home from the hospital. (See slides 7-12.)
    Agents from the Service's Office of Law Enforcement, as well as 
Refuge Law Enforcement Officers from various areas of the country, 
assisted in numerous search and recovery missions. During a live 
interview, CNN Commentator Donna Brazile made a plea for help in 
finding her sister, Sheila, who lived in an assisted living facility in 
New Orleans and had not been heard from since the storm. We sent a boat 
to the last place where Sheila had been seen--a flooded area of New 
Orleans that had not yet been visited by rescuers. They found Sheila 
and five other people in the building with no food or water. Donna 
Brazile said without the efforts of the Service, her sister probably 
would have died. This is one of many stories of Service employees going 
beyond the call of duty to rescue people in need during this crucial 
time after the hurricane hit.

               IMPACTS TO WILDLIFE AND SERVICE FACILITIES

    The area impacted by Hurricane Katrina has one of the largest 
concentrations of national wildlife refuges in the country due to the 
important coastal wetlands in the region. Nineteen national wildlife 
refuges were affected by Hurricane Katrina. Sixteen of these are 
coastal refuges that were temporarily closed in the aftermath of 
Katrina. Our refuges and other facilities have addressed the most 
urgent clean-up and repairs and are refining damage assessments to 
incorporate all available information from the impacted area, including 
reports from initial responders, emergency personnel, station managers 
and field personnel. We also rely on initial aerial reconnaissance and 
meteorological and hydrological data. These reports provide specific 
information about damages and the magnitude of impacts to both fish and 
wildlife resources and agency operations. Cost estimates are developed 
based upon actual costs to construct or repair damaged assets or the 
cost of completing similar work in the past. Over the past two years, 
our initial assessments of clean-up and facility repairs have been 95 
percent accurate when compared with actual costs.
    Southeastern Louisiana, and especially Breton National Wildlife 
Refuge, is globally important for colonial nesting birds. Up to 15 
percent of the world's Brown Pelicans and up to 30 percent of the 
world's Sandwich Terns nest in this area. Breton, which is part of the 
Chandeleur Islands and celebrated its centennial last year, lost 50 to 
70 percent of its land mass due the effects of Hurricane Katrina. In 
addition, Mississippi Sandhill Crane, Big Branch Marsh, Delta, Bogue 
Chitto, and Bayou Sauvage National Wildlife Refuges suffered 
significant impacts. We estimate the National Wildlife Refuge System in 
the Southeast Region experienced direct land losses, accelerated 
degradation or other damage on more than 150,000 acres of coastal and 
bottomland wetlands.
    Though it is still early and more analysis is needed, the Service 
and its partners have completed some preliminary assessments and expect 
additional coastal wetland impacts. Coastal marshes in the Mississippi 
River delta and the Parishes south of New Orleans, and the marshes of 
Southwest Louisiana, were hard hit by winds, surge, and saltwater from 
Hurricane Katrina. Two important wetland plants were severely impacted; 
Spartina was extensively uprooted, and Phragmites was laid over and 
burned by saline storm surge. Further spatial analyses will be needed 
to quantify the acreage of those wetlands that were converted to open 
water. Coastal forested wetlands ranging from eastern Lake 
Pontchartrain Basin to the Pearl River were defoliated and sustained 
heavy damage to standing trees.
    Although we are working with other agencies to ensure that the 
requirements of the Endangered Species Act do not impede recovery, we 
are focused on the assessment of hurricane impacts to wildlife species, 
and particularly endangered species. We have received reports of 
substantial mussel and fish die-offs. Aquatic ecosystems and fish 
communities may have been severely impacted by contaminant releases, 
sedimentation, loss of spawning habitat, and disruption of migration. 
About 50 sea turtle nests along the Alabama coast were lost, including 
all 10 nests at Bon Secour National Wildlife Refuge. In many areas, 
extensive timber damage has removed potential nesting trees for bald 
eagles and other birds. Noxubee National Wildlife Refuge in Mississippi 
and Big Branch Marsh National Wildlife Refuge in Louisiana lost a 
significant number of trees, including cavity trees used by roosting 
and nesting red-cockaded woodpeckers. Tree loss also will impact 
foraging habitat for these endangered birds. Primary dunes, which are 
habitat for the Alabama beach mouse, have been destroyed. In addition, 
90 percent of the secondary dunes were destroyed and scrub habitat was 
damaged by salt spray from the ocean. Both habitat types serve as food 
sources for the beach mouse and it is likely their population will be 
substantially reduced from the effects of both Hurricane Katrina and 
last year's Hurricane Ivan. (See slides 15-16.)
    The Service is currently working to assess Hurricane Katrina's full 
impact on the area's natural resources, some of which may take some 
time to become apparent. Such impacts include the spread of exotic 
species facilitated by the storm, ecosystem changes, and the effects of 
contaminant releases. We will be working with other agencies, states, 
and our partners to identify the appropriate division of 
responsibilities for restoration and recovery and utilizing our 
combined capabilities to address these needs.

                             FUTURE ACTIONS

    In addition to providing essential habitat for fish, wildlife, and 
waterfowl, coastal wetlands also serve as important buffers, or shock 
absorbers, during large storm events. Without them, inland areas are 
more prone to effects of storm surge, flooding, high winds, and 
erosion. Prior to Hurricane Katrina, roughly 24 square miles of 
valuable coastal wetlands were being lost annually. To address the 
problem, in 1990 Congress passed the Coastal Wetland Planning, 
Protection and Restoration Act to provide much-needed funding to stem 
wetland loss throughout the country but focused specifically on coastal 
Louisiana. The Service represents the Secretary of the Interior on the 
CWPRRA Task Force, which has approved 154 small scale restoration 
projects to protect and restore more than 117,000 net acres of coastal 
wetlands over the past 14 years. In addition, the Service works closely 
with the State of Louisiana and other agencies in developing 
comprehensive restoration plans.
    Through a number of programs, the Service will be assisting other 
Federal agencies, the State, and local entities in wetlands 
conservation and restoration. Programs such as the Coastal Wetlands 
Conservation grants will allow the Service to have a significant role 
in reversing Louisiana's coastal wetland losses and helping to 
implement a systematic approach consisting of larger projects working 
in concert with smaller projects to restore essential geomorphic 
structures and processes. To abbreviate the number and duration of 
independent feasibility studies, State and Federal participants formed 
the Louisiana Coastal Area (LCA) Comprehensive Coastwide Ecosystem 
Restoration Study Team. The LCA Study was completed in November 2004 
and identifies the most critical ecological needs of the Louisiana 
coastal area in locations where delaying action would result in a loss 
of opportunity to achieve restoration.
    The Service is working through its ecological services programs to 
assist Federal agencies in developing plans for building in wetland 
areas in a way that considers the need to restore ecological functions 
that will help prevent future flooding and help minimize the impact of 
future storms. We are also taking this opportunity to work with 
stakeholders to minimize the potential for oil spill and oil leakages 
that can degrade coastal wetlands and rob them of the ability to act as 
natural buffers.
    The Service has already begun working with all affected partners to 
assess conservation restoration needs throughout the region impacted by 
Hurricane Katrina. The goal will be restoring coastal wetland habitats 
to continue to provide wildlife habitat, coastal protection, and 
economic benefits. We look forward to working with the committee, our 
Federal and State partners, and local communities to meet this 
challenge.
    Finally, I would like to thank the Service employees who, in the 
aftermath of Hurricane Katrina, went above and beyond the call of duty 
to quickly respond to citizens in their time of need. Their quick, 
decisive actions served to highlight the ability of the Service to 
provide vital equipment, supplies, and personnel familiar with their 
communities to save lives and property in the most extraordinary of 
circumstances.
    Mr. Chairman, thank you again for the opportunity to be here. I 
would be happy to answer any questions you or the other members of the 
committee might have.

[GRAPHIC] [TIFF OMITTED] T7441.001

[GRAPHIC] [TIFF OMITTED] T7441.002

[GRAPHIC] [TIFF OMITTED] T7441.003

[GRAPHIC] [TIFF OMITTED] T7441.004

[GRAPHIC] [TIFF OMITTED] T7441.005

[GRAPHIC] [TIFF OMITTED] T7441.006

[GRAPHIC] [TIFF OMITTED] T7441.007

[GRAPHIC] [TIFF OMITTED] T7441.008

[GRAPHIC] [TIFF OMITTED] T7441.009

[GRAPHIC] [TIFF OMITTED] T7441.010

[GRAPHIC] [TIFF OMITTED] T7441.011

[GRAPHIC] [TIFF OMITTED] T7441.012

[GRAPHIC] [TIFF OMITTED] T7441.013

[GRAPHIC] [TIFF OMITTED] T7441.014

    Response by H. Dale Hall to an Additional Question from Senator 
                                Jeffords

    Question. How will you assess the damage to the habitat and the 
wildlife and when will this be completed?
    Response. Initially following the hurricanes, the U.S. Fish and 
Wildlife Service (Service) began surveys across the Gulf Coast. As 
mentioned in the Service's statement at the hearing, the area impacted 
by Hurricane Katrina has one of the largest concentrations of national 
wildlife refuges in the country due to the important coastal wetlands 
in the region. Nineteen national wildlife refuges were affected by the 
storm, and we are finding significant wildlife and wildlife habitat 
impacts. Initial reconnaissance has shown roughly 100 square miles of 
coastal marshes in Southeast Louisiana are now open water.
    Habitats for red-cockaded woodpeckers, beach mice and sea turtles 
were severely impacted along the Gulf Coast. There were also impacts to 
wildlife from oil and chemical spills caused by the hurricanes, 
particularly onshore south of New Orleans where refineries and tank 
farms were damaged from tidal surge flooding.
    We do not, and we may never, know the full extent of the impacts of 
the hurricane to wildlife and their associated habitats. However, the 
Service will continue to conduct specific on-the-ground assessments to 
determine impacts to wildlife and wildlife habitat across the Gulf 
Coast, including to coastal and forested wetlands, upland habitats, and 
fish and wildlife populations, as well as the hurricane's affects on 
the distribution and spread of invasive/exotic species and the 
contamination of water, fish, wildlife, sediments and soils. Our 
objective is to focus assessments on those wildlife resources under the 
Service's jurisdiction and their habitats within the context of the 
overall ecosystem. We expect to complete the assessments within the 
next 6 to 12 months.
    We are benefiting from aerial and ground surveys conducted by staff 
from the Service, U.S. Geological Survey (USGS), the Service's Gulf 
Coast Joint Venture, and the State of Louisiana. The Service is 
partnering with all relevant Federal and State agencies to 
collaboratively examine hurricane related impacts to eliminate 
duplication USGS is working with partners to produce detailed 
assessments, maps and models of the post-hurricane coastal areas based 
on geospatial data analysis (including new digital elevation maps). The 
Service envisions using those products to refine and prioritize 
specific habitat restoration recommendations and objectives.
                               __________
  Statement of David Winstead, Commissioner, Public Building Service, 
                     General Service Administration

    Good morning, Mr. Chairman and members of the committee. My name is 
David L. Winstead and I am the Commissioner of the Public Buildings 
Service (PBS), U.S. General Services Administration (GSA). Thank you 
for inviting me here today to discuss our response to Hurricane Katrina 
and the on-going recovery.
    GSA manages a diverse portfolio of real estate for the Federal 
government over 340 million square feet of space in office buildings, 
courthouses, border stations, warehouses, etc. We serve nearly 60 
agencies (over 400 bureaus), the U.S. Courts, and Congress. We house 
over one million Federal employees. We see ourselves as mission 
enablers, providing the functional space needed by Federal agencies to 
accomplish their missions.
    This year, six hurricanes have struck the United States; the most 
significant being Hurricanes Katrina, Rita and Wilma. While all three 
impacted our customers and our real property assets in the Gulf Coast 
region, the devastation wrought by Hurricane Katrina was one of the 
worst natural disasters the United States has ever experienced. The 
impact zone spanned two GSA regions: 200 miles wide, as far west as 
Louisiana, as far east as Florida, and as far north as Kentucky.
    In the face of the unprecedented demand created by Hurricane 
Katrina and then Hurricanes Rita and Wilma that followed, GSA's first 
priority has been to support the Federal Emergency Management Agency 
(FEMA). Our role is defined in the National Emergency Response Plan: 
specifically, Emergency Support Functions No. 2 (Communications) and 
No. 7 (Resource Support). We have provided and continue to provide as 
needed: communications support, emergency relief supplies, facility 
space, office equipment, and contracting services. The level of support 
required of GSA has been greater than ever before experienced.
    Hurricanes pose two additional challenges to GSA: (1) to provide 
space and services to our customers; and (2) to safeguard our real 
property assets both through preventive measures and repair. To meet 
these two challenges GSA draws from the extensive experience of its 
professionals in property management, leasing, and the architectural/
engineering disciplines.
    GSA's hurricane response strategy is generally comprised of the 
following: (1) Advance preparation; (2) customer communications/
hotlines; (3) damage assessment; (4) returning customers to operational 
status; and (5) returning owned and leased space to operational status. 
This last step may be as simple as waiting for area-wide power to be 
restored or as complex as repairing or completely replacing facilities. 
GSA's strategy was developed from the lessons learned by our regional 
associates who are well-practiced in hurricane response.
    Generally, advance preparations begin once the National Weather 
Service projects a hurricane with the potential for landfall. Buildings 
located within the hurricane's forecast path are identified, reviewed, 
preventive action is taken, and daily conference calls on readiness 
between service center directors in those areas and regional staff 
associates begin. Regional personnel follow the direction of local 
officials regarding evacuations.
    When weather predictions indicated that Hurricane Katrina would 
make landfall, regional associates began tracking the projected path 
and alerted field personnel. Information was also conveyed between our 
Southeast Sunbelt and Greater Southwest regional associates. Advanced 
preparations at facilities in the hurricane's forecast path began. Such 
preparations included testing and fueling generators, inspecting and 
securing building components, shutting down building systems where 
possible, placing sand bags where appropriate and boarding up the lower 
levels of multi-story buildings. Prior to Hurricane Katrina's landfall 
in the Gulf Coast, a major storm surge was predicted in Gulfport, MS. 
As a preventative countermeasure, the first three floors of the Dan M. 
Russell Federal Building and Courthouse in Gulfport, MS were boarded-up 
at an estimated expense of $ 20,000. This investment saved taxpayers an 
estimated $1 million dollars in damage to windows from heavy rain, high 
wind, storm surge flooding, and floating and wind-borne debris.
    Concurrent with building preparations, PBS established information 
hotlines and websites to communicate with customers. As information on 
the Hurricane and the status of facilities became available, the 
hotlines and websites were updated. Customers could call the Hotline 
number and/or access the website to get information about their 
building.
    Simultaneously, the GSA National Office established a rapid 
response team to (1) accumulate and coordinate the deployment of 
resources such as equipment and people from our other regional offices, 
(2) establish and distribute budgetary and procurement policy, (3) 
accumulate and distribute situational intelligence, and (4) establish 
and maintain senior level communications with FEMA and the affected 
agencies. The command structure and communication between National 
Office, Regional Offices, Service Center Directors, and Command posts 
has become a newly established piece of GSA hurricane response 
strategy.
    GSA's Federal Telecommunications Service and Federal Supply Service 
also responded at an unprecedented level. Direct support provided to 
FEMA operations included temporary lodging through purchase agreements, 
personal property management, shipping services, fleet vehicles, 
telecommunications services, furnishings and supplies. GSA also 
assisted local governments in re-establishing communications and 
procuring vital supplies and services for the recovery effort.
    At the same time, building damage assessment teams were mobilized 
in cities outside the projected path of the storm to assist the local 
service center teams with damage assessment. Once personnel were 
permitted back into the impacted areas, GSA began the process of damage 
assessment and bringing buildings back on-line. Initial response was 
hampered by the wide geographic area affected by Hurricane Katrina, the 
extensive damage and prolonged flood waters.
    Within the first few days following Hurricane Katrina, preliminary 
damage assessments of buildings were completed. Generally, the extent 
of the damage was not as severe as expected. Buildings in New Orleans 
were not accessible for evaluation until nearly a week after the 
hurricane hit. Not until flooding receded were GSA officials, escorted 
by Federal Protective Service Officers, able to begin damage 
assessments.
    In terms of the impact to our real property assets, GSA did not 
suffer any catastrophic losses. Damages sustained included: power 
outages, water intrusion, power distribution equipment damage, limited 
structural damage, mold build-up, broken windows, and major roof damage 
and leaks. Of the 42 government-owned locations, the most substantial 
damage occurred in New Orleans where buildings withstood the onslaught 
of wind and flood waters. Most notably, the roof of the historic New 
Orleans Custom House failed, although structurally, the remainder of 
the building is sound. It is a testament to the design and construction 
of our buildings that in the hurricane-stricken area, both our oldest 
and most historic building, the New Orleans Custom House and our newest 
federal building, the Dan M. Russell Federal Building and Courthouse in 
Gulfport, MS, sustained limited damage.
    In contrast, the leased inventory fared less well, with damages 
ranging from total loss to minor repairs. GSA worked closely with our 
lessors to ascertain damages. Where buildings were closed, rent 
payments were suspended. Fortunately, leases in the impacted area 
tended to house customers with smaller space requirements, making 
alternative worksites easier to find.
    Immediately following the hurricane, GSA began working with 
customer agencies to provide them with functional space and enable them 
to accomplish their missions. This included finding replacement space, 
procuring trailers; and transporting vital records. Alternative space 
options ranged from: underutilized properties in GSA's or other Federal 
agencies' inventory, hoteling, colocating, working at home, and 
relocating to other parts of the country.
    Within GSA-provided space there were approximately 2,600 federal 
employees in 28 Federal Agencies whose operations were significantly 
impacted by Hurricane Katrina. To date, all customer agencies in 
Regions 4 and 7 are operational. As of October 27, three government-
owned and 33 leased locations, a total of 36, remain closed as a result 
of Hurricane Katrina.
    Hurricane Rita, a Category 3 storm, hit Texas almost immediately 
after Hurricane Katrina. With personnel already deployed and with more 
time to plan, GSA's response to Hurricane Rita was efficient and 
effective. As of October 27, 2005 all federal buildings in the areas 
hit by Hurricane Rita are open, with the exception of the Jack Brooks 
Federal Building in Beaumont, TX, which is only partially open. Four 
leased locations in the area remain closed.
    The eighth storm to hit Florida in 2 years, Hurricane Wilma hit on 
Monday, October 24, 2005. Thirteen buildings are closed as of October 
27, 2005. Damage assessments for GSA's 213 owned and leased facilities 
in the wake of Hurricane Wilma are still pending. Reported damage is 
consistent with heavy rainfall and strong winds including water 
intrusion, roof damage and building components. Once power is restored, 
comprehensive damage assessments will be conducted to determine the 
full extent of the damage.
    In the days that followed Hurricane Katrina and Hurricane Rita, GSA 
was asked to estimate the damages to our government-owned buildings. At 
that time, we estimated total capital repair and replacement costs of 
$60 million and additional operating costs of $15 million. These 
initial estimates are proving to be substantially correct, as access to 
more buildings is gained and more comprehensive estimates are received. 
We are working with our authorizing and appropriating committees to 
receive approval to exceed prospectus funding limitations for emergency 
repair work on the affected buildings. We are currently estimating 
capital and operating costs for Hurricane Wilma. We believe these costs 
will be relatively low.
    In answer to Hurricane Katrina, Hurricane Rita and now Hurricane 
Wilma, GSA rapidly deployed teams of experienced federal property 
managers, leasing specialists, contracting officers, attorneys, 
engineers, and environmental, telecommunication, and supply 
specialists. The effectiveness of GSA's response is primarily due to 
the expertise and professionalism of these associates. The consequence 
of this commitment creates a real challenge for GSA, as the increased 
workload created by these hurricanes does not diminish the normal day-
to-day workload nationwide. The scope and numbers of employees GSA has 
deployed, nationwide, to help with the response effort for FEMA and GSA 
operations is unprecedented.
    Mr. Chairman, GSA has successfully responded to the unprecedented 
2005 Atlantic hurricane season and the closely spaced series of 
hurricanes occurring within two months. Our success can be attributed 
to: (1) organizing the preparation and rapid deployment of resources to 
stricken areas; (2) the availability of experienced professionals; and 
(3) organizing effective and continuous communication with customers 
and the internal response team structure. In addition, superior design 
and sound construction of our public buildings resulted in their 
ability to withstand these storms without extreme damage.
    Mr. Chairman, thank you for the opportunity to testify before your 
committee. I will be happy to answer any questions you or members of 
the committee may have.
                                 ______
                                 
        Responses by David L. Winstead to Additional Questions 
                         from Senator Jeffords

    Question 1. What constitutes the $15 million in additional 
operating costs and how is this different from the $60 million capital 
repair and replacement costs?
    Response. Basic Repair and Alterations: The damage and associated 
costs resulting from Hurricane Katrina were unanticipated in the 
current fiscal year and in GSA's fiscal year 2006 request. GSA has very 
limited authority to perform emergency repairs to its buildings and 
provide short-term emergency leasing on behalf of its Federal 
customers, Currently, all emergency funding must be derived from 
existing funding, which directly impacts GSA's ability to carry-out its 
necessary national program functions. The estimated repair and 
associated cost of the damage from Hurricane Katrina far surpasses 
GSA's ability to absorb these cost increases in its base program and 
therefore we seek an additional supplemental appropriation to cover 
these emergency costs.
    Building Operations: The purpose of this request is to fund 
emergency repairs to Federal buildings and United States Courthouses 
damaged in the wake of Hurricane Katrina. This request includes the 
unplanned costs for equipment (water pumps, generators, communication 
equipment, etc.) and additional professional (architects, engineers, 
planner estimators, etc.) and nonprofessional (cleaners, janitors, 
maintenance workers, mechanical and systems personnel, etc.) contract 
staffing to support GSA personnel in the field with damage assessment, 
recovery efforts, facilities operations and maintenance, debris 
removal, and clean-up activities.

    Question 2. Is GSA responsible or involved in any infrastructure 
repairs outside GSA's property under the Stafford Act?
    Response. GSA does not have any responsibility for infrastructure 
repair beyond our own properties, either under the Stafford Act or 
otherwise. However, if FEMA or another agency with that responsibility 
were to ask us for help, we can provide the assistance on a 
reimbursable basis to them.
    The Stafford Act conveys broad authorities to the President to 
provide disaster assistance relief. Most of the authorities conveyed in 
the Stafford Act have been delegated by the President through Executive 
Order 12656 to FEMA. The Stafford Act, itself, does not specifically 
reference GSA (except in providing support for the disposal of certain 
temporary housing units to the occupying disaster victims if they lack 
permanent housing). Our agency response activities under the Stafford 
Act are in support of FEMA and other direct responding agencies. Part 
18 of Executive Order 12656 discusses GSA's specific emergency 
preparedness and response responsibilities. These include, among 
others, developing plans and operating procedures for government-wide 
supply programs and use of excess and surplus property (both real and 
personal) to meet the requirements of Federal during national 
emergencies.

    Question 3. Is there anything you observed in your agency's 
response to Hurricane Katrina that you would like to improve? If so, 
what congressional action would be required to assist the agency?
    Response. In response to future emergencies, GSA would like to 
explore alternatives to provide more flexibility with regard to 
emergency leasing authority in the event of emergencies. In addition, 
emergency response could be enhanced if GSA could report a 
``notification'' of funds spent for emergency repairs that are above 
the prospectus level rather than seek approval from Congress before 
proceeding with emergency repairs.
                               __________
         Statement of Hon. C. Ray Nagin, Mayor, New Orleans, LA

    Mr. Chairman, members of the committee, I would like to thank you 
all for inviting me to speak to you today about the city of New 
Orleans. To all the members of Congress, and in particular to our 
Louisiana delegation, thank you for all of your continued hard work and 
dedication in helping us in this time of need. I would also like to 
take a moment to thank the American people, most of all, for the 
compassion, support and generosity they have shown our city over the 
last couple of months. The outpouring from private citizens and 
corporations all over this country has been remarkable.
    New Orleans is surrounded by the great waters of the United States. 
But while the waters surrounding New Orleans provide our lifeblood, 
they also threaten our very existence. A system of levees and pumps 
protects this city nestled in the crescent of the Mississippi River and 
extending north to the banks of Lake Pontchartrain. Although these 
systems ordinarily meet the water challenges facing the city, 
Hurricanes Katrina and Rita were extraordinary events that have changed 
life in New Orleans forever.
    As you know, on August 29, 2005, Katrina, the most powerful 
Category 4 hurricane to hit the region, devastated New Orleans and the 
Gulf region causing unimaginable damage and breaching the levees that 
protect our city. This storm forced hundreds of thousands of people to 
flee, flooded thousands of homes and decimated many lives. The damage 
to homes, schools, businesses, hospitals, roads, water plants, 
communication facilities, and electrical power infrastructure was 
unprecedented and the economic and social fabric of the area was 
damaged in its entirety.
    Our storm protection systems did not work against Katrina, a 
Category 4 hurricane that made land fall near Buras, Louisiana. The 
city's levees were overtopped and/or destroyed, which created a flood 
that would overtake much of New Orleans.
    All business was immediately halted. Hospitals were forced to 
close; electricity, communications and fresh water services were 
disabled. Hundred of thousands had to be evacuated to different cities 
throughout the United States. Many who wanted to come home could not 
because their homes were destroyed; jobs were lost with no access to a 
workable health care system. Homes that did survive were inundated with 
contaminated and oil laced water. Some of these homes and businesses 
are ruined forever. Some of our hospitals may have to be torn down.
    Now we have a great challenge before us. We need to rebuild this 
great city to bring New Orleans back and in order to do that, we need 
this committee's help in a combination of structural and nonstructural 
flood control measures.
    Our first challenge is to ensure the safety and security of our 
citizens. The Chief of the Army Corps of Engineers has assured me that 
flood defenses for New Orleans will be restored by June of 2006 to the 
level where they were when the hurricane struck and overpowered them. 
The Corps Commander also acknowledged that this would provide little 
comfort in a city devastated by the storm and whose flood protection is 
not as strong as it should be. The Corps currently has no authority to 
rebuild the city's flood protection from hurricanes stronger than a 
Category 3 storm. But more is needed. Now is the time for our country 
to make a commitment to the Category 5 levees that will enable us to 
bring New Orleans back. I ask this not just for the nearly half a 
million people who call the city home but indeed for the well being of 
our Nation. Only with a plan to improve our critical levee and flood 
control systems can we expect citizens to come back and businesses to 
reinvest on a large scale.
    New Orleans is an economic hub for the entire Nation and is of 
great strategic importance. Four of the largest ports in the Nation are 
in this area; half of the grain exported from the United States goes 
through New Orleans, the area contains a vast infrastructure for oil 
and gas exploration and production, petrochemicals, refineries and 
pipelines that serve much of the country and its fishery resources are 
among the largest in the United States. Simply put, the Nation cannot 
afford not to rebuild New Orleans and Federal money must help the city 
to rebuild the right way this time.
    But levees and floodwalls alone will not solve this problem. 
Drainage is an essential part of the flood control equation. The 
Southeast Louisiana Flood Control Project (SELA), our primary drainage 
enhancement program, must be expedited and completed as soon as 
possible so that the benefits can be realized as we rebuild the city.
    Our water and sanitation system infrastructure was also badly 
damaged by Katrina. They need to be renovated or replaced in order to 
continue providing our citizens with safe drinking water and a healthy 
environment.
    Another crucial component to our infrastructure needs lies outside 
Orleans Parish. A comprehensive plan to protect our city and the 
Nation's investment in our region includes rebuilding the marshlands of 
southeast Louisiana. Wetlands act as a natural buffer between this part 
of the United States and the Gulf of Mexico, reducing potential 
flooding and protecting southeast Louisiana from devastating storm 
surge. Two miles of rebuilt marshland will reduce surge up to 2 feet. 
With local, State and Federal coordination on this issue we can protect 
the Nations' investment in New Orleans and the Louisiana coastal area.
    Along with the rebuilding of our Levee System to help protect the 
city from another dangerous storm, we are also focused on the 
reestablishment of our businesses. We need to ensure that local workers 
and businesses have an opportunity to be a part of the rebuilding 
process. An initial investment can pay off multiple times for our 
Nation if we invest in the people who will continue to reinvest in the 
local economy.
    To bring New Orleans back, we must also revitalize our business 
climate with tax breaks to help stimulate re-investment and economic 
development.
    Therefore, I am asking for the establishment of the New Orleans/
Katrina Tax Recovery and Jobs Incentive Zone that would give people a 
50 percent credit on their taxable wages. This zone would cover the 
entire city, along with other similarly affected areas, and would 
consist of several main components:
    <bullet> The credit would be capped at $50,000 for single tax 
payers and $100,000 for joint returns.
    <bullet> Employers would also receive a 50 percent income tax 
credit based on their total payroll for all employees who live and work 
in the zone. Credits would not carry back or carry forward for sales to 
third parties.
    <bullet> There would also be an income tax free zone within these 
areas for any manufacturing companies creating jobs and adding value to 
any of the top five raw materials (coffee beans, steel, raw metals, 
rubber and plywood) imported through the Port of New Orleans with a 
focus on advanced robotic utilization. The same tax free zone would 
also be created for medical research, clinical trials, pharmaceutical 
manufacturing, and related patent development.
    <bullet> To ensure that we bring back businesses and individuals 
who were forced to relocate, we need a full Relocation Tax Credit that 
should be allowed for uncompensated expenses incurred in relocating 
individuals or businesses to their location prior to the storm. 
Relocation expenses should include those related to leases of temporary 
facilities, along with everyday expenses such as lodging incurred on 
behalf of employees. The credit should apply for both the regular and 
minimum tax and be eligible to carry back for three years and forward 
20 years.
    These incentives would last for seven years, or until the 
population in the target areas reaches pre-Katrina levels, whichever 
comes first. To ensure that this Nation's investment in the region has 
maximum lasting impact, aid must be delivered to the areas that need it 
most. I urge you to establish a minimum funding formula that is based 
upon the number of people displaced or affected and the number of 
buildings or residences either flooded or damaged.
    Our city government knows the uphill battle local businesses, 
institutions and workers face, because we too face difficult decisions 
as we continue operating. The city laid off approximately 50 percent of 
our workforce, about 3,000 people, because of a total loss of revenue 
streams. The Stafford Act must be amended so governments facing crises 
of this magnitude have more flexibility to pay workers. While the 
Community Disaster Loan Act of 2005 will allow the city to begin to 
address our financial needs, I remain concerned that restrictions 
imposed by Congress will make it difficult for us to fully respond to 
the challenges ahead. We need the restrictions lifted that limit loan 
amounts to 25 percent of our revenue, and that take away the authority 
of the President to forgive the loans if a local government cannot 
repay. The Stafford Act must be fixed.
    Transportation repairs and restoration are yet another crucial 
aspect to recovery. Our transit system suffered heavy losses of busses, 
rail and associated infrastructure that will require federal assistance 
to repair and replace. Without restoration of these transportation 
systems, our recovery efforts will be severely impacted. A light rail 
system linking Louis Armstrong International Airport, New Orleans and 
Baton Rouge would provide another needed tool for the rapid evacuation 
of thousands of people in the event of another major storm, and for 
rebuilding the regional economy.
    Our community is already moving to bring New Orleans back. The 
foundation of this effort is a 17-member commission I appointed to 
draft a master plan for rebuilding the city. The representatives on the 
Bring New Orleans Back Commission will work with hundreds of committee 
members, both residents in the city and people displaced by the storm, 
to draft a detailed recovery plan. I have charged this commission with 
a weighty task, but I am confident that members are up to the 
challenge. Each was chosen to enrich the scope of voices necessary to 
rebuild our diverse city. Cochairs Mel Lagarde, a successful investor 
and entrepreneur, and Barbara Major, a community activist and advocate 
for the poor, are representative of the types of input we need to be 
successful.
    By the end of the year, the commission will develop a blueprint for 
New Orleans' recovery. However, we are facing a critical point when 
businesses and residents are making life-altering decisions about 
whether to stay in the area. Recently, we sponsored a Back to Business 
Workshop in conjunction with the Department of Homeland Security to 
help local companies become more involved in the building process, but 
our city needs an immediate infusion of resources and tax incentives to 
encourage growth. I am encouraged by President Bush's promise of 
federal assistance for locally directed projects because I truly 
believe the best people to rebuild New Orleans and Louisiana are the 
people who call the area home. This mayoral administration's track 
record shows our understanding of the responsibility that will 
accompany significant federal aid and our commitment to spending every 
penny wisely and in a manner that is in the best interests of all 
Americans.
    In closing, I would like to remind the committee of the critical 
areas I have addressed today:
    <bullet> Building flood control measures to protect against a 
Category 5 hurricane
    <bullet> Repairing or replacing our water and sanitation system 
infrastructure
    <bullet> Rebuilding the marshlands of Southeast Louisiana
    <bullet> Establishing a minimum funding formula
    <bullet> Ensuring that local workers and businesses have an 
opportunity to participate in the rebuilding of New Orleans
    <bullet> Revitalizing the business climate with tax breaks
    <bullet> Fixing the Stafford Act
    I want to thank you again for allowing me to be here with you 
today. New Orleans must be rebuilt and must be made a safe place to 
live, work and do business. I am confident that by working together, we 
can achieve a common vision: a vibrant New Orleans with a thriving 
economy, prosperous citizens, and the chance to once again contribute 
to our great Nation. Thank you.
                                 ______
                                 
Responses by C. Ray Nagin to Additional Questions from Senator Jeffords

    Question 1. How are average citizens of the city of New Orleans, 
many of whom are spread all over the country, being offered an 
opportunity to participate in your Bring New Orleans Back Commission's 
planning group?
    Response. The Bring New Orleans Back Commission (BNOB) was 
developed to create a master plan for rebuilding shaped by the input of 
experts and everyday citizens alike. Committees and subcommittees 
solicited participation via the Internet and hundreds of local and 
national media outlets. Members include representative voices from many 
of the city's neighborhoods and community organizations. The BNOB 
Commission holds regular meetings in New Orleans that are advertised in 
local media and on the Commission's and City's website, which won first 
place for its interactive features. BNOB committees also have forums on 
specific topics, including health care in a post-Katrina world and the 
state of the city's educational system, which hundreds of citizens have 
attended.
    Since many citizens are no longer living in the New Orleans, the 
Commission and I are equally focused on outreach across the diaspora. I 
have held four Town Hall Meetings in cities with large populations of 
New Orleanians: Atlanta, Baton Rouge, Houston and Memphis. More are 
scheduled. In addition, the Commission is holding town hall-style 
meetings with the Urban Land Institute to give citizens a chance to 
express their thoughts about BNOB and ULI's plans. Residents in 
Atlanta, Dallas, Houston, Baton Rouge, Memphis and Fort Worth can 
attend a meeting in the city where they live to make their thoughts 
known.
    While we are still communicating with our constituents through all 
traditional mediums (mail, telephone) the Internet is an additional 
unlimited free resource for displaced residents. 
BringNewOrleansBack.org has all of the minutes and meeting schedules 
for the Commission and its subgroups. Some committees, like Education, 
offer a Q&A section to encourage outreach to displaced citizens, 
streaming video of meetings or special conferences, e-mail updates and 
surveys for citizens. The Cultural Committee set up an online 
registration for displaced artists to participate in the decisionmaking 
process and to get feedback. The more New Orleanians can participate in 
the process, the better BNOB's plan will be.

    Question 2. Can you comment on the equity of the modifications to 
the Community Disaster Loan program that were recently enacted by 
Congress that preclude Katrina-affected communities from receiving loan 
forgiveness under this program?
    Response. While the Community Disaster Loan Act of 2005 will allow 
the city to begin to address our financial needs, I remain concerned 
that restrictions imposed by Congress will make it difficult for us to 
fully respond to the challenges ahead. We need the restrictions lifted 
that limit loan amounts to 25 percent of our revenue, and that take 
away the authority of the President to forgive the loans if a local 
government cannot repay. Repealing the authority of the President to 
waive repayment of loans burdens our government with additional debt 
that will retard our recovery efforts. The Stafford Act must be fixed. 
The national tragedy of September 11, 2001, made it clear that a $5 
million cap for municipality suffering a crisis is completely 
inadequate. In 31 years, more than $225 billion in loans have been 
forgiven. Iraq is not expected to pay back the billions of dollars 
American taxpayers are spending to rebuild its infrastructure. However, 
when the largest natural disaster to hit the United States decimates 
the economy of one of the great cities in this country, traditional 
relief under the Stafford Act is not only inadequate but is worsened by 
unprecedented repayment conditions. This amounts to second-class 
treatment for the people of New Orleans, Louisiana, and the Gulf 
Region, who contribute economically and culturally to the worth of our 
Nation.

 Statement of Kim Dunn Chapital, MSPH, Environmental Consultant, Deep 
                 South Center for Environmental Justice

    Thank you Mr. Chairman for the opportunity to testify before this 
committee. My name is Kim Dunn Chapital, MSPH. I am here today as a 
representative of the Deep South Center for Environmental Justice 
(DSCEJ) at Dillard University in New Orleans, formerly at Xavier 
University of Louisiana.\1\ I have worked with DSCEJ for the past 6 
years as environmental trainer for unemployed and underemployed 
minorities living in low-income communities of color. I train 
minorities on how to safely and properly conduct hazardous materials 
remediation and emergency response activities, asbestos and lead 
abatement, and mold remediation so that they can build healthier 
communities free of toxic pollution.
---------------------------------------------------------------------------
    \1\ DSCEJ was founded in 1992 in collaboration with community 
environmental groups and other universities within the southern region 
to address environmental justice issues. DSCEJ provides opportunities 
for communities, scientific researchers, and decisionmakers to 
collaborate on programs and projects that promote the rights of all 
people to be free from environmental harm as it impacts health, jobs, 
housing, education, and general quality of life. A major goal of DSCEJ 
is to develop minority leadership in the areas of environmental, 
social, and economic justice along the Mississippi River Chemical 
Corridor. DSCEJ is a powerful resource for environmental justice 
education and training.
---------------------------------------------------------------------------
    In addition, for the past 21 years I have worked at the Office of 
Environmental Health and Safety at Tulane University. I initially held 
the position of hazardous waste technician and worked in that capacity 
for 1.5 years. I was then promoted to the position of an industrial 
hygienist. In 1981, I was promoted again to the position of 
occupational health manager--the position I currently hold. I sit as a 
member of the American Indoor Air Quality Council, and have expertise 
in the areas of hazardous materials removal and emergency response, and 
occupational health and safety. I'm currently accredited by the 
Louisiana Department of Environmental Quality to conduct lead and 
asbestos abatement.
    I am here today not only as one voice among the thousands of 
displaced, primarily low-income people of color, from Hurricanes 
Katrina and Rita, but also as an expert on environmental and 
occupational health issues. I am a lifelong resident of the New Orleans 
area and my family and I were recently displaced and have been unable 
to permanently return home.

                  IMPACT OF HURRICANES ON COMMUNITIES

    This disaster has left a lasting memory on our communities and 
families. In the wake of Hurricanes Katrina and Rita, thousands still 
remain displaced from their homes today. For many of them, their homes 
have been completely destroyed and will need to be rebuilt. For the 
many that have returned or visited their homes, they have come back to 
see their home completely destroyed by water. There are thick layers of 
sediment that coat the inside of many homes, there is heavy layers of 
mold coating the interior of the homes from floor to ceiling, roofs 
have completely collapsed, and some homes were picked up by the water 
and moved to the middle of streets, if not completely washed away.
    For me personally, part of my return was not only to address my 
personal cleanup and retrieval issues, but to also do consulting work I 
have been very much in demand since Hurricane Katrina. However, upon 
seeing my home for the first time and seeing the destruction of my 
community, I felt quite helpless, angry, and disgusted. Having to fully 
dress in protective equipment to enter my own home was a personal 
nightmare. I quickly realized what I was up against. I experienced the 
difficult task of wading through unknown hazards, and obtaining proper 
protective gear to cleanup my home and that of neighbors. Thus, I 
decided to forgo taking advantage of any consulting opportunities, and 
chose instead to volunteer my time to help and educate my community on 
how to protect themselves when entering their home and cleaning up the 
damage. I lent emotional and informational support on how returning 
residents should protect themselves and helped to prepare them for what 
they were up against.
    I believe that New Orleans can be rebuilt in a manner that reflects 
its great racial, economic, and cultural diversity. I, along with many 
others, look forward to returning to our homes to rebuild and 
reinvigorate this city that we love. However, as a community member and 
an expert in environmental and occupational health, I am very concerned 
about the environmental and public health risks that returning 
residents are facing, and the lack of adequate precaution and education 
being provided so that returning citizens can protect themselves from 
any risks that exist.

                 ENVIRONMENTAL AND PUBLIC HEALTH RISKS

    From what I understand, the U.S. Environmental Protection Agency 
(EPA) has been collecting samples of sediment (mud or soil) from 
various parts of New Orleans since shortly after hurricane Katrina. 
Some of the sampling results have been reported on the EPA website. New 
sediment sampling results were taken on September 25-30, and released 
on October 7, 2005, including testing for about 150 chemicals at 
numerous sites in New Orleans and nearby areas.
    From the results that I have observed, I am very concerned about 
the safety of workers participating in cleanup activities and residents 
returning home. In addition, I am concerned about the lack of full 
disclosure to the public about contamination in and around residential 
areas. Finally, I believe that sampling and testing to date is not 
adequate, especially in hard-hit areas such as the lower and upper 9th 
ward.
    I believe that EPA and other health agencies should immediately 
broaden toxicity testing of sediments, soils, water, air, and seafood 
(including both chemical and biological contaminant monitoring), as 
well as biomonitoring and health surveillance of responders and the 
public. Immediate widespread testing of sediment and dried mud is 
critical to ensuring the safety of cleanup workers and returning 
residents, and for identifying toxic hotspots for containment and 
cleanup. Big industrial facilities, Superfund sites, and other toxic 
hotspots should be catalogued and evaluated, and any dangerous releases 
contained immediately. Immediate public disclosure of all information 
is also critical.
    In short, the most recent EPA data demonstrates the following 
(thank you to the Natural Resources Defense Council for assisting in 
the review of EPA's data):
    <bullet> Based on test results, EPA and CDC recommend that people 
avoid all contact with sediment from the flood due to potential health 
concerns. If you touch sediment, EPA and CDC recommend washing with 
soap and water, rinsing your eyes, and removing contaminated clothes.
    <bullet> Bacteria (E. coli) were found in the sediment, indicating 
persistent problems with sewage contamination. There is no information 
on what amounts of bacterial contamination is hazardous, but the 
continuing presence of bacteria shows a need to take safety 
precautions.
    <bullet> Toxic metals--lead, arsenic, mercury, cadmium, manganese, 
and chromium were found in most samples. The amount of arsenic in many 
areas was higher than the ``minimum risk level'' established by the 
federal government and was above the remediation level established by 
Region 6 EPA for soil in residential neighborhoods.
    <bullet> Petroleum contamination was discovered in most sediment 
samples, especially from diesel fuel. Many samples from flooded areas 
were over the levels at which Region 6 EPA or the Louisiana Department 
of Environmental Quality may require soil clean-up in residential 
areas. Skin contact with sediment contaminated by fuel oil can cause 
itchy, red, sore, and peeling skin, even after brief contact. Breathing 
dust contaminated with these chemicals, especially if you breathe them 
for many days, can cause illness too.
    <bullet> Other contaminants in the sediment included pesticides, 
phthalates (chemicals in plastics), several industrial solvents, and 
PAHs (cancer-causing chemicals in soot).
        more precautions should be taken by returning residents
    As a public health professional, I have been surprised by the lack 
of adequate public health advisories and warnings regarding the 
potential serious environmental and public health impacts of returning 
to previously flooded areas.
    I have personally observed residents and workers in contaminated 
areas with no protection or safety equipment. I observed residents re-
entering their contaminated properties often with young children in 
hand. Although some people were wearing gloves or using hand 
sanitizers, after handling contaminated materials they did not properly 
decontaminate their clothing--they used their clean hands to remove 
contaminated boots, threw contaminated clothing in the trunks of their 
cars, or often wore the decontaminated clothing in the cars. I observed 
many workers conducting cleanup activities with no protective gear at 
all. Although some workers did wear protective gear, I observed that 
they would often wear the same suit all day long, in addition to no 
double suiting, without any change, and then I observed that they 
failed to decontaminate the equipment after use, or shower after 
removing contaminated clothing. In several instances, I observed 
workers with protective gear move from a contaminated site to a 
noncontaminated site without any decontamination procedures, thus 
spreading toxics from one place to another.
    To address these problems, I wanted to share with you some of my 
impressions of what kind of precautions I think residents returning to 
flooded areas with potential contamination should take (thank you to 
Natural Resources Defense Council for assisting in making these 
recommendations):
    <bullet> Sensitive populations (children, the elderly, and people 
with asthma, heart conditions, or compromised immune systems) should 
avoid returning until cleanup is completed.
    <bullet> I strongly recommend, if residents do return, that they 
wear protective gear, limit their time in previously flooded areas, and 
wash well once they are out of the area and have access to clean water 
again. Protective gear includes heavy boots, nitrile or vinyl gloves 
(if they will be touching anything), and a respirator to filter out 
contaminants. An appropriate respirator would be an N-95 mask that can 
filter out particulate matter as well as microorganisms (such as spores 
from mold). If they are removing debris from inside a home, full 
protective clothing (Tyvek or similar full body protective suit), is 
also recommended. Protective gear can be purchased at a hardware store 
or online for less than $50 for a full outfit.
    <bullet> Dried dirt and mud in and around houses may contain 
harmful toxic chemicals. Residents should avoid activities that stir up 
dust (such as sweeping and shoveling). Residents should also avoid 
eating food or smoking and applying cosmetics in contaminated areas. 
They should wear two layers of gloves when handling anything that came 
into contact with the flood water or sediment.
    <bullet> Drinking water and sewage systems were hit hard by the two 
storms leaving more than 2.4 million people without safe drinking 
water. As of October 10, the EPA reported that 270 public water systems 
in storm-affected states were still on boil water advisories, and at 
least 289 systems were still inoperable. Boiling water only removes 
bacteria, but not other contaminants such as metals and toxics. 
Therefore, residents should avoid drinking the water. To avoid 
dehydration, they should have plenty of bottled water.

     PROTECT RETURNING RESIDENTS, DON'T WEAKEN FEDERAL PROTECTIONS

    I urge you to reject all efforts to weaken public health and 
environmental laws with riders in the appropriations process. Families 
already injured by the hurricanes should not be placed in further 
jeopardy by proposals to waive or weaken the laws that guarantee them 
clean water, healthy air, and safe communities. EPA has not identified 
the need for any waivers beyond those already allowed by current law 
therefore the need for flexibility can be accommodated without changes 
in current law. I urge you ensure that all federal agencies involved in 
the recovery and rebuilding efforts fully implement and enforce these 
safeguards, including in minority and low-income communities.

                               CONCLUSION

    Based upon my professional judgment there are truly many 
significant environmental and occupational health hazards that need to 
be addressed. I feel strongly though, that there is no need to instill 
fear in the public. In the alternative, we can alleviate fear through 
proper education and full informational disclosure. Residents need to 
be fully informed of what environmental and health hazards they may 
face in returning to previously flooded areas, and then be advised of 
proper precautions to take in order to protect their health and safety. 
EPA should expand its sampling and monitoring of impacted areas, and 
make that information fully available to the public with 
recommendations on steps residents can take to protect themselves. To 
date, my assessment is that EPA's sampling work is inadequate to fully 
inform the public on what risks exists. Finally, I fully oppose any 
waivers of the key environmental and public health laws that are 
designed to protect our communities. Families already injured by the 
hurricanes should not be placed in further jeopardy by proposals to 
waive or weaken the laws that guarantee them clean water, healthy air, 
and safe communities. Thank you for the opportunity to speak to you 
today.
                               __________
Statement of William H. Hines, Past Chairman and Board Member, Greater 
New Orleans, Inc.; Cochairman, Economic Development Committee, Mayor's 
                   Bring New Orleans Back Commission

                              INTRODUCTION

    My name is William H. Hines, Chairman of the Executive Committee of 
the law firm of Jones, Walker, Waechter, Poitevent, Carrere and 
Denegre, L.L.P., and immediate past Chairman and continuing member of 
the board of Greater New Orleans, Inc., a public/private partnership 
that spearheads economic development initiatives for the ten-parish 
Greater New Orleans region. Additionally, at the request of Mayor Ray 
Nagin, I serve as the cochairman of the Economic Development Committee 
for Mayor's Bring New Orleans Back Commission. I am grateful for the 
opportunity to appear before you today to discuss response and recovery 
efforts affecting the future of New Orleans.
    It cannot be stated often enough. Hurricane Katrina was like no 
other hurricane before it--the cataclysmic storm caused unprecedented 
destruction and long-term interruption to governmental services and 
economic activity. Never in the history of this Nation has a three-
state area been hit so hard nor has an entire major U.S. metropolitan 
city been evacuated for weeks on end.
    And while Katrina occurred over two months ago and seems to be 
largely fading from the front pages of our Nation's newspapers, the 
lives of the citizens of the greater New Orleans area have not returned 
to ``normal''. Many businesses in the region are generating little or 
no revenue, and are struggling to meet payroll, rent and vendor payment 
obligations. Small Business Administration (SBA) loan approvals are 
moving at a snail's pace. As of early October in Louisiana alone, more 
than 230,000 unemployment claims had been filed . . . 16 times the 
normal volume. One additional but illustrative example of how life in 
the New Orleans region has not returned to normal concerns the U.S. 
Postal Service. Most regional businesses are still missing over a month 
of their mail. Without receipt of payment checks, vouchers, bills and 
other important and time-sensitive business documents, commerce within 
the region is significantly hampered. This backlog must be eliminated, 
and it represents but one area where federal assistance can help the 
regional business community.
    On behalf of the citizens of New Orleans and the regional business 
community, I wish to highlight the regional economic activity that must 
be restored in the wake of Katrina.

        PRIORITY #1--RESTORATION AND ENHANCEMENT OF LEVEE SYSTEM

    At the outset, I can assure you that the number one priority for 
the New Orleans business community is to obtain the firm assurance of 
the federal government and this Congress that adequate levee protection 
will be provided for the New Orleans region. Though you have asked that 
we keep comments concerning the Army Corps of Engineers to a minimum, I 
cannot leave this committee today without highlighting this critical 
need for the business community.
    We are extremely pleased with the assurances and actions to date 
provided by the Corps of Engineers that the levee system will be 
rebuilt no later than June 2006 to withstand Category 3 storms. 
However, the business community also needs assurance that the federal 
government will work as quickly as possible, with near-teini timelines, 
to strengthen the critical levee system to withstand Category 5 storms. 
With this assurance, businesses both large and small will be provided 
with the comfort they need to invest and otherwise engage in business 
restoration efforts. Mr. Chairman, I respectfully request that your 
committee and this Congress immediately provide the required statutory 
authorization and federal funding for Category 5 levee protection. The 
greater New Orleans business community looks forward to working closely 
with you in that vitally important effort.

               IMPORTANCE OF MARITIME INDUSTRY TO REGION

    The very founding of the City of New Orleans was based upon the 
distinct and inherent advantages it provided, and continues to provide, 
as a port city for the Nation's maritime and trade industries. The Port 
of New Orleans serves as one of the Nation's key intermodal gateways 
for domestic and international trade. The geographic proximity of the 
Port to the Gulf of Mexico and the mouth of the Mississippi River makes 
it the ideal and central location for the inbound and outbound shipment 
of cargo. As a result, more than 6000 oceangoing vessels call on the 
Port annually. As a key transportation focal point on the Mississippi 
River, the Port of New Orleans serves as the primary hub for the 
shipment of cargo on the Nation's inland waterways system. Given the 
regional access to major road systems, including Interstates I-10, 1-55 
and I-59, the Port is perfectly situated to facilitate the highway 
transport of goods flowing through the New Orleans port region. 
Finally, the Port of New Orleans is the only port in the world with 
immediate rail access by six major national railroads, namely Union 
Pacific, Burlington Northern/Santa Fe, Kansas City Southern, Norfolk 
Southern, Canadian National, and CSX.
    Hurricane Katrina completely shut down the Port of New Orleans. 
That total closure of the Port not only affected the economy of 
Southeast Louisiana, but also the entire Nation. In 2004 alone, more 
than 380,000 jobs in the United States were dependent on the cargo 
activity at the Port.
    The Port is continuing to restore terminal and other services, and 
is now operating at approximately 40 percent of its pre-Katrina 
capacity. The Port of New Orleans is still struggling with a limited 
workforce and the ability to move the cargo in and out of the Port. 
Damaged terminal, warehouse and other Port facilities, and highways and 
rail tracks need to be repaired and/or replaced. The recovery of the 
Port of New Orleans, along with other city functions and businesses, is 
tied to the problems of restoring the entire city. Without adequate 
infrastructure for longer term housing and family needs, workers will 
not be able to return.
    But full restoration of Port services must be a given. With federal 
funding and other assistance, especially from the Army Corps of 
Engineers and the U.S. Department of Transportation, quickly restoring 
the Port and other ports in Southeast Louisiana to full operation will 
help return economic vibrancy to the area.

            TOURISM IS A KEY ECONOMIC DRIVER FOR THE REGION

    Mardi Gras. New Orleans Jazz Fest. Sugar Bowl. Annual business and 
other conventions. As reported by the New Orleans Metropolitan 
Convention and Visitors Bureau, these internationally-renowned events 
and activities, and the culinary, artistic, musical, and many, many 
other attributes of New Orleans, created a tourism industry within the 
region that supported more than 2500 companies with direct employment 
of approximately 81,000 people. Through that industry, direct visitor 
spending within the region was estimated at more than $5 billion 
annually. Restoration of that industry is vitally important not only to 
the New Orleans region but also to the fabric of our Nation as a whole.
    New Orleans is the birthplace of jazz. And as one Congressman 
recently observed, ``New Orleans taught the country how to eat well.'' 
New Orleans is a key part of the cultural and historical heritage of 
our country, and that heritage is largely responsible for the vibrant 
tourism industry enjoyed by the region. With federal funding support 
for the repair of damaged airport, highway, and other transportation 
services, with full restoration of other basic government services such 
as police and fire protection and utilities, and with other federal, 
state and local support, the tourism industry will return to the 
region. We must all work to ensure that it does return in order to 
provide additional economic development opportunities for businesses 
and citizens of the region.

   OTHER ECONOMIC INITIATIVES OF IMPORTANCE TO THE NEW ORLEANS REGION

    The New Orleans region was working hard, with great success, in 
attracting other business and industry sectors to provide a more 
diversified economic base for the area. Though those efforts were 
interrupted by Katrina, in the aftermath of that storm, the business 
leadership of the community is even more committed to luring other 
business and industries to the region.
    Biomedical/Medical.--In New Orleans, 22 biotechnology firms had 
established businesses within the region, and more than 24,000 
employees worked in the high-paying jobs within the New Orleans medical 
sector. Through Louisiana state investments in cancer research and gene 
therapy consortiums among Tulane University, Louisiana State 
University, and Xavier University, and in the state-of-the-art 
BioInnovation Center Wet Lab Incubator and other biomedical facilities, 
the New Orleans region was rapidly becoming a true biomedical research 
center on the Gulf Coast. Government and business leaders in the region 
want to continue these efforts to preserve and enhance these scientific 
and medical activities and the economic benefits that they provide.
    Oil and Gas, Chemical, Manufacturing and Other Industries.--The 
Southeast Louisiana region is well-known as a center for the oil and 
gas and petrochemical industries. South Louisiana produces over a third 
of the Nation's domestic chemicals. Additionally, a third of the 
country's daily domestic oil and natural gas supply originates from the 
same region. New Orleans is fortunate to have major defense contractor 
manufacturing facilities within the region, including Northrop Grumman 
Ship Systems Avondale, Lockheed Martin, Textron, and Bollinger 
Shipyards, which employ collectively over 13,000 workers. The National 
Aeronautics and Space Administration (NASA) Michoud Assembly Facility 
manufacturers external fuel tanks for the space shuttle vehicles and 
certain parts for the Joint Strike Fighter. The largest coffee roasting 
plant in the world, operated by Folgers Coffee, is located within the 
New Orleans region. We must work to ensure that these industries remain 
to preserve economic and job opportunities for South Louisiana 
citizens. Additionally, and applying a concept that has worked well 
with the coffee industry, GNO, Inc. is working to expand local 
manufacturing job opportunities by encouraging appropriate businesses 
to locate factories and similar facilities near the Port of New 
Orleans, the source of imported materials such as steel, rubber, and 
plywood that would be used in their manufacturing operations.
    Information Technology.--Because of a number of Federal programs in 
the greater New Orleans region which employ several thousand people, 
the region has become a center of excellence for ``back office'' 
technologies as evidenced by the information technology work at the 
National Finance Center, the largest payroll center in the Nation, and 
the SPAWAR Systems Center, home to the Defense Integrated Military 
Human Resources System (DIMHRS). Additionally, strong public/private 
partnerships in unique research and technology activity provide strong 
economic and employment benefits through the University of New Orleans 
(UNO) Research and Technology Park, the UNO/Northrop Grumman Maritime 
Technology Center of Excellence, the Bioinformatics Center at 
Children's Hospital, and the Louisiana Optical Network Initiative. 
These activities are extremely valuable to the economic well-being of 
the region, and we continue to work closely with Federal, State, and 
local officials and private entities to ensure the preservation of 
these businesses within the greater New Orleans area.

                               CONCLUSION

    Bold recovery and other incentives are required to preserve 
business and economic opportunity in New Orleans and other affected 
Gulf Coast areas. Simply put, businesses will not return to the region 
unless the Administration and the Congress initiate strong, clear, 
definitive actions for regional recovery.
    As the cochairman of the Economic Development Committee for the 
Mayor's Bring New Orleans Back Commission, I am extremely dedicated to 
the task of working to obtain necessary assurances and incentives to 
restore the economic and business health of the greater New Orleans 
region. We are working closely with the entire Louisiana Congressional 
delegation, the Governor of Louisiana, and other Federal, State and 
local officials on government funding and other initiatives for the 
business community. It is clear that no recovery will happen without 
the support of the Congress to repair and enhance the New Orleans levee 
system and other public facilities and structures, provide appropriate 
federal funding assistance for recovery efforts, and enact significant 
and effective business tax relief and incentives to restore New Orleans 
to its place as one of the primary business, cultural, and historical 
centers of our Nation.
    Mr. Chairman, I thank you again for the opportunity to address your 
committee today. I look forward to working with you and your fellow 
committee members on the economic and business recovery of the greater 
New Orleans region.
                               __________
Statement of Miriam Aschkenasy, MD., MPH, Oxfam America, Environmental 
        Public Health Specialist, Harvard Humanitarian Institute

    Mr. Chairman, Senator Jeffords, and members of the committee, thank 
you for the opportunity for Oxfam America to submit written testimony 
for the record. We appreciate your interest in gathering a variety of 
perspectives on the important issues of how the federal government is 
responding in the wake of hurricanes Katrina and Rita. We will be 
focusing specifically on the role of the federal government in 
protecting public health and safety in Louisiana.
    Oxfam America is an international development and relief agency 
committed to developing lasting solutions to poverty, hunger, and 
social injustice. We are part of a confederation of twelve Oxfam 
organizations working together in more than 100 countries, and, for 
decades, we have conducted relief operations in Africa, Asia, and Latin 
America where governments do not have the resources to respond 
adequately to emergencies. In the United States, we support economic 
and community development in marginalized areas and have been working 
with local organizations in Mississippi, Louisiana, and Alabama for 
over a decade.
    In Katrina's immediate aftermath we did not anticipate that our 
expertise and resources in emergency relief would be needed. People in 
the United States are fortunate to have numerous government 
organizations--from local fire and police departments to the National 
Guard and all the way up to the Federal Emergency Management Agency--
that are well-equipped and ready to respond to emergencies. But as the 
scope of this disaster grew and the disaster response institutions 
failed on a massive scale, it became clear that there were substantial 
gaps that needed to be filled. Oxfam America launched, for the first 
time in its 35-year history, a relief effort within the United States, 
focusing on Louisiana and Mississippi. As in all other emergencies, our 
efforts are focused on assisting the poorest and most vulnerable 
communities.
    In the United States, as elsewhere around the world, those living 
in poverty are the most vulnerable during disasters and are often also 
the last to get help. Oxfam's role is to help affected communities to 
identify their most urgent needs, to identify what kinds of assistance 
are available for them, and to ensure their interests are represented 
at the local, State, and national levels when decisions are made that 
effect their future. Crucial among these decisions is deciding how 
people will be warned about, and protected from, environmental 
contamination as they return to live and work in these affected 
communities.
    Just as institutions charged with protecting their safety failed 
the people of Louisiana and Mississippi in the hurricanes' immediate 
aftermath, so is it possible that government and State agencies could 
again be failing to protect residents as they try to rebuild their 
lives. Failure to address continuing threats to public health from 
environmental contamination and mold--threats that are present in 
neighborhoods and inside homes--could have deadly consequences in both 
the short and long term.

                  THREATS TO PUBLIC HEALTH AND SAFETY

    During the past months, we at Oxfam have been working closely with 
local community 'organizations in Mississippi and Louisiana, including 
the Louisiana Environmental Action Network (LEAN) and the Southern 
Mutual Help Association (SMHA). Our first priority was to support 
immediate relief efforts, later transitioning into the equally critical 
work of helping protect communities from threats to their health and 
safety.
    As a public health specialist for Oxfam and Harvard Humanitarian 
Institute, I have had several opportunities to tour the hurricane-
stricken parishes of Louisiana in the company of our local partners. I 
have witnessed the total destruction of homes, towns, livelihoods, and 
communities. I viewed these areas through the professional lens of 
being an environmental public health specialist and a physician. But I 
also went to Louisiana as a human being. I was invited into destroyed 
and ravaged homes, speaking with families returning to live in their 
homes, while consoling others who had simply come to collect what 
little remained and to leave. I talked with city councilors and mayors 
and worked alongside local community organizations. I am privileged to 
share with you what I have learned and what concerns me from both an 
environmental public health perspective and a human one.
    The Louisiana coast is accustomed to hurricanes, but the magnitude, 
overall destruction, and complexity of Hurricane Katrina make it 
unique. Amid the destruction of homes, business and infrastructure, the 
environmental contamination was extensive. Damage to large industrial 
companies in the impacted areas has led to a breach of storage 
containers and release of industrial chemicals into the surrounding 
soil and sludge. According to the Coast Guard, Katrina ``unleashed at 
least 40 oil spills--10 of which are major--from ruptured pipelines and 
battered oil-storage facilities. In total, at least 193,000 barrels of 
oil and other petrochemicals were blown or driven by tides across the 
fragile marshy ecosystems and populated areas of the Plaquemines and 
St. Bernard parishes, southeast of New Orleans'' (Wall Street Journal, 
9/23/2005).
    Despite this destruction, people are determined to return to their 
homes and communities. Some are returning to collect what is 
salvageable from their belongings and leaving; others are returning to 
try to repair, rebuild, and start again. When they do return, they will 
be exposing themselves to environmental contaminants, and, as families 
and communities, they will have to struggle with long-term 
environmental and public health impacts.
    People who return to their homes--and those who are working to 
rebuild the region--are exposing themselves to serious health hazards. 
The sludge, silt, soil, air and water have been contaminated. 
Currently, we can only speculate as to some of the short and long-term 
effects that may affect a returning community based on prior exposure 
data. In the short term, these may include: rashes, headaches, nausea, 
vomiting, heat-related illness, respiratory-related illnesses, wound 
infections, exacerbation of chronic illness, and spontaneous abortion. 
In the long term, we may see decreased fertility rates, increased 
cancer rates, increased spontaneous abortion rates, increased fetal 
malformations or birth defects, as well as unknown long-term effects.
    Other risks include:
    <bullet> injury from debris, including structural instability, risk 
of lacerations and skin infections,
    <bullet> asthma, allergies and other lung problems from burning of 
debris, from aerosolization of dried sludge, from dust from the 
deconstruction of damaged buildings,
    <bullet> infection from a lack of proper cleaning facilities, skin 
exposure, exposure to sewage,
    <bullet> unknown risks from remaining sludge that contains 
industrial byproducts and sewage,
    <bullet> exposure to extensive amounts of mold that not only 
present a health hazard but also can create structural damage,
    <bullet> possible carbon monoxide poisoning for those using 
makeshift heating sources.
    Further, people are exposed to these risks in a context where 
medical facilities are damaged or nonexistent; health care personnel, 
in many cases, have been evacuated; resources and supplies are thin to 
nonexistent; and many areas continue to have no running water, 
electricity, or sewage facilities.
    Let me be clear: These problems are in no way limited to New 
Orleans. An overwhelming number of towns and communities have been 
affected, and this has stretched the response and relief system to its 
limit. Many smaller towns with fewer people are still having difficulty 
accessing local responders and are experiencing continuing delays in 
receiving basic relief requirements. There needs to be clearer 
assessments performed of the health needs of people who have returned 
to hurricane-affected communities--we are suffering from a severe 
shortage of standard public health data.
    As people return to the area, they are ill-equipped both in terms 
of information and in terms of protections. People are making decisions 
about going home without clear information and guidance about the risks 
associated with return. There is little information regarding what they 
should be concerned about, what signs and symptoms to watch for, when 
to leave the area and seek medical attention, and where they can find 
it.
    For those who do return, they are not receiving proper instructions 
on how to clean up as safely as possible. Further, there is a paucity 
of proper cleaning supplies that limit exposure to possible 
contaminants, such as industrial gloves, masks, and goggles. In many 
areas, these items are not available, and many families do not have the 
money to purchase them even if they can find these materials that are 
in short supply.
    To recount just one example, I met one man and his family who were 
cleaning debris and mold from their home. They were intent on moving 
back to their community in the southern parishes. The family let me 
into their house only after they were convinced that I was not there to 
condemn it. The house had several stories, and the entire bottom floor 
had been covered with 6 inches of sludge. This man and his family had 
already cleaned up two-thirds of the bottom floor, and he had been 
sleeping on a cot in the bottom floor living room for several days. The 
back room still had areas with 6 inches of sludge on the floor.
    In another back room, they had pulled up the carpet and on the wall 
you could see the water line. Above the water line, a 12-inch band of 
black mold was growing on the wall. This man had been doing cleanup in 
a pair of sneaker and jeans, wearing no shirt, gloves, eye protection, 
or boots. His daughter-in-law was wearing rain boots, shorts, a t-
shirt, and no gloves. His son had already developed a skin infection 
and was no longer helping with the cleanup. I spoke with the man 
specifically about the hazards he was facing, including toxins, 
bacteria and risk of injury from debris.
    He said he knew about these risks, but stated he had received all 
his vaccinations and was going to be OK. I encouraged him to use 
protective gear when cleaning, and he again assured me that this was 
not his first hurricane. He claimed he knew what to do and would be 
fine, but he did ask me if we had any gloves to give him.
    In Louisiana, you hear these stories again and again. After I 
testified before the State Health and Welfare Committee, several 
legislators came up to me and said, ``I got sick.'' One woman said she 
got a rash and hives from her house, and her friend was sick with a 
fever and a lung infection. Another legislator said he and his wife 
went back to clean up, and she became so sick with headaches and nausea 
that he sent her back to her family.
    Families have lost their homes, their possessions, important 
documents, the sense of security and the literal roof above their 
heads. These factors, coupled with the environmental health hazards, 
the lack of services, and the loss of community make public health 
interventions key in restoring the southern parishes to even the most 
basic level of function. Hurricanes Katrina and Rita will lead to a 
cumulative impact of multiple stressors that will inevitably negatively 
affect the public health of these already hard-hit communities. A 
combination of short-, medium- and long-term support and services must 
be provided to help these communities survive.
    We understand that families may want to return to their home 
regardless of the risks. These are where they raise their kids, have 
their friends, and live their lives. It is imperative, though, that 
they have a full understanding of the hazards they are going to face, 
have support to help mitigate those hazards, and try to stay as safe as 
possible. To fail to provide these first lines of defense against 
further injury, illness, and death would be to facilitate the onset of 
yet another emergency.

           OXFAM'S WORK TO PROTECT PUBLIC HEALTH IN LOUISIANA

    Working with our local partners, Oxfam has been monitoring the 
public health situation in Louisiana and working to help educate and 
protect returnees. Oxfam partnered with LEAN and SMHA to distribute 
``Re-entry Protection Kits'' which contain items such as bleach, dust 
masks, gloves, boot covers, biohazard bags, goggles, and protective 
covering. SMHA, LEAN and Oxfam distributed 100 kits in Erath and Jean 
Lafitte. The EPA has since contacted LEAN to commend them on their 
work. Oxfam has also put together a Public Service Announcement with 
LEAN. The thirty-second spot will be airing in southern Louisiana, 
warning returnees of the public health risks of returning home and 
offering advice on how to protect themselves.
    As mentioned above, we provided testimony before State legislators 
on similar issues to those presented here. At a news conference held at 
the Erath distribution, we joined our partners in calling for more 
federal action on the public health front. This call was echoed by 
Louisiana State Representative Sydnie Mae Durand at the news 
conference.
    On November 12, LEAN will be hosting a key conference, ``Rebuilding 
Louisiana,'' which will call attention to the environmental hazards 
that pose public health risks to people returning to their homes. LEAN 
and other Oxfam partners have been filling crucial information and 
protection gaps left by the Federal and State Government, but these 
activities need to be expanded to reach all the affected communities.

                            RECOMMENDATIONS
 
   We urge the Environmental Protection Agency to take the following 
important steps to inform returnees of the health and safety risks they 
face and to help them to mitigate those risks:
    (1) Encourage evacuees not to return home if communities are not 
safe. If possible, evacuees should wait until services such as water, 
sewer, electricity, medical/911 services, and phones are functioning 
before returning to their homes. Children, the elderly, pregnant women, 
and people with certain medical conditions are particularly at risk and 
should stay away if at all possible.
    (2) Provide information and instruction using clear, 
straightforward language. The EPA and Department of Environmental 
Quality must distribute educational materials, making sure they are 
practical, with little or no technical jargon. Recommendations must be 
clear and concise to avoid ambiguity.
    (3) Provide clean up and recovery kits. These kits serve two 
important purposes: First, they provide families with essential self-
protection tools they may not otherwise have; and second, they educate 
families about what dangers to watch out for and how to take 
precautionary measures.
    (4) Ensure that rural communities also have access to information 
and precautionary measures. With the spotlight on New Orleans, the 
southern rural parishes devastated by the hurricanes and flooding have 
been neglected, and this must not continue.
    (5) Conduct extensive testing for contamination. Continued testing 
is imperative to determine which chemicals and pollutants are now in 
the surrounding environment, at what levels they remain, and what 
potential dangers they pose to those who will have long-term exposure.
    (6) Continue injury and health surveillance. Families returning to 
affected areas are going to be exposed to health hazards. Monitoring of 
their health will help determine how dangerous these areas are and what 
the long-term health needs of the community may be. Agencies must 
continue in the long term to monitor the physical and mental health of 
these communities, including evaluating the environmental surveillance 
data by the DEQ and rates of disease and illness.

[GRAPHIC] [TIFF OMITTED] T7441.015

[GRAPHIC] [TIFF OMITTED] T7441.016

[GRAPHIC] [TIFF OMITTED] T7441.017

[GRAPHIC] [TIFF OMITTED] T7441.018

[GRAPHIC] [TIFF OMITTED] T7441.019

[GRAPHIC] [TIFF OMITTED] T7441.020

[GRAPHIC] [TIFF OMITTED] T7441.021

[GRAPHIC] [TIFF OMITTED] T7441.022

[GRAPHIC] [TIFF OMITTED] T7441.023

[GRAPHIC] [TIFF OMITTED] T7441.024

[GRAPHIC] [TIFF OMITTED] T7441.025

[GRAPHIC] [TIFF OMITTED] T7441.026

[GRAPHIC] [TIFF OMITTED] T7441.027

[GRAPHIC] [TIFF OMITTED] T7441.028

[GRAPHIC] [TIFF OMITTED] T7441.029

[GRAPHIC] [TIFF OMITTED] T7441.030

[GRAPHIC] [TIFF OMITTED] T7441.031

[GRAPHIC] [TIFF OMITTED] T7441.032

[GRAPHIC] [TIFF OMITTED] T7441.033

[GRAPHIC] [TIFF OMITTED] T7441.034

[GRAPHIC] [TIFF OMITTED] T7441.035

[GRAPHIC] [TIFF OMITTED] T7441.036

[GRAPHIC] [TIFF OMITTED] T7441.037

[GRAPHIC] [TIFF OMITTED] T7441.038

[GRAPHIC] [TIFF OMITTED] T7441.039

[GRAPHIC] [TIFF OMITTED] T7441.040

[GRAPHIC] [TIFF OMITTED] T7441.041

[GRAPHIC] [TIFF OMITTED] T7441.042

[GRAPHIC] [TIFF OMITTED] T7441.043

[GRAPHIC] [TIFF OMITTED] T7441.044

[GRAPHIC] [TIFF OMITTED] T7441.045

[GRAPHIC] [TIFF OMITTED] T7441.046

[GRAPHIC] [TIFF OMITTED] T7441.047

[GRAPHIC] [TIFF OMITTED] T7441.048

[GRAPHIC] [TIFF OMITTED] T7441.049

[GRAPHIC] [TIFF OMITTED] T7441.050

[GRAPHIC] [TIFF OMITTED] T7441.051

[GRAPHIC] [TIFF OMITTED] T7441.052

[GRAPHIC] [TIFF OMITTED] T7441.053

[GRAPHIC] [TIFF OMITTED] T7441.054

[GRAPHIC] [TIFF OMITTED] T7441.055

[GRAPHIC] [TIFF OMITTED] T7441.056

[GRAPHIC] [TIFF OMITTED] T7441.057

[GRAPHIC] [TIFF OMITTED] T7441.058

  

                                  <all>

</pre></body></html>
